<html>
<title> - ENVIRONMENTAL PROTECTION AGENCY’S FISCAL YEAR 2002 BUDGET</title>
<body><pre>[Senate Hearing 107-53]
[From the U.S. Government Printing Office]



.                                                        S. Hrg. 107-53
                   ENVIRONMENTAL PROTECTION AGENCY'S 
                        FISCAL YEAR 2002 BUDGET
=======================================================================



                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION



                               __________

                              MAY 15, 2001
                               __________


  Printed for the use of the Committee on Environment and Public Works












                        U.S. GOVERNMENT PRINTING OFFICE
73-030                          WASHINGTON : 2002
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001








               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                      one hundred seventh congress
                             first session
                   BOB SMITH, New Hampshire, Chairman
             HARRY REID, Nevada, Ranking Democratic Member
JOHN W. WARNER, Virginia             MAX BAUCUS, Montana
JAMES M. INHOFE, Oklahoma            BOB GRAHAM, Florida
CHRISTOPHER S. BOND, Missouri        JOSEPH I. LIEBERMAN, Connecticut
GEORGE V. VOINOVICH, Ohio            BARBARA BOXER, California
MICHAEL D. CRAPO, Idaho              RON WYDEN, Oregon
LINCOLN CHAFEE, Rhode Island         THOMAS R. CARPER, Delaware
ROBERT F. BENNETT, Utah              HILLARY RODHAM CLINTON, New York
BEN NIGHTHORSE CAMPBELL, Colorado    JON S. CORZINE, New Jersey
                Dave Conover, Republican Staff Director
                Eric Washburn, Democratic Staff Director

                                  (ii)

  









                            C O N T E N T S

                              ----------                              
                                                                   Page

                              MAY 15, 2001
                           OPENING STATEMENTS

Boxer, Hon. Barbara, U.S. Senator from the State of California...     3
Clinton, Hon. Hillary Rodham, U.S. Senator from the State of New 
  York...........................................................     6
Corzine, Hon. Jon S., U.S. Senator from the State of New Jersey..    10
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     6
Reid, Hon. Harry, U.S. Senator from the State of Nevada..........    12
Smith, Hon. Bob, U.S. Senator from the State of New Hampshire....     1
Voinovich, Hon. George V., U.S. Senator from the State of Ohio...     8
Warner, Hon. John W., U.S. Senator from the Commonwealth of 
  Virginia.......................................................    11

                                WITNESS

Whitman, Christine Todd, Administrator, Environmental Protection 
  Agency.........................................................    19
    Prepared Statement...........................................    41
    Responses to additional questions from:
        Senator Boxer............................................    40
        Senator Chafee...........................................    75
        Senator Corzine..........................................    52
        Senator Reid.............................................    56
        Senator Smith............................................    47

                                 (iii)

  










       ENVIRONMENTAL PROTECTION AGENCY'S FISCAL YEAR 2002 BUDGET

                              ----------                              


                         TUESDAY, MAY 15, 2001

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:40 p.m. in room 
SD-628, Senate Dirksen Building, Hon. Bob Smith (chairman of 
the committee) presiding.
    Present: Senators Smith, Warner, Inhofe, Voinovich, Reid, 
Boxer, Clinton, and Corzine.

  OPENING STATEMENT OF HON. BOB SMITH, U.S. SENATOR FROM THE 
                     STATE OF NEW HAMPSHIRE

    Senator Smith. The hearing will come to order.
    Let me first of all say to Governor Whitman, now 
Administrator Whitman, welcome again to the committee.
    I want to thank you for joining me in Winchester, New 
Hampshire a few days ago to build support for the brownfields 
bills. It certainly was helpful in that regard to do just that.
    Today's hearing is on the EPA fiscal year 2002 budget. I am 
very pleased that this budget moved along in the direction that 
I believe is necessary if we are to achieve long-term success. 
It is about partnership with the States and achieving results 
through cooperation and smart management.
    It reflects many of the priorities that you, Governor 
Whitman, instituted at the State level as the Governor of New 
Jersey. You can certainly see that Governor's hand on this 
budget as you present it.
    The end result was that virtually all measurable indicators 
show that you left New Jersey with a much-improved environment 
than you found it.
    I recall in your confirmation hearing praise from both 
sides of the aisle for that environmental record. Much of that 
praise has to do with how you prioritize that spending based on 
the end result of what is best for the environment.
    This budget increases spending where it is necessary. It 
institutes a smart management approach so that dollars are 
spent more wisely. While there will be those who will criticize 
it, the Bush budget actually represents a $56 million increase 
over the fiscal year 2001 President's budget request.
    It is environmentally protective. It is fiscally 
disciplined. Certainly, I am pleased about the brownfields 
funding, which is increased to $98 million. Those dollars will 
be leveraged into $300 million worth of cleanup and then 
hopefully even more than that if we can get our brownfields 
legislation passed.
    The beaches bill that was authorized by this committee last 
year will get seed money in this budget to get that program 
started.
    I want to emphasize that this committee did authorize that 
program and we would hope that those programs that are 
authorized would get adequate resources.
    With regard to clean water as a package, clean water 
infrastructure funding is substantially higher than any 
previous Administration that I am aware of since I have been 
here. I want to work with you on how it is divided.
    I am encouraged that the President's budget, unlike in the 
past, recognizes the vital importance of clean water 
infrastructure to this Nation. I have seen so many examples in 
New Hampshire communities, as I am sure my colleagues have all 
over the country of antiquated water systems and CSO problems 
and SSO problems.
    Some of these water systems in our region of the country 
were built in the later 1890's or early 1900's and are long in 
need of help.
    I have a long-standing commitment to the State revolving 
loan fund because it represents the best approach for helping 
States to meet those environmental needs. I also want the 
States to have the flexibility to address their environmental 
structure, their priorities and their needs as they see them.
    I am very pleased that President Bush's environmental 
protection budget recognizes the capabilities of the States and 
begins the necessary shift to increasing partnerships with 
them. This is a basic philosophical shift. I am pleased to see 
that process beginning.
    Over 95 percent of inspections and 90 percent of 
enforcement actions are carried out by the States, not the 
Federal Government. I think this budget recognizes that with 
another $25 million in State enforcement grants.
    This is interesting because it brought a very positive 
response from the States. I would quote one letter from the 
environmental council of the States:

    We appreciate the recognition that a vast majority of the 
enforcement and compliance activity of the Nation occurs within 
the States and we welcome the much-
needed infusion of $25 million in State enforcement grants to 
assist in that effort.

    The President's budget also supports information gathering 
and sharing and will better equip the States.
    There is $21 million to increase the availability of 
quality environmental and health information. EPA also launches 
a new $25 million program to provide States and tribes with 
assistance in developing environmental information exchange and 
so forth.
    Finally, I would say this budget is about smarter 
management. Beyond funding programs to protect the environment, 
the budget priorities focus on quality information, a credible 
deterrent to pollution with greater compliance and effective 
management.
    In conclusion, I would say that when I became chairman I 
stated that one of my goals was to see a Environmental 
Protection Agency that promotes partnership with States, 
encourages cooperation over confrontation, compliance over 
lawsuits. It offers a carrot, yet carries a stick in the 
pocket, if necessary, an agency that focuses on efforts that 
will result in a cleaner and healthier environment.
    Governor Whitman, I believe that you are headed in that 
direction, in the right direction, with this budget, even 
though there will be some differences and criticisms, I am 
sure.
    Before yielding to Senator Boxer and my colleagues, I would 
ask that we go with 5 minutes in the first round and limit the 
questions to two rounds because of a commitment by the 
Administrator at 4:30. So, hopefully, we will respect that.
    Senator Boxer, I yield to you.

           OPENING STATEMENT OF HON. BARBARA BOXER, 
           U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Boxer. Thank you so much.
    Administrator Whitman, Senator Reid said he would be here 
as soon as he could. He was managing something on the Senate 
floor, so he asked if I would fill in for him.
    Mr. Chairman, thank you very much. This is an important 
hearing, because I always believe that a budget is really the 
guideline for what you believe in and what you think is 
important.
    When I look at this budget, it is down 6 percent, it is off 
$500 million in real dollar terms. I think that is a message 
from this Administration and a message that is not good for the 
people of this country who overall really strongly believe in a 
clean and healthy environment and support all the key landmark 
legislative pieces that we fund.
    We are looking at this as a matter of priorities. I think 
that the EPA's mission to protect human health and the 
environment is of great importance.
    I am very concerned with the budget, and more than that, 
with some of the policies that are coming out of this 
Administration.
    We need to ensure the people clean air, safe drinking water 
and healthy communities in general. We know that for example 
children are very vulnerable when we weaken our environmental 
laws. That is what this Administration is set to do. I am not 
going to list the laundry list that we have already seen coming 
out of this Administration.
    I am going to focus on one thing today, but let us be 
clear: This budget is cut 6 percent. When you asked the 
Administrator in the past, I have heard her say, ``Well, these 
are just earmarks, just earmarks.''
    That is things that this Congress, representing the people, 
thought were important. So, I have to question why this 
proposed budget doesn't have the level of resources that we 
provided in 2001.
    Many key programs like Federal enforcement are cut. Other 
key programs like the safe drinking water revolving account are 
flat. I am very concerned that the people are not getting what 
they deserve.
    One item I am particularly troubled about is our drinking 
water. I am very troubled about that whole issue, especially in 
light of the recent suspension of the new arsenic standard for 
drinking water, a standard that is supported by years and years 
of study and extensive cost analysis.
    After a comprehensive review, we still do not today have a 
standard for arsenic in our drinking water that is safe.
    As we know, this Administration delayed the new arsenic 
standard. It is going to be back to that 50 parts per billion 
or is back to that 50 parts per billion.
    We are allowing people to drink enough arsenic in their 
water to cause cancer in 1 of every 100 people. That is why the 
State of New Jersey, Governor Whitman, moved the standard back 
to 10. You know that. We congratulated you on that.
    The question is: If it is good enough for New Jersey, why 
isn't it good enough for the American people? I think even 1 
day losing time like we are losing on this is not good.
    Now, I want to talk with you briefly in this opening 
statement about three new studies, because I don't know whether 
you have had the chance to be briefed by your staff and we have 
brought them with you.
    First let me show you a chart which shows the different 
countries and their standards. Australia has gone to seven 
parts per billion. We see the European Union at 10 parts, Japan 
at 10 parts. The World Health Organization should be 10. 
Joining us at 50 parts per million are Bangladesh, Bolivia, 
China, India and Indonesia. That is where we line up.
    I think most Americans don't want us to line up that way.
    Now, EPA found in January of this year that we could 
establish a new standard now of 10 parts per billion. Not only 
did the weight of science support that standard, but also the 
cost analysis supported that standard. EPA found the benefits 
justified the cost. Years of study supported the 10 parts per 
billion standard and recent studies provided even more support.
    Now, the new studies that have come out, I am going to make 
sure that you get those new studies. The first one, the new 
Dartmouth study, published in Environmental Health 
Perspectives, finds that arsenic disrupts hormone function.
    This finding means that there may be an increase in 
diabetes, cardiovascular disease and cancer. Arsenic is more 
toxic in more ways than we thought. We can see here from this 
new perspective, the Dartmouth Study, March of 2001, it means 
increased risk of diabetes, cardiovascular disease and risk of 
cancer.
    Another chart I want to show you is published in Chemical 
Research and Toxicology. It finds a link between arsenic and 
DNA damage. This is April 2001, EPA. It finds an increased risk 
of cancer and basically that no level of arsenic is clearly 
safe.
    So, clearly we know the lowest possible standard is needed 
and that is very important.
    Finally, there is a new study from Taiwan. I understand 
this study is published in the premier journal in this field, 
the American Journal of Epidemiology. This study finds that 
there is an increase and actual doubling of cancer risk when 
arsenic is consumed in drinking water between 10.1 and 50 parts 
per billion. So, word on the street that you are going to look 
at 20 parts per billion is very upsetting because it is not 
safe at 20.
    This new study says to me that we ought to just keep that 
10 in place and not fool around with the health of the people 
in this country.
    We have a standard in place as a result of the action of 
this Administration that was set in 1942.
    Now, here is the point I want to make. When you ask people 
in your Administration, and you have said this yourself, the 
cost to small communities across the country has to be 
considered. Of course it does. That is why I wonder why you 
have the funding for drinking water infrastructure at a flat 
level, no increase.
    On the one hand you are complaining that you have to do all 
these things. On the other hand, you make this part of the 
budget flat. It seems to me if we really care about the local 
people, and of course, we all do, I was one once and you were 
one once, the fact is we need to help them clean up the water.
    You know, we have a debate over these tax cuts. The people 
who earn $1 million a year are going to get back hundreds of 
thousands a year.
    You know, if I asked them in my State, and I have a lot of 
them in my State, they think it is nuts when we have arsenic in 
the water, when we don't even have a standard for Chromium Six 
and anyone who saw the movie, Erin Brockavich, that was real. 
Those are real people who died of cancer because Chromium Six 
was in the water and we don't even have a standard.
    So, it is all intertwined. I know you have been dealt a 
certain hand in this budget. But I said to you when I happily 
voted for you, and I am glad that I did, that I hoped when you 
sat around the table you were going to make a strong case and 
not back down, a strong case for the children, for the quality 
of the air and the water.
    Frankly, looking at this budget, this gets one of the 
biggest hits in the entire Administration. So, I am very 
distressed about this. I think that what you could do to really 
help everyone is to convince this President that backing off of 
the arsenic standard is not a good idea.
    I think it is illegal. I have sent you a letter. I cited 
chapter and verse the law that is in place that says in fact 
you have to have a new standard in place. Instead of even 
answering that letter, as far as I know I have not even gotten 
an answer, I think this Administration has broken the law on 
that point.
    Congress didn't say ``You may have a standard in place by 
this date.''
    They said ``You have to have one.''
    And there isn't going to be one. So, I am concerned about 
the level of this budget. I am concerned about the action on 
arsenic. I have given you three new studies. I hope you can go 
back to the table and make the case for keeping that arsenic 
standard at 10.
    I will help you in every way that I can to work on a bill. 
Senator Smith, Senator Reid and I am supporting their bill to 
increase the funds to help our local communities clean up the 
water.
    Thank you very much.
    Senator Smith. Thank you, Senator Boxer.
    Senator Inhofe.

          OPENING STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. Thank you, Mr. Chairman. I will be brief, 
but I will submit my opening statement for the record.
    Madam Administrator, I think you have done a real good job 
in putting this budget together. In addition to some of the 
things that our Chairman mentioned, I would single out the 
Information Exchange Network. I think this would be a great 
help to the States.
    In this information age, it is not reasonable that we 
continue to do things the way we have been doing them in the 
past.
    The Superfund, moving forward with that, I have a concern 
here. I do chair the Readiness Subcommittee that has 
jurisdiction over the BRAC process and the fact that we need to 
have our Federal partners cleaning up the Federal facilities. I 
would particularly be concerned with some of our BRAC sites.
    The water infrastructure funding, I think, is very 
significant. I say that not just for my State of Oklahoma, but 
to many other States. The same with total maximum daily loads.
    I would single out your commitment to sound science. It is 
something that we have been working on for a long time. As I 
told you many times when you and I visited about this, it is 
very important. In the language that you used, and I am quoting 
now,

    Science and public policy proceed along fundamentally 
different lines, different time lines. We will continue to use 
the best available science and scientific analysis to aid in 
the development of environmental policy.

    I can remember when we virtually ignored the 
recommendations of CASAC, the Clean Air Scientific Advisory 
Committee. Some 21 scientists, gathered together by EPA, issued 
a report with recommendations during the ambient air fight.
    Last, on New Source Review, this has been something that 
Senator Voinovich and I have been very much concerned with over 
a long time. I know this is not your doing. It was a surprise 
to me, maybe it should have been more of a surprise than it 
was, but these notices of violations of the 114, how many of 
them were dated January 19, 2001.
    Many of the requests came in in the form of photocopied 
documents where one refinery is scratched out and another one 
put in. In these areas, I hope we will be able to see activity 
in addressing this New Source Review expanded.
    Thank you, Mr. Chairman.
    Senator Smith. Thank you, Senator Inhofe.
    Senator Clinton.

OPENING STATEMENT OF HON. HILLARY RODHAM CLINTON, U.S. SENATOR 
                   FROM THE STATE OF NEW YORK

    Senator Clinton. Thank you, Mr. Chairman.
    I want to focus on a couple of issues that concern me. I 
certainly second the comments of my colleague, Senator Boxer, 
and hope that despite what we heard the arsenic standard will 
be issued in a timely and legally appropriate manner by the 
date that the Congress set.
    I want to talk, though, about the intersection between our 
environment and energy. I don't think it will surprise anyone 
in this hearing that we have the threat of power outages in our 
country, and that is not just in California. It includes New 
York.
    According to a new Energy Information Administration 
report, the probability of rolling blackouts is increased as 
reserve margins decline. Supplies of electricity are expected 
to be tight in the New York City and Long Island areas this 
summer.
    While unlikely, blackouts could occur in the event of a 
long period of extremely hot weather.
    I raise this issue because I am very concerned about what 
the threat of blackouts or brownouts means for New Yorkers and 
Americans this summer. It appears that President Bush's energy 
plan, to be released this week, will not address our short-term 
energy needs. In fact, he has said that his tax cut is the 
response that his Administration has to the current energy 
challenges that we face.
    I just could not disagree more, especially because the 
budget cuts we see in this budget and the budgets of other 
agencies in our government are being made primarily to 
accommodate these fiscally irresponsible tax cuts.
    Unfortunately, the tax cut requires that there be cuts in 
the energy efficiency and energy conservation programs that we 
need in order to help us solve our Nation's power problems.
    The President's budget cuts research in renewable energy by 
an astounding 37 percent and slashes energy efficiency programs 
in half. I think these are drastic cuts that lead our country 
in the wrong direction. They seem to overlook an important 
fact, that energy efficiency, as we heard in testimony before 
this committee in the past, represents the second largest 
source of energy in the United States.
    Now, more than ever, we need a balanced energy policy that 
embraces energy efficiency and conservation measures in 
combination with new environmental responsible generation of 
power, including renewable energy sources.
    Now, the EPA's Energy Star Program, which, I think, is 
perhaps one of the best examples of what government and 
industry can achieve when they work together in partnership, 
has been a tremendous success. Everyday this program has made 
it easier for businesses and schools and consumers to save 
money and protect the environment.
    It is my understanding that over the past 8 years, through 
simple energy efficient improvements, the Energy Star Program 
has helped us avoid the need for over 30 new 300-megawatt power 
plants. As technology continues to advance, the program has the 
potential to do even more.
    Now, given the current energy crunch we find ourselves in, 
I believe we should be expanding, not flat funding or cutting 
back important programs like the EPA's Energy Star Program.
    I am also concerned that the President's plan makes the 
EPA's budget and important environmental programs a secondary 
priority. In total, the President's budget request for EPA is 
approximately $500 million less than the enacted level for 
fiscal year 2001, or a 6-percent cut.
    Now, if the EPA budget accounted for the 4-percent growth 
rate that President Bush said is a reasonable rate of growth, 
his request for EPA would represent a 10-percent cut.
    The President's request represents significant funding 
shortfalls for important programs like the Clean Water State 
Revolving Fund, Enforcement, Sound Science, and Pesticide 
programs.
    I am particularly concerned that these cuts are coming at a 
time when we are trying to determine the links between our 
environment and our health. For example, many people, not just 
in New York, but around our country, believe that the 
environment plays some role in the incidence of breast cancer 
in women. They have not yet determined what that role is. But 
we cannot give up our efforts to control those factors that we 
think possibly cause or influence cancer.
    We still don't know, for example, what caused the childhood 
cancer cluster in Fallon, NV, where I went with Senator Reid 
for a hearing, or the high rate of testicular cancer in the 
students who attended a high school in Elmira, NY. But we 
should not give up on the commitment to determine whether it is 
pesticides and other chemicals that get into our water or our 
air, whether it is the increasing levels of nitrogen oxides and 
other pollutants, whether it is the cumulative effect of 
environmental contamination that has been built up over the 
years.
    We don't know but we are certainly not going to find 
answers by cutting funding for EPA's science and technology 
programs, including research on air pollution and safe drinking 
water.
    We are certainly not going to protect our children better 
if we fail to increase or even cut investments in programs that 
will make our air and water cleaner.
    So, I hope that as we look at this budget request, we do 
what we on this committee, in a bipartisan manner, believe is 
in the best interests of the health of our children, our 
environment's improvement, and our energy efficiency.
    I find in those three areas this budget proposal just 
doesn't meet the challenges that we have.
    Senator Smith. Thank you, Senator.
    Senator Voinovich.

        OPENING STATEMENT OF HON. GEORGE V. VOINOVICH, 
              U.S. SENATOR FROM THE STATE OF OHIO

    Senator Voinovich. I know that last year we held an EPA 
budget hearing each year. I am pleased that we are doing it, 
Mr. Chairman. It is very important. I think at that time it is 
very important for us to have this oversight over the 
appropriations process.
    I would like to commend the Administrator for the 
President's budget submittal. I know one thing, that you didn't 
have a whole lot of time to put this budget together, nor did 
the President. It is interesting to me to hear that we need to 
spend more money in your budget. I suspect that I agree with 
that, but at the same time, we are talking about increasing the 
budget for education. If you look at the numbers, it is 25 
percent.
    Administrator, you know from being a Governor that when you 
have large increases in other parts of the budget, they squeeze 
out other priorities that you have in the area of 
responsibility that you have.
    Unfortunately, this Congress, in my observation, has not 
been willing to make the hard choices and the priorities to 
look at the big picture in the 13 appropriations areas and that 
is one of the reasons why we are in trouble today. We just 
don't do that.
    I really feel sorry for you in a way because of the way 
this thing works here. Hopefully, it is not too much of a shock 
to you.
    I know you have gotten some criticism for transferring part 
of the enforcement budget to the States through a $25 million 
grant program. But I think that is exactly what you should be 
doing.
    As the former Governor of Ohio, I realize that the States 
are and should be taking the lead on environmental enforcement. 
I think many people are not aware of the fact that the States 
already conduct 95 percent of all inspections. I think it is 
time for the Federal EPA budget to acknowledge that fact.
    By proposing these State enforcement grants, we as a Nation 
will get a better environmental enforcement program.
    Now, there are a few issues I would like addressed today by 
you. I have held two meetings in Ohio over the last several 
months on Ohio's wastewater infrastructure needs. Most 
recently, at the end of April, Senator Crapo conducted a field 
hearing in Columbus, OH on the State's wastewater needs.
    Mr. Chairman, we are facing a rumbling of a rebellion 
across the Nation as communities struggle to deal with aging 
water infrastructure growth, increasing Federal water quality 
requirements.
    In Ohio alone, the estimated need for safe drinking water 
and wastewater total $12.4 billion. That is $5 billion for 
drinking water and $7.4 billion for wastewater.
    I know that you have to defend the budget request of $850 
million for the Clean Water State Revolving Loan Fund as an 
increase. It would, in fact, be a $500 million cut from the 
$1.35 billion Congress has appropriated in recent years.
    At the same time, the request ignores Congress' goal of 
funding the Clean Water SRF Program at $1.35 billion, before 
putting any money toward the wastewater grants program, which 
is authorized at $750 million for fiscal year 2002.
    Now, there is not enough. I have a bill in to increase the 
State Revolving Loan Fund to $3 billion a year. That is modest 
in terms of the needs. We know that the States need grants. 
Last year when we did the authorization, this Congress, as a 
sense of the Congress, said we need to at least get the $1.35 
billion for the SRF and we needed another $750 million a year 
for the grant program.
    You know, we have a very serious problem there. I think you 
ought to go back and look at that and see if there is not 
something that you can do to respond. It is not a whole lot of 
money, but it will make a great deal of difference to the 
communities throughout our country.
    Another issue is human capital. All of our Federal agencies 
are confronted with a human capital crisis. I would like to 
know from you what is the situation in the EPA and what percent 
of your work force is eligible for retirement and early 
retirement.
    Most importantly, what category are you going to have 
problems in? For example, scientists, are you going to be able 
to have the scientists that you need? You probably have more 
Masters degree and PhD. people working in your agency than in 
any other agency. I know it is not easy to keep them or to 
attract them.
    I am interested to know, does this budget provide you the 
wherewithal so that you can keep your folks and attract people 
to the agency?
    Last year the National Research Council prepared a study 
entitled ``Strengthening Science at the U.S. EPA.'' That report 
included several recommendations on how to improve the research 
management and peer review practices at the agency. While some 
of these recommendations require congressional authorization, 
many do not.
    Is the Administration's budget request sufficient to 
accomplish the recommendation necessary to strengthen EPA's 
scientific practices.
    I look forward to your testimony. You don't have an easy 
job. We are hopeful that we can work with you the rest of this 
year and next year. Maybe the budget presentation next year 
will be easier.
    Senator Smith. Thank you, Senator Voinovich.
    Senator Corzine.

OPENING STATEMENT OF HON. JON S. CORZINE, U.S. SENATOR FROM THE 
                      STATE OF NEW JERSEY

    Senator Corzine. Thank you, Mr. Chairman.
    It is good to see you, Governor. I want to echo much of 
what my Democratic colleagues have said. Also, I want to 
identify strongly with Senator Voinovich's comments on the 
Clean Water Revolving Fund. I have serious concerns there and 
also about arsenic standards, which I think are clear.
    The whole level of discretionary spending cuts that are 
imbedded in this budget, these budget numbers, really are 
reflective of the priorities that are flowing from, I think, an 
outsize tax cut as opposed to reflecting our priority needs.
    I frankly think the EPA budget request this year is 
inadequate to address the environmental needs of the Nation. 
The request for the next year is not the exception. Actually, 
we are more troubled about the outyears at least as we have 
seen it in the proposals. It makes real dollar reductions in 
EPA every year for the next 5 years, if I am reading the 
numbers right.
    We tried to fix this problem during the budget debate. 
Every Democrat on this committee voted for an amendment that I 
offered to increase environmental funding, including EPA's 
budget, by $50 billion over the next 10 years.
    I know throwing money at things is not the answer for all 
problems, but there are certain levels of funding that are 
necessary, I think, to deal with a lot of these issues in our 
environmental areas.
    So, I think there are real problems with EPA's request. I 
have concerns somewhat with some of the policy choices that the 
budget makes. It cuts Clean Air, reduces the number of 
Superfund cleanup sites, which, you know, in New Jersey is more 
than a small problem. It cuts funding for challenge global 
warming. I believe it shuffles some accounting columns with 
regard to funding for pesticide assessments.
    Maybe more importantly, and we talked about this at the 
confirmation hearing, I find your enforcement cuts especially 
disturbing. I am all for compassionate enforcement, but I think 
we need to be real with regard to credible deterrence. It is 
hard to believe that this budget, which cuts 269 enforcement 
positions, will make the prospect of enforcement more credible 
to polluters.
    I understand that most of the resources freed by these cuts 
are going to the States. I want to help States, Mr. Chairman, 
but not at the expense of Federal enforcement. It is too 
important. I believe the people of New Jersey depend on it, 
reflect on it, think that EPA has done a good job.
    They depend on Federal enforcement of the Clean Air Act to 
address pollution coming in from other States, which 
contributes to New Jersey's ozone problems. We certainly depend 
on Federal enforcement to clean up our 114 Superfund sites. 
They depend on Federal enforcement backstops to strengthen 
compliance with the rest of our environmental laws.
    These changes in enforcement policy and cuts to others 
areas, I believe, will hurt New Jersey and send a wrong message 
to the polluters across the Nation. I will be getting back with 
more detail, but I hope that we can all work together to maybe 
increase these numbers somewhat so that we can take this and 
really apply strong environmental standards for our kids and 
for communities.
    Senator Smith. Thank you, Senator Corzine.
    Senator Warner, do you have any opening remarks?

OPENING STATEMENT OF HON. JOHN W. WARNER, U.S. SENATOR FROM THE 
                    COMMONWEALTH OF VIRGINIA

    Senator Warner. Thank you. I will be very brief.
    Madam Secretary, we welcome you. We read a lot about how 
much fun you are having in this job. Sheer joy, isn't it?
    Ms. Whitman. Absolutely.
    Senator Warner. But if it weren't, it wouldn't have 
attracted you, those challenges. I have been a member of this 
committee, I guess, many years now. I don't count any more. But 
we are going to hope to be very supportive and hopefully in a 
very bipartisan way.
    We reach across this aisle on this committee quite well. 
Senator Reid and I have cut through a lot of problems through 
the years, haven't we, Harry? Are you listening to what I am 
saying?
    Senator Reid. Every word of it. I knew you weren't talking 
about Jack.
    Senator Warner. Anyway, each of us has our own project or 
two. But I am looking forward to the President's energy message 
that is forthcoming here on Thursday.
    Over the many years that I have been here, we have worked 
on clean coal-burning technology and other means to preserve 
the environment in the face of the use of coal and other 
sources of our energy.
    I understand that the President is going to rely, as this 
Nation must rely, on coal. It is our largest source of fossil 
fuel energy. It is basically unlimited. I mean we spend so much 
time with grave concern over the increased export of petroleum, 
when beneath this wonderful land we have is an inexhaustible 
supply of coal. It is well distributed across the United 
States.
    So, as we move in that direction, I would hope that we 
could all work with you to continue to have the high 
environmental standards and at the same time enable the free 
enterprise system to utilize coal to meet this energy crisis 
that is coming.
    Do you have any views on that or are you just going to 
listen for a minute and then when you get a chance to talk you 
will touch on that.
    The other issue is the Chesapeake Bay. I was here with 
Senator Mathias, a wonderful Senator. We pioneered that 
agreement. There are three States that signed this report, and 
you are on this, to forge ahead. It is 20 years old now. We 
have authorized about $30 million a year. The appropriators 
have seen fit for $20 million a year. Now we have dropped down 
possibly to $18 million.
    But this benefits many States. There are six States that 
directly benefit from the watershed. That includes northern 
parts of New York. Of course, my States of Virginia and 
Maryland are principal beneficiaries.
    We are constantly facing a destabilizing environmental 
situation now that the Blue Crab is beginning to disappear in 
large amounts. We are taking initiatives to reseed the Blue 
Crab.
    So, I hope this merits some of your attention. I sat here 
last year and watched the Everglades bill go through, an 
enormous amount of money, benefiting primarily one State, 
although the Everglades is a national treasure.
    But this is a national treasure also. We have been plugging 
away for 20 years on this and there is much more to be done. 
So, I hope that you will lend an ear to that program.
    I thank you again for your public service.
    Senator Smith. Thank you, Senator Warner.
    Senator Reid.

  OPENING STATEMENT OF HON. HARRY REID, U.S. SENATOR FROM THE 
                        STATE OF NEVADA

    Senator Reid. I figured out Senator Smith's goal here. We 
use all of our time in statements and then there is no time for 
questions.
    I understand the Administrator wants to leave at 4:30, so 
we will have questions either orally or in writing.
    Mr. Chairman, thank you very much for scheduling this 
hearing. I am always very concerned about saying nice things 
about Administrator Whitman. I am afraid it might hurt her more 
than help her. Maybe I would be better off saying bad things 
about her. It might help more.
    Madam Administrator, President Bush has said that a 
reasonable rate of growth for the budget was 4 percent. At the 
State of the Union he said that. Yet, for EPA, which is what I 
care so much about, the budget overall reflects a cut of 6 
percent, $500 million.
    If we added in President Bush's 4 percent increase that he 
said we should get, the budget would have a cut of 10 percent. 
Many of the programs we have old funding levels. With new, 
complex environmental problems to be faced we still have these 
old funding levels.
    For example, this Administration has criticized the 
regulatory actions taken by EPA in the past for not being 
careful enough or as not being supported by science. Yet, the 
budget fails to increase funding for the offices responsible 
for issuing these regulations and fails to increase funding for 
sound science, which would seem to me logically to compound the 
complaints the President has had.
    So, really what does this budget mean? What sort of 
programs would be affected? Now, I know you didn't write the 
budget. It is something you have to live with. I think it is 
important that we direct your attention to what you do have to 
live with.
    The Environmental Protection Agency would be funded at $7.3 
billion for fiscal year 2002, a cut, as I said, of $500 
million. This translates to cuts in programs to protect water 
quality, infrastructure, clean air, enforcement of all 
environmental laws, and of course, scientific analysis.
     Let's talk about the enforcement cuts. One issue that I 
would like to highlight is the very serious reductions in the 
EPA enforcement efforts. Programs that deter polluters from 
ignoring the law in the first place, that is compliance 
monitoring and civil enforcement, I believe are the backbone of 
Federal environmental protection.
    Enforcement both ensures that the companies know their 
responsibilities and that companies who comply are rewarded for 
their behavior, rather than being put at a competitive 
disadvantage with those who fail to follow laws.
    Madam Secretary, let me just give you one simple example of 
why we have to have enforcement available and we have to use 
it. We had a problem in Nevada. I have invited you out there to 
take a look at government at its best. We had a big gravel pit. 
It was causing all kinds of problems.
    The State was trying their best, but they were under-
equipped to deal with eight oil companies. The oil companies 
had much, much larger departments in any area, including legal, 
than the State of Nevada had.
    We brought in the EPA. An emergency Superfund site was 
declared. That place was cleaned up quickly. It was dangerous. 
We now have a beautiful marina on a lake there. It is so 
beautiful. That is why we need money for enforcement, to have 
not only the muscle, but companies need to know that the muscle 
can be used.
    These cuts that I have talked about affect all programs. 
They will hurt Clean Air, Clean Water, Safe Food, Right to Know 
and other programs. The Administration even cut the budget for 
recovering money spent by the Federal Government. One of the 
activities that the Government Accounting Office has repeatedly 
suggested, EPA needs to beef up, not only because it does a lot 
of good, but also we make money doing that.
    The President's budget contains a provision that would 
shift $25 million for EPA's enforcement of our environmental 
laws to State programs. This translates to a cut of Federal 
enforcement personnel of 270, about 10 percent of the work 
force across the country. These employees are truly the 
environmental cops on the beat. Over 80 percent of these cuts 
will come from field employees, those closest to the problems, 
those working on the cases that ensure environmental laws are 
effective.
    I fully support assisting the States in their enforcement 
efforts, but this should not be funded by undercutting EPA's 
ability to enforce environmental laws.
    The enforcement budget is one of the most fiscally 
efficient ways to improve the environment. For example, under 
the Superfund Program, every one dollar spent in enforcement 
results in $7 worth of environmental cleanup.
    I think the State of New Jersey has had more experience 
than any other State with Superfund. So, I am sure you know 
that. There are many instances when it makes more sense for the 
Federal Government to be involved, such as when there are 
companies involved in several states, an example I have already 
given; cases where the pollution crosses State boundaries, the 
example that I gave, are very large and complex cases which 
would over-burden a single State, an example that I already 
gave.
    Let us talk about budget cuts that deal with clean water in 
estuaries. The budget cuts EPA's Clean Water State Revolving 
Fund Wastewater Loan Program used to provide loans to 
communities for upgrading their water treatment infrastructure 
is cut by $450 million. This is terrible. It ignores the 
Nation's water infrastructure crisis.
    On a bipartisan basis, Senator Ensign and I have introduced 
legislation to increase this. The National Estuaries Program 
would be cut by 50 percent.
    In addition, despite the fact that there are more than 40 
percent of the Nation's waterways unsafe for fishing and 
swimming, the program monitoring water quality on swimming 
beaches will be cut from $30 million in fiscal year 2001 to $2 
million in fiscal year 2002. That is a significant cut.
    The budget cuts funding for sound science. Sound science 
reaches across all aspects of the EPA's programs, from 
regulating arsenic to Yucca Mountain. Quality, objective 
science gives the EPA the credibility it needs to be an 
effective guardian of the health and safety of the public and 
the environment.
    The EPA has said it would like to make sound science the 
basis for policy decisions. The budget fails to support that 
claim. The request is $27 million less than last year's enacted 
level and $21 million less than last year's request.
    Clean Air, the agency's budget request for Clean Air 
Programs is inadequate to keep up with the public health 
challenges we face every day.
    Madam Secretary, asthma has become very, very serious all 
over the country. Every day we learn more about the health 
impacts of fine particles, air toxins and global warming. We 
really don't understand all of them. Yet, the Air budget is 
going down, not up.
    The Clean Air Program would be cut by 6 percent, even 
though more than 100 million people still breath dirty air that 
does not meet Clean Air standards. Programs that help States 
meet quality standards will be cut by 4 percent. Additional 
cuts will be made to ozone reduction, air toxins and acid rain 
programs. It is hard for me to believe this, but that is what I 
am reading, that is what the budget says.
    There are also cuts in scientific research in Clean Air. 
During the Presidential campaign, President Bush said that 
``Efforts to improve our environment must be based on sound 
science, not social fads.''
    Yet, when it comes to funding, sound science, research and 
air pollution at EPA, the budget is sliced by over $6 million 
in research in key air pollutants and cuts more than $1.257 
million from EPA programs regulating hazardous air pollutants.
    The Administration is proposing to delegate ever more 
enforcement authority to States. Air pollution enforcement 
requires a strong Federal presence, as we have already 
established.
    EPA's enforcement actions on New Source Review in 2000 and 
a recent GAO report on inadequate funding by large facilities 
suggests EPA can and must do the job of overseer when the 
States simply don't keep up with the political and resource 
demands that are there.
    The Bush budget proposes a cut of over half a million 
dollars from EPA's climate programs, despite broad recognition 
that it is a serious problem.
    Brownfields legislation we just passed. The Administration 
budget provides only $5 million in additional funding for 
brownfields, a shortfall of at least $152 million in funding 
for S. 350.
    We have already established, Madam Administrator, that 
brownfields will create 600,000 jobs, will add revenues to 
State and local governments of about $2.5 billion. So, we need 
to do this. The budget goals aim for 20 fewer Superfund 
cleanups a year. I think it should be at least 20 more 
Superfund cleanups a year.
    Pesticides and children's health. I was hopeful that 
protecting children from dangerous pesticides would be an area 
where we could make progress FE not so. In the face of 
rollbacks in protections for air and water, we understand that 
a consent decree was signed to put EPA on a schedule to provide 
critical pesticide protection for children.
    The Administration did the right thing, Governor Whitman. 
Time and time again since then, President Bush has reminded us, 
highlighting the pesticide settlement as evidence of a positive 
settlement achievement.
    But the budget reveals that all this talk was just that--
talk. EPA has made sure it has a right, under the consent 
decree, to change its obligation to protect children from 
dangerous pesticides if it experiences substantial cuts to its 
budget. You can't do that.
    Therefore, the budget actually breaks the promise for 
pesticide protections for children by giving EPA an excuse to 
get out of the pesticide settlement it has lauded as a major 
achievement for this Administration.
    This budget would cut 50 percent from last year's level, 
resulting in the loss of 200 employees from relevant EPA 
programs. When we find that cut the Administration tells us 
really it isn't a cut because it plans to finalize the proposed 
Clinton administration rule to raise the fees charged pesticide 
companies due to its work.
    We know that this will never come to be in this Congress. 
Lucky next Congress, every time we try to do that we are tied 
up in courts for years. What happens if the rule is blocked, as 
it has been, additionally not only by court action, but by 
riders as it has been for at least one Congress?
    In summary, I am disappointed that the Administration 
budget fails to provide adequate funding for virtually every 
critical program that protects environment. I think this is a 
sad day for our country.
    [Tables and illustrations submitted by Senator Reid for the 
record follow:]

                      Environmental Protection Agency, Summary of Agency Resources by Goal
                                             [Dollars in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                        FY 2002
                                                 FY 2001  enacted     President's     Delta FY 2002 vs.  Percent
                                                                         Budget             FY 2001       change
----------------------------------------------------------------------------------------------------------------
Clear air.....................................         $590,082.0         $564,628.0        $(25,454.0)      -4
Clean & safe water............................        3,675,947.8        3,213,402.5        (462,545.3)     -13
Safe food.....................................          109,303.9          108,245.0          (1,058.9)      -1
Preventing pollution..........................          301,113.7          297,572.3          (3,541.4)      -1
Better waste management.......................        1,517,539.9        1,510,758.2          (6,781.7)    -0.4
Global & cross border.........................          284,410.8          282,698.9          (1,711.9)      -1
Quality environmental information.............          178,253.4          189,128.1           10,874.7       6
Sound science.................................          334,326.0          307,247.7         (27,078.3)      -8
Credible deterrent............................          397,274.6          411,215.7         (13,941.1)      *4
Effective management..........................          423,375.5          431,703.8          (8,328.3)      -2
Offsetting receipts...........................                0.0          (4,000.0)          (4,000.0)  .......
                                               -----------------------------------------------------------------
  Grand total budget authority................       $7,811,627.6       $7,312,600.2       ($499,027.4)      -6
----------------------------------------------------------------------------------------------------------------
* ``Credible Deterrent'' reflects EPA's budget to enforce Federal environmental laws. Federal enforcement under
  this goal actually suffers an $11.059 million cut because the Administration proposes sending $25 million of
  its Federal enforcement budget to the States in a block grant. That $25 million grant consumes the entire
  $13.941 million enforcement ``increase'' reflected in the chart and results in a deficit of $11.059 million.
Source: EPA Summary of 2002 Budget at 142.


         Environmental Protection Agency, Summary of Agency Resources by Goal (Four Percent Growth Rate)
                                             [Dollars in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                        FY 2002
                               FY 2001  enacted    Four percent       President's     Delta 4% growth   Percent
                                                      growth            Budget          vs. FY2002       change
----------------------------------------------------------------------------------------------------------------
Clear air....................        $590,082.0        $613,685.3        $564,628.0       $(49,057.3)         -8
Clean & safe water...........       3,675,947.8       3,822,985.7       3,213,402.5       (609,583.2)        -16
Safe food....................         109,303.9         113,676.1         108,245.0         (5,431.1)         -5
Preventing pollution.........         301,113.7         313,158.2         297,572.3        (15,585.9)         -5
Better waste management......       1,517,539.9       1,578,241.5       1,510,758.2        (67,483.3)         -4
Global & cross border........         284,410.8         295,787.2         282,698.9        (13,088.3)         -4
Quality environmental                 178,253.4         185,383.5         189,128.1           3,744.6          2
 information.................
Sound science................         334,326.0         347,699.0         307,247.7        (40,451.3)        -12
Credible deterrent...........         397,274.6         413,165.6         411,215.7         (1,949.9)      *-0.5
Effective management.........         423,375.5         440,310.5         431,703.8         (8,606.7)         -2
Offsetting receipts..........               0.0  ................         (4,000.0)        ($4,000.0)  .........
                              ----------------------------------------------------------------------------------
    Grand total budget             $7,811,627.6      $8,124,092.7      $7,312,600.2      ($811,492.5)        -10
     authority...............
----------------------------------------------------------------------------------------------------------------
* ``Credible Deterrent'' reflects EPA's budget to enforce Federal environmental laws. Federal enforcement under
  this goal actually suffers a $26.95 million cut because the Administration proposes sending $25 million of its
  Federal enforcement budget to the States in a block grant. That $25 million grant actually increases the
  federal enforcement deficit from $1.95 million to $26.95 million.
Source: EPA Summary of 2002 Budget at 142.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Senator Smith. Administrator Whitman, you must feel a 
little bit like the tomcat when he kissed the skunk. He said, 
``I have enjoyed all this I can stand.''
    I am going to give you the opportunity to take as much time 
as you need to respond. Of course, as you know, your statement 
will be put in the record. So, you are up.

      STATEMENT OF CHRISTINE TODD WHITMAN, ADMINISTRATOR, 
                ENVIRONMENTAL PROTECTION AGENCY

    Ms. Whitman. Thank you, Mr. Chairman. I appreciate the 
opportunity to talk about the budget before the committee here. 
I will submit a longer statement for the record, if that is all 
right with you.
    Senator Smith. Certainly.
    Ms. Whitman. I want to start by thanking the chairman for 
having invited me to New Hampshire. We had a very good trip and 
were able to visit one of those brownfield sites that is really 
going to be able to take advantage of that legislation when we 
get the new program through.
    I want to congratulate the committee and, of course, the 
Senate on their speedy action on S. 350. I look forward to 
seeing legislation come out of the House that will enable us to 
get something on the President's desk.
    Mr. Chairman, I am pleased to report that the President's 
budget provides the funding necessary for the Environmental 
Protection Agency to carry out its mission effectively, 
efficiently and thoroughly for the next fiscal year.
    The fiscal year 2002 budget of $7.3 billion is $56 million 
more than last year's request. The President's budget request 
for EPA reflects a commitment to building and strengthening 
partnerships across America, partnerships we need to achieve 
our goal of making America's air cleaner, our water pure and 
our land better protected.
    The budget encourages the development of innovative 
environmental programs and embraces the expertise and 
experience of State, local and tribal governments, while 
providing them with greater flexibility with which to pursue 
our shared goals.
    America's States and tribes receive $3.3 billion in this 
proposed budget, almost $500 million more than was requested by 
the previous Administration. Included in these funds is a $25 
million grant for State enforcement programs. Each year, as you 
have pointed out and Senator Voinovich pointed out, the States 
perform about 95 percent of the Nation's environmental 
compliance inspections and take about 90 percent of the 
enforcement actions.
    Together, the States perform more than 20 times as many 
annual inspections as the Environmental Protection Agency. This 
program will allow the States to enhance their enforcement 
efforts in ways that will increase accountability for the 
results and will provide flexibility to reach their unique 
needs.
    The President's proposed budget also includes $25 million 
to improve States' environmental information systems. By 
helping States and EPA exchange information electronically, we 
will improve accuracy and provide for better decisionmaking.
    With the continued clean up of toxic waste sites, the 
President's budget requests $1.3 billion for Superfund. This 
will allow us to continue to work to address the cleanup of 
1200 sites that remain on the Federal national priority list, 
while also supporting the Department of Defense efforts to 
clean up sites that were part of the Base Realignment and 
Closure process.
    I am also pleased to report that the proposed budget 
increases funding for the brownfields program by $5 million 
above last year's enacted budget to $98 million. This program 
will provide additional support for the State voluntary cleanup 
program and brownfields assessment demonstration pilot program.
    It is an excellent illustration of successful partnership 
between the Federal Government and the States. When the 
brownfields reform legislation becomes law, as I hope it will, 
we will be able to make these partnerships even more effective. 
With respect to America's water infrastructure, the President's 
budget proposal includes $2.1 billion in grants to States to 
ensure that every American community enjoys safe and clean 
water.
    The Administration's proposal of $1.3 billion in Wastewater 
Infrastructure Grants to the States includes $450 million in a 
new program to help communities address the combined sewer 
overflows and sanitary sewer overflows.
    Also included is $850 million for continued capitalization 
of the clean water revolving fund. Overall, the President's 
request for water infrastructure is $500 million more than last 
year's request.
    In this budget proposal, we have sought to strike the 
appropriate balance between the need for infrastructure 
funding, both for the clean water SRF and the new grant 
program, and the exercise of judicious fiscal restraint. Our 
proposal of $850 million for the Clean Water SRF and $450 
million for the Wet Weather Act achieves these important goals, 
which the Administration certainly shares with the Congress.
    I understand that this proposal does not meet Congress' 
goal of funding the Clean Water SRF at $1.35 billion before 
initiating this new grant program. However, the Administration 
believes it is important to begin providing funds for combined 
sewer and sanitary sewer overflow grants now, even though the 
need for fiscal restraint does not allow us to bring the Clean 
Water SRF to the $1.35 billion in the next fiscal year.
    We are, of course, ready to work with you and your 
colleagues in the Congress to achieve consensus around this 
issue.
    The President's budget also fully maintains support for 
EPA's core water quality programs, programs that help the 
States manage water quality programs and addresses nonpoint 
source pollution. We will be working with the States to develop 
TMDLs for their most impaired waters, as well as to provide 
technical assistance in the adoption and implementation of new 
drinking water standards.
    The President's budget also maintains support for the 
development of beach monitoring and notification programs by 
State and local governments.
    With respect to drinking water, the President's budget 
proposes to maintain capitalization of the Drinking Water State 
Revolving Fund at the current level of $823 million. The 
President's budget will continue to provide States with the 
flexibility to transfer funds between their Clean Water and 
Drinking Water State Revolving Funds, helping them address 
their most critical needs.
    On another drinking water issue, I want to assure members 
of this committee that EPA is moving forward with its review of 
issues associated with arsenic in drinking water. We will set a 
new standard that is safe, attainable, and consistent with our 
commitment to protect the public health.
    I am also pleased that the President's budget request 
maintains current funding for the EPA Clean Air Program. This 
will allow us to build on the progress we have made since the 
passage of the Clean Air Act Amendments in 1990.
    It will also allow us to strengthen our relationships with 
our State, tribal and local partners by providing $220 million 
to help them carry out their clean air responsibilities.
    Despite the progress that has been made, much remains to be 
done. One hundred and fifty tons of air pollutants were 
released into the air of the United States in 1999. More than 
62 million of our fellow Americans lived in counties where 
monitored data showed unhealthy air for one or more of the six 
common pollutants.
    By using EPA's authority to set standards that will clean 
the air and protect public health, authority recently 
reaffirmed by the Supreme Court, we will continue to work with 
the States to reduce transported emissions of smog producing 
pollutants and we will seek to expand the existing nine-State 
market-based allowance trading system to additional States.
    With respect to global climate change, the Administration 
is requesting $145 million in fiscal year 2002 to strengthen 
our partnerships with businesses, organizations and consumers 
to achieve voluntary reductions in greenhouse gas emissions. 
These efforts are expected to result in an annual reduction of 
more than 73 million metric tons of carbon equivalent, reduce 
energy consumption by more than 85 billion kilowatt hours, 
which will save consumers more than $10 billion in energy costs 
and help develop a new generation of efficient, cleaner cars 
and trucks.
    As businesses and individuals purchase new vehicles and 
equipment over the coming decade, we want to do all we can to 
ensure that these purchasers have smarter, cleaner and more 
efficient options available to them.
    Therefore this budget supports our voluntary efforts to 
promote the development of such equipment and vehicles.
    As important as the air we breathe is the safety of the 
food we eat. The President's proposed budget supports the 
important work of using the strongest science to ensure that 
industrial chemicals and pesticides meet today's food safety 
standards. Both our pesticides and chemical programs seek to 
work with all the stakeholders to ensure that the products use 
to protect against insect and other threats to crops are safe, 
not just for the food we eat, but to the environment as well.
    In all the work we do at EPA, I am committed to ensuring 
that the policies we set are based on the best scientific 
information available. To help ensure the availability of solid 
scientific analysis, the President's budget supports a strong 
and rigorous research program, including a proposed $535 
million for the Office of Research and Development, a $5 
million increase over last year's budget request.
    In addition, the President's budget proposal includes $110 
million for the Science To Achieve Results or STAR Program, as 
it is known. This program gives EPA access to the best 
environmental scientists and engineers from outside the agency 
so that we can be assured we are relying on the strongest 
science available.
    Finally, Mr. Chairman, I want to discuss an internal matter 
at EPA, protecting the civil rights of every EPA employee. 
Those who serve the people of our country as Federal workers 
have the right to a workplace free of discrimination. I am 
determined to ensure that right for every employee at the 
Environmental Protection Agency.
    I am pleased to advise you that the President's budget 
includes a $3 million increase for civil rights activities at 
the agency. These additional funds will allow us to address the 
backlog of pending discrimination complaints, as well as to 
provide training for all the agency's 1600 supervisors.
    We have contracted with the Equal Employment Opportunity 
Commission to provide this mandatory 2-day training and I will 
be one of the first EPA employees to take that.
    Taken together, the President's budget helps communities 
across America address their most pressing environmental 
priorities. It provides the funds and sets the priorities my 
agency needs to meet its mission of protecting our environment 
and safeguarding the public health.
    It is this Administration's first installment on our pledge 
to leave America's air cleaner, our water purer, and our land 
better protected than we found it.
    Thank you, Mr. Chairman. I will be happy to take questions.
    Senator Smith. Thank you very much, Administrator Whitman, 
for being here. Thank you for your testimony.
    Let me just remind members that because Administrator 
Whitman has to leave at 4:30, I am going to start with a 6-
minute round. I am going to hold everybody to it, including 
myself, so that we can get through at least one round of 
questions.
    I want to just clarify because of those who may not follow 
the debate that took place between what Governor Whitman said 
and what some have said about the cuts. The truth is that the 
initial request of the previous Administration for the EPA 
budget was $7.3 billion. That request was increased by this 
Administration by $56 million.
    The enacted amount by Congress was more. That is true. 
However, if you are going to criticize you have to look in the 
mirror as well because that is what the previous Administration 
did.
    So, I would also point out that this has been a bit of a 
shell game in the sense that most of that money, that $500 
million had come to the SRF fund, as you talked about, Senator 
Voinovich, or CSO/SSO, figuring that Congress would likely put 
it back and then the budget could be able to address other 
matters.
    But I think in fairness this budget is, as presented, $56 
million more than the previous budget that was presented to 
Congress last year.
    Second, on the issue of arsenic, there was some criticism 
there and I know the Administrator didn't get into it in her 
testimony, but the Bush rule will take effect in the exact same 
time period as the previous Administration's rule, in 5 years. 
There is no walk-back from 20 parts per billion. They are 
looking at it, just as the previous Administration was doing.
    So, I think we have to be very careful about saying that 
somehow this Administration wants to put more arsenic in the 
water and is somehow changing the standard. The standard was 
good enough for 8 years. I didn't see any of those charts 
during the 8 years of the previous Administration. Now, we see 
them within the first 4 or 5 months of this one.
    So, I think it is important to get this out there for the 
record.
    Let me just ask one question, Governor Whitman. When you 
became Governor of New Jersey I remember reading about some of 
the initiatives that you proposed. They are very similar to the 
philosophy that you present here today to us in this budget. 
There were Armageddon predictions about what might happen, 
environmental disasters in New Jersey. Could you just give us 
an indication of what those predictions were and how the 
results were based upon the budget that you presented as 
Governor of New Jersey with similar proposals in terms of more 
State flexibility and responsibility, et cetera.
    Ms. Whitman. Certainly, Senator. Well, the situation that I 
faced was slightly different in that when I came into office I 
discovered a $2 billion deficit that we hadn't known was there. 
So, I did cut. I had to cut. I cut across the board. I cut the 
Department of Environmental Protection within our State. I was 
told that everything would come to a screeching halt and that 
the environment would be battered and unable to recover from 
the kinds of cuts that we made. But we made them along the 
lines of what we thought was appropriate.
    I shifted the focus of the agency from one that was driven 
by an accounting system that just racked up fines and 
penalties, but rather to one that looked at what were the 
environmental enhancements that occurred. Was the air cleaner 
and water purer?
    I am pleased to say that in every one of those measurable 
areas we saw marked increases. The number of beach closings is 
down significantly. We are the leading State in the opening of 
shellfish beds, which is a prime indicator for the clarity of 
the water in our estuaries and streams and rivers.
    We have had far fewer non-attainment days in our ozone. So, 
we were doing better in air and we were preserving land at a 
record pace. So, in spite of the fact, this budget gives 
increases to the Environmental Protection Agency. I had to 
decrease. I had to cut my Department of Environmental 
Protection when I first came in.
    But, depending on how you do those things, and because we 
did it with the same kind of priorities that were outlined 
here, we were able to ensure that we did a better job with what 
we had. In this budget, we actually have more resources from 
what had been requested before to carry out our base 
commitment.
    We believe that we will be able to meet all the priorities 
that have been set for this Administration.
    Senator Smith. I am going to yield to Senator Boxer at this 
point.
    Senator Boxer. Thank you very much.
    Administrator Whitman, I know you really did improve New 
Jersey, but it is still the No. 1 site for Superfunds and 
brownfields. I know Senator Corzine is very concerned. That is 
the reason I join him in criticizing this budget. New Jersey 
has a lot more cleanup to do, as do, unfortunately, many of our 
States.
    So, it is not good enough, it seems to me, to rest on 
whatever laurels we can all rest on because happily all of us 
have worked hard and we have made some progress. There is a lot 
more to do. It is not time to cut this budget. This budget is 
cut. This environmental budget is not a priority of the Bush 
administration, simply put.
    Your kids know when something is a priority. You raise it 
to a high level. It doesn't always mean funding. It means 
importance, priority.
    Let me just say, on the arsenic, because I am very 
distressed about this situation, I want to talk about this 
because I was joined by Senators Reid, Corzine, Clinton, 
Schumer and Lieberman in writing this letter.
    Would you put up the green chart? This is the law of the 
land. It was passed by Congress and signed by the President: 
``The Administrator shall promulgate a national primary 
drinking water regulation for arsenic not later than June 22, 
2001.''
    Now, you suspended the new standard.
    Ms. Whitman. No, we just put a hold. We indicated an 
intention to review the science and the costs of compliance. 
But it still stands.
    Senator Boxer. What is the standard for arsenic right now?
    Ms. Whitman. The enforceable standard is 50 parts per 
billion.
    Senator Boxer. And what will it be on June 22, 2001?
    Ms. Whitman. There are those who argue that it would be in 
fact 10 parts per billion because the standard has not been 
withdrawn.
    Senator Boxer. It will be?
    Ms. Whitman. No. I am saying there are those who would 
argue that.
    Senator Boxer. Well, what do you say? What will the 
standard be on June 22, 2001, the date the Administrator was 
supposed to enact a new regulation? What, in your opinion, will 
the standard be in the country?
    Ms. Whitman. The enforceable standard will be just what it 
was going to be under the Clinton administration proposal at 50 
parts per billion because it was not going to be enforceable 
until the year 2006.
    Senator Boxer. I am not asking you that. I am asking you 
what is the standard, the new standard. What is the new arsenic 
standard going to be on June 22?
    Ms. Whitman. It will be an appropriate one.
    Senator Boxer. You are going to have a new standard on June 
22, next month. Is that what you said?
    Ms. Whitman. I said we are going to have an appropriate 
standard.
    Senator Boxer. On June 22?
    Ms. Whitman. There are those who will argue legally that we 
have a standard in place. I am sure this will become a legal 
discussion, just as I am sure when the previous Administration 
missed the lead rule by----
    Senator Boxer. Well, I am not asking you about the previous 
Administration.
    Ms. Whitman. There are a number of times, unfortunately, 
where the Environmental Protection Agency will miss deadlines. 
But if we do it in a way to ensure the best public safety, then 
we are doing the right thing.
    Senator Boxer. This is not a question about a choice. You 
have a date here. This is the law of the land. You are going to 
be sued mightily and I am going to go along with an amicus 
brief, because this is the law of the land.
    You know when Congress passes a law and the President signs 
it, it is the law of the land. So, you can't say it will be 
appropriate and we may or we may not hide behind legalese.
    Ms. Whitman. I appreciate that, Senator. I am sure it was 
the same as well on other deadlines under the Safe Drinking 
Water Act. I would trust that you would do that because the 
previous Administration had a proposed rule that was due in 
August 1999, which still hasn't been done yet.
    Senator Boxer. Administrator Whitman, I have a brief amount 
of time and I am asking the questions, OK? So, we can have a 
private meeting about another issue. I am delighted. My door is 
open any time.
    But I have a brief amount of time. You received a letter 
from several Members of Congress and it dealt with another 
aspect of the rule that you delayed. That has to do with the 
community right to know.
    Let us put up the other chart that shows the levels of 
arsenic are unsafe between 10.1 and 50, that latest study that 
we sent over.
    The Clinton administration put in place a very important 
rule as part of the arsenic rule. It said that by a date 
certain everyone in this country is going to have the right to 
know if there are more than five parts per billion arsenic in 
their water, which is what your State does, it lets people 
know.
    What are you doing on that part of the rule because you 
delayed the entire rule? What is your stand? Do you think 
people ought to know, as the Clinton administration decided, 
based on studies, that people ought to know if there are more 
than five parts per billion in their water so that if there is 
someone pregnant, someone ill with cancer, a child, they can 
take steps to protect their families?
    Ms. Whitman. Any water company, and they are all required 
to test, any water company that finds any arsenic in the water 
is required to notify consumers in their Annual Consumer 
Confidence Report. That is the way it works now and I support 
that.
    Senator Boxer. No, not at five parts per billion, 
Administrator. It is 25 parts. It was five parts, that is my 
understanding, that the Clinton administration had made as part 
of their rule.
    Ms. Whitman. I certainly wouldn't change that.
    Senator Boxer. So, you are going to keep the community 
right-to-know at five parts per billion?
    Ms. Whitman. Under consumer confidence reports you have to 
report any detection to consumers. I certainly wouldn't change 
that notification requirement.
    Senator Boxer. So, will you, in fact, keep that part of the 
Clinton Rule in place? That would be big news and I would be 
very happy.
    Ms. Whitman. We will be happy to do that.
    Senator Boxer. You will? That is the policy of this 
Administration to advise people when they have five parts per 
billion arsenic in their water? You will keep that part of the 
Clinton Rule regardless.
    Ms. Whitman. It is my intention to do that.
    Senator Boxer. Well, then I suggest you don't delay that 
part of the rule because right now you have delayed it. What 
you ought to do, since you seem very clear that you are going 
to keep the Clinton Rule on community righ-to-know, you should 
in fact clarify that because that has been suspended. Right 
now, it is the right to know only if it is 25 parts per 
billion.
    Let me just say to you that I am concerned about the way 
this Administration wants to get around the rules. The other 
example is the pesticides that Harry Reid touched upon.
    I was pleased when you signed that consent decree to put 
EPA on a schedule to comply with critical pesticide protections 
for children. Time and time again President Bush has reminded 
us of it and he has highlighted the pesticide settlement as a 
great environmental achievement. So, all that is wonderful. But 
it is a kind of ``now you see it; now you don't.''
    You have a 50 percent cut in that part of this budget, a 50 
percent cut. You are saying you're going to pass the cost on to 
the pesticide manufacturers in order to come up with the 50 
percent. Twice now, Congress has attached riders that have 
blocked that because President Clinton tried to do that.
    What is your contingency plan if you do not get that 
funding from your pesticide tax that you have proposed? What is 
your contingency plan to fund those programs? Because look at 
what is going to happen, Administrator Whitman, if you get a 50 
percent cut, that consent decree which deals with pesticides 
and children is going to be a problem. Reassessing an 
additional 9,700 pesticides is going to be a problem. And it 
goes on.
    The health effects research, exposure research to identify 
highest potential exposure pathways of pesticides to children. 
Children are really in trouble in this country with cancers and 
the like because we don't have any studies, unfortunately, that 
tell us what is safe for them.
    Children are not little adults.
    Senator Smith. Senator Boxer, we have to move along.
    Senator Boxer. I am a little adult and I am being told I am 
over time. But the fact is that I worry. So, I will stop here. 
I would love to have another hearing if we don't have time for 
a second round.
    Senator Smith. We will try.
    Ms. Whitman. Well, Senator, if I just might on that one, 
please understand that we are absolutely committed to 
continuing to move forward with that program. I would hope that 
Congress would approve the pesticide fee. If they don't we will 
have to work with Congress to figure out a way around it.
    But we are committed to ensuring the health and safety of 
the children. If we have to make other priorities in the budget 
of the agency, we will do that in order to ensure that we are 
protecting our children.
    Senator Boxer. So, you are going to make sure that you 
fully fund this program if Congress blocks the tax.
    Ms. Whitman. We are going to make sure that we are looking 
at those pesticides fees and we are ensuring that we will 
preserve the safety and integrity of the food given to our 
children and that we protect our children.
    Senator Boxer. And implement the consent decree, I assume?
    Ms. Whitman. Yes, that is what our intention is. We didn't 
enter into it without ensuring that we were going to move 
forward in appropriate ways.
    Senator Smith. Senator Inhofe.
    Senator Inhofe. Well, Mr. Chairman, we have now gone to 9-
minute rounds.
    Senator Boxer. I am sorry. I apologize.
    Senator Inhofe. I wonder though, as I was listening to 
that, and I have a great deal of respect for the Senior Senator 
from California, where all this outrage was over the last 8 
years when legal deadline after legal deadline was passed and 
no one seemed to care that much.
    One was the ozone PM standard and many others that ended up 
in lawsuits and consent decrees.
    Anyway, I am going to make a request that your agency give 
me a list of all of the legal deadlines that were missed during 
the past 8 years, between 1992 and on, during the Browner 
administration.
    I think everyone up here, Democrats and Republicans alike, 
have expressed a concern in their opening statements for the 
balancing of our Nation's environment with the energy needs. I 
think effective partnerships are probably the best way to do 
this.
    The one I have in mind is the Integrated Petroleum 
Environmental Consortium, or IPEC. IPEC's mission is to 
increase the competitiveness of the domestic petroleum industry 
through a reduction in the cost of compliance with 
environmental regulations.
     You know, we hear in bits and pieces and a kind of a 
proliferation of statements on what different things are out 
there that are like New Source Review and other things like 
reformulated gas, sulfur in gasoline. How many of those things 
really increase the cost of energy? I think that IPEC has done 
a very good job of determining and quantifying a lot of these.
    It was a very small amount of money, $1.6 million, but I 
know that another $2.4 million were added by industry and by 
the two States of Arkansas and Oklahoma. So, I think this is a 
good example of the public-private partnership which we all 
know is very effective. I would like to ask for your commitment 
for this program which, I think, is a model program of the 
public-private partnership.
    Ms. Whitman. I will be happy to look into that further 
because public-private partnerships, as you point out, are 
exactly what we think is an effective way to maximize and 
leverage the resources that are available to us to achieve our 
shared goals.
    Senator Inhofe. In this case the money was more than 
doubled because of that partnership and outside efforts joining 
in.
    Senator Boxer talked about the more Superfund sites in your 
State. But I would suggest that in my State the worst Superfund 
site is there. It is Tar Creek site. Unfortunately, that is in 
my home State of Oklahoma.
    There isn't really a solution right now to this. I know 
that our Governor came up with a task force and they came up 
with a recommendation that we buy all that land and turn it 
into a wetlands. This would be really kind of difficult to do 
in that there are three major cities in that area.
    I didn't know whether you have had time to get into this at 
all or not. First of all, have you had a chance to get into 
this Superfund site, the Tar Creek site?
    Ms. Whitman. I have had briefings on it, yes.
    Senator Inhofe. I know you have not had a lot of time to do 
that. But I might be requesting at some point that we talk 
about this, maybe even make a field trip out there, since this 
is the one that is the worst of all the sites.
    So, as you move along, any idea you have about resolving 
this problem, I would appreciate working with you on this.
    Ms. Whitman. Certainly. I can give you a bit of an update, 
if you don't already have it.
    Senator Inhofe. Please do.
    Ms. Whitman. The EPA has initiated a new contract at the 
site to better meet both EPA and community concerns. The 
remaining work involves the cleanup of about 650 residential 
properties and chad piles, taking ponds, tilling ponds and 
other industrial process areas.
    The work is supposed to resume later this summer on those 
areas. So we have been, as you point out, actively working with 
the Governor and with the residents of the site. I will be 
happy to talk about it with you further.
    Senator Inhofe. All right. I will plan to do that and work 
with you on it. It is a huge thing. No one has the ultimate 
solution in sight.
    I mentioned in my opening remarks that I chair the Senate 
Armed Services Committee on Readiness, which does have the 
jurisdiction over the environmental sites. I appreciate the 
comments you have made on how you are planning to approach 
these and the budget does include resources to support 
continuing cleanup, oversight, technical assistance and 
property transfer at various BRAC sites.
    I would be interested in knowing if there is any more 
detail on that that you would like to share with us. You didn't 
have time to do it in your opening statement. If not, maybe do 
that for the record.
    Ms. Whitman. I would be happy to do that for the record.
    [The information referred to follows:]
                   base realignment and base closure
    EPA's Superfund Base Realignment and Base Closure (BRAC) program 
has worked with the Department of Defense (DOD) and the State's 
environmental programs since its inception in 1994 to acheive the 
Agency's goal of protecting human health and the environment at 
realigning or closing military installations. Of the 497 BRAC 
installations slated for realignment or closure, 205 require 
environmental restoration. One hundred and eight (108) of the 
installations have been designated as Fast-Track installations.
    The Fast-Track program strives to make parcels available for reuse 
quickly by transfer of uncontaminated or remediated parcels, lease of 
contaminated parcels where cleanup is underway or ``early transfer'' of 
contaminated property. The Fast-Track program has successfully used 
base cleanup teams at the Fast-Track designated installations. The 
teams, which include Environmental Protection Agency (EPA), DOD, and 
State environmental experts, are empowered to make decisions to 
expedite the process of accelerating cleanup while integrating base 
reuse priorities. EPA also engages in public participation by working 
with DOD to establish restoration advisory boards at military 
installations which foster teamwork by bringing members of the 
community together with military officials and government regulators to 
discuss cleanup issues.
    DOD, EPA, and the States have saved the program an estimated 348 
project years and more than $337 million in potential costs. The 205 
BRAC installations undergoing environmental restoration have 
collectively transferred 403,593 acres of property from DOD to non-
military entities. There are 389,741 acres in BRAC Fast Track program 
and more than 133,000 acres have already been leased or transferred.

    Senator Inhofe. OK. Well, the last area that I was 
interested in was New Source Review. When we made the request 
for information, I was shocked to see how many of the notices 
of violations that I mentioned in my opening statement, 114 
violations were dated January 19.
    It was also called to our attention in some of the 
responses that we found that the 114 requests came in the form 
of photocopied documents with the name of one facility 
scratched out and the name of another facility penciled in.
    Now, I wouldn't want to name which ones these are, but I 
did not see these 114 requests included in the EPA's response. 
So, I would like to expand and get as many of these examples as 
possible that you might have. I would make that as a request.
    Ms. Whitman. We will provide them to you. In that one 
instance where you indicated that it was a faxed form with the 
names crossed out, as soon as the agency became aware of it, we 
took action to correct it and to correct the employee who was 
involved in that.
    Senator Inhofe. Well, that particular one wasn't in the 
response that we got. Let me make sure that you understand, I 
am not blaming you for this. This is something that was there 
but it is one that needs to be corrected, needs to be 
addressed.
    We had a hearing on New Source Review in Ohio. Governor 
Voinovich at that time was Governor Voinovich. There are so 
many examples of abuses. This is something we want to get to. 
This, of course, has a direct relationship to the cost of 
energy and it is something we are all very much concerned about 
right now.
    Ms. Whitman. Well, as you know, the Vice President 
indicated last week, the Environmental Protection Agency will 
be leading the inquiry into the New Source Review. We will be 
looking at that to make sure it is achieving its goals and see 
what kind of impact it may or may not be having on energy 
resources and price and what kind of steps we can take to 
streamline and ensure that it is meeting the goals that were 
set out for it.
    Senator Inhofe. I appreciate that very much. My time has 
expired.
    Thank you, Mr. Chairman.
    Senator Smith. Thank you, Senator Inhofe.
    Senator Clinton.
    Senator Clinton. Thank you, Mr. Chairman.
    I have to confess, I am a little confused by the testimony. 
I appreciate the fact that I have not gone through this before 
so maybe I can get my confusion clarified, but I look at this 
chart, this EPA funding gap. The top line is a 4-percent growth 
line. The second line is a discretionary base line and the 
bottom line is the proposed Bush plan from 2001 to 2006.
    Now, we have had a little back and forth about budget 
requests and appropriated levels, but even if one were to take 
the original budget request, it doesn't come anywhere near to a 
4-percent increase over the existing budget.
    Now, my understanding is that when President Bush said he 
was going to have a 4-percent increase for discretionary 
spending that was not based on what the last Clinton 
administration budget request was, but that was based on what 
actually had been appropriated.
    So, we are very far from where we would be were we to have 
a 4-percent increase. What concerns me about that is that there 
are many priorities on this committee that I think reflect the 
priorities of our country. Senator Voinovich spoke of one, 
namely the wastewater and drinking water infrastructure needs, 
which really probably are at about $2 trillion shortfall when 
it comes to water infrastructure.
     I will certainly support increasing the dollars that we 
put into this because I think it is in the best interests of 
the safety of our people. But where is that money going to come 
from? I mean there isn't any money in this budget for the kind 
of increases that Senator Voinovich talked about with his 
wastewater bill that he has worked on.
    They are not the kinds of increases that need to be in this 
budget in order to keep pace with what we have set as national 
environmental priorities. I know that in the give and take of 
the budget and appropriation process, people end up in 
different places. Certainly, I hope that we are going to be 
able to increase some of these levels.
    Before I get to specific questions, I just want to point 
out that this chart is chilling because it doesn't provide the 
dollars to do any of the work that needs to be done. I am very 
concerned that it certainly doesn't reflect any kind of 4 
percent growth, whether it is a 4-percent growth on a requested 
budgetary level or what I think is what the President meant 
when he said 4 percent was 4 percent on top of what had 
actually been enacted.
    But let me just turn to a couple of questions. I would also 
like to submit others I don't have time for to the record to 
get responses from Administrator Whitman. The first is my 
concern about the enforcement and continued pursuit of Clean 
Air lawsuits.
    The press has reported that there is an internal White 
House debate over these Clean Air lawsuits. I am very 
interested in your views on whether the Administration is, No. 
1, considering dropping the lawsuits that the Environmental 
Protection Agency joined, whether such a dropping of the 
lawsuits will be part of the President's energy announcement 
later this week, and whether in light of the significant cuts 
to the EPA's enforcement budget, even if these lawsuits are not 
dropped, whether you will have the resources you need to 
continue working with the Justice Department on these cases.
    Ms. Whitman. Well, Senator, let me start out by saying that 
yes, we certainly believe that we will have the resources in 
enforcement within the enforcement budget because that overall 
enforcement budget is up slightly, but there are changes within 
it. There is a decrease in personnel. But we believe we have 
the personnel and the ability and the resources to do the work 
that we need to do.
    Senator Clinton. Well does that mean, Administrator, that 
these lawsuits will not be dropped?
    Ms. Whitman. I don't know of any proposal to drop the 
lawsuits, to review the lawsuits, perhaps, but not to drop. 
There is no policy determination made to drop the lawsuits.
    Senator Clinton. That is very good news for our air.
    Let me ask you about a reduction in the budget for State 
Acid Rain Grants. The reduction has been proposed because more 
resources are supposed to be available by law through the 
collection of fees. As you know, the Clean Air Act gives States 
authority to collect permitting fees from industries, but I 
know that varies from State to State.
    Do we know how much money is being collected in fees by the 
States and perhaps equally important, is the money actually 
being spent on permitting and enforcement activities that will 
reduce acid rain?
    Ms. Whitman. What we are seeing in this budget is a shift 
of emphasis in the State air grants to high priority areas such 
as the air toxics and National Ambient Air Quality Standards. 
The air grants for the program in fiscal year 2001 enacted was 
$219 million.
    The fiscal year 2002 request is to continue at $219 
million.
    The grant resources targeted for acid rain activities will 
shift in 2002 from program implementation to other programs 
such as ecological assessment programs, with the States able to 
now use the fees they collect from sources to run their State 
Acid Rain Programs. We think that in fact you are going to see 
an enhancement of the Acid Rain Program overall.
    Senator Clinton. Could we at some point get specifics on 
that if the EPA has it State-by-State, how much the collection 
is and whether it is being used for the purposes intended.
    Now, let me also ask, you mention in your testimony that 
you are assuming no impediment to promulgating the final 
pesticide tolerance fee rule. As you know, this has been tied 
up in appropriations riders in previous years.
    Would you oppose a rider on the pesticide tolerance fee if 
one was attempted?
    Ms. Whitman. Well, in general, Senator, we try to avoid 
riders. We would like to have the issue dealt with. It is 
something that has been a problem from the beginning. If you 
would like to hear it, I could give you the whole history. I 
could ask Mike Ryan who is here to go into that a little bit on 
the stand-offs that we have had in the past on various fees.
    We believe that the fees that are being proposed in this 
budget on the tolerance fee is a user fee and is an appropriate 
one and hope that, in fact, it will be viewed as such and dealt 
with as such.
    Senator Clinton. I appreciate that very much.
    Another issue that has repeatedly been subjected to 
appropriation riders is the clean up of the PCB contaminated 
sediments in the Hudson River. As we all know, the comment 
period on EPA's proposed clean up plan recently closed. I know 
from first-hand experience you have received thousands of 
comments.
    Can you update us on the status of the final decision? Is 
that final decision still expected in August and does your 
general attitude that would object to riders include objecting 
to any riders to prevent the clean up going forward up the 
Hudson?
    Ms. Whitman. Well, I would certainly hope that we wouldn't 
have a rider that would prevent us from doing something that 
would protect public health and safety such as a cleanup. I 
have had no indication. Everything is on track to meet that 
August deadline.
    The region is in the position now of reviewing public 
comments. As you said, we have gotten literally thousands of 
responses and comments on EPA's proposal. They are going 
through those responses and comments to see whether or not 
there are any in them that would indicate a change in policy or 
a change in recommendation. Then they will be briefing me on 
that and we will have the discussion. But right now we are on 
track for that August timeframe.
    Senator Clinton. Thank you very much.
    Senator Smith. Thank you, Senator Clinton.
    Senator Voinovich.
    Senator Voinovich. Administrator, the people in Ohio are 
very upset about the high cost of gasoline. We went through 
this last year and had expectations that we wouldn't be going 
through it this year, although we do know that we are very 
reliant upon foreign oil for our source of oil in this country.
    There has been an examination made of some of the reasons 
why the costs are spiking here moving toward the summer months. 
One of them is that I understand there are 25 or 26 different 
varieties of gasoline, reformulated gasoline.
    I would be interested in having, and I know you can't 
answer it now, of having someone look at those 25 varieties of 
gasoline that are being asked to be provided to see what impact 
that has on the actual cost of gasoline.
    I have been told by some people that you can go to three 
classes of gasoline and do a better job with the environment 
than the 25 boutique things that they are providing now. How 
many that is going to add to the cost, I don't know, but I 
think all of us are interested in seeing just what is it that 
is contributing beyond the shortage to this high cost of 
gasoline.
    Second of all, in order to do your job, you have to have 
the right people. Have you done yet an analysis of your entire 
agency to determine whether or not you have the people on board 
to get the job done that you have been asked to do? Have you 
done an analysis of those people who are eligible to retire and 
those that might be eligible to take early retirement?
    Ms. Whitman. Senator, I took your charge very seriously in 
the confirmation hearings. We have taken a look at that. By the 
end of 2005, almost 50 percent of EPA's Senior Executive 
Service Corps, will be eligible for optional retirement. We 
would lose 19 percent in 2001, 27 in 2002, up to 49 percent by 
2005.
    We are very aware of those workplace challenges that are 
facing us. We have under an umbrella the agency's human capital 
strategy. We are assessing future program needs to identify the 
skills as you have pointed out, the skills and talents that we 
are going to have to replace in determining the gap between 
what we have now and what we are going to need in the future.
    We are developing programs aimed at the agency's next 
generation of executives and managers. We are looking at ways 
of providing additional opportunity and training for people who 
are already at the agency so that they will be able to move up 
in the ranks.
    We are developing approaches on recruitment that will 
contribute to a diverse----
    Senator Voinovich. In your budget, how much of your budget 
has been allocated for training?
    Ms. Whitman. I will have to get you that for the record.
    Senator Voinovich. Well, one of the things that I would 
like to see, and I am going to really work with Sean O'Keefe 
and with Mitch Daniels is that I believe that we ought to have 
a specific item designated for training in each of your 
budgets.
    Any organization that doesn't have allocation for training 
money is not a competitive organization.
    The other thing is, have your people analyzed the 
incentives that are available to attract people and whether or 
not you have provided money in your budget to take advantage of 
these? For example, you want to go out and get a good engineer, 
something out of school. We do have a program where we can pay 
part of the loans that they have. Has there been money 
allocated in the budget to put you in a position where you can 
compete with these people, funding the incentives?
    Ms. Whitman. That is part of the program we have in place, 
looking at that and making sure we are maximizing those 
opportunities. So, we are doing that right now.
    Senator Voinovich. I would like to stay on top of this 
because it is kind of a pet project of mine. Maybe if you would 
find some things as you go along that you would need, it would 
be helpful.
    We are trying to get an idea of what other additional tools 
our agency is going to need in order to be competitive, 
including some broader ability to hire people, perhaps not 
running it through the Office of Personnel Management.
    The last thing, since I have a little more time, I did have 
these hearings in Ohio on the issue of the infrastructure needs 
that we have in our State. They are pretty much across the 
country. We have an aging infrastructure. But we also 
discovered that there are additional things being required as a 
result of regulations. And they are very, very costly.
    The issue that I think needs to be addressed is whether or 
not these new requirements coming out of the EPA, for example, 
the Mayor of Mansfield, OH, who has to put in a new system to 
treat water that is in a holding tank after a storm, treat it 
at a much higher quality than she is now treating it to put it 
in a stream whose water is much less than the water that she is 
putting into it.
    You have to ask yourself; in this particular case the rates 
are going to go up 100 percent for her people. The issue is: 
Are we asking people to do things out there that really are not 
necessary in terms of dealing with clean water and the 
environment?
    The reason I bring this up is that I was very much involved 
and you may have been, in the amendments to the Safe Drinking 
Water Act.
    If you will recall, they were requiring a lot of these 
small communities to have the highest and best technologies, 
some of them 10,000 or less, and every 3 years to test for 25 
new pesticides, whether they were in the water or not in the 
water.
    It seems to me that, yes, we are going to need more water 
or need more money for the revolving loan fund. We are going to 
need a grant program. In fact, this WIN organization says we 
are going to have to have $57 billion in the next 5 years to 
deal with the problem.
    But the issue is, are we asking some of these folks to do 
things that really aren't necessary? I don't think we 
concentrate enough on that. Again, I would like to have your 
folks look at some of these new regs to find out whether or not 
they make sense.
    Ms. Whitman. Well, Senator, one of the things I have done 
is I have directed one of the offices within 45 days, and they 
should be coming back to me with the initial results by the end 
of this month and I should have a final report in the middle of 
June, to take a look at how we promulgate regulations in a 
science, policy and cost of compliance factored in at the very 
beginning of the rulemaking process.
    Senator Voinovich. Well, I want to tell you this: I hope 
that you do it a lot differently than what we had in New Source 
Review. Because we had industries out there for years that were 
relying and told that what they were doing wasn't a problem. 
Then somebody in the EPA came up with a new guidance, not a 
reg, but a guidance, and said, it is new.
    Then we had all of these lawsuits filed all over the 
country. Now, definitely there were some people that should 
have got permits for some of the things that they did. But this 
was the big broad scoop that went out there. Those are the 
kinds of things that we need to look at because they defy 
common sense and they really don't do very much to clean up the 
air or help public health.
    Ms. Whitman. That is exactly what we are looking at in how 
we do this.
    Mr. Chairman, if I might correct something for the record 
on what Senator Boxer said, Senator, I just wanted to clarify 
that right now the right-to-know requirements of the Safe 
Drinking Water Act do require that any detection, even below 
five parts per billion of arsenic, must be reported to the 
public. It is additional health statements or warnings that are 
provided now above that 25 parts per billion. Those statements 
would be provided at the five parts per billion level under the 
rule published by the previous Administration.
    It is not arsenic. It is the other ones that would be, if 
the January rule, that change would be delayed by a stay in the 
effective date.
    Senator Boxer. Well, you are sticking with the Clinton Rule 
on right-to-know; is that what you are saying?
    Ms. Whitman. On the arsenic, we were talking about the 
arsenic.
    Senator Boxer. Yeah, on the arsenic, you are sticking with 
the right-to-know.
    Ms. Whitman. On the arsenic we are sticking with the right-
to-know which is any detection, even below five parts per 
billion, must be reported on arsenic.
    I think where the confusion comes in is the additional 
health statements. That would be affected by a stay and be part 
of the overall review.
    Senator Boxer. So you are backing off what you said. When I 
asked you about the Clinton Rules.
    Ms. Whitman. Arsenic standards. We were talking about 
arsenic standards.
    Senator Boxer. Administrator, I can read you back what you 
said. I asked you if you were going to keep that part of the 
Clinton Rule that set up a new notification at five parts per 
billion. You said you would.
    I pressed you on it. We can have the person read it back. 
That is fine. Now you are saying you are not. I just want to 
make sure I understand what you are saying.
    Ms. Whitman. Senator, I was responding to the question of 
reporting with respect to detection of arsenic. I was taking 
your word for it that in fact five parts per billion of arsenic 
was a new reporting requirement, that it was at 25 parts per 
billion now. Maybe I misunderstood you. I misunderstood you, 
perhaps, and thought that you were saying that right now it was 
only at 25 parts per billion that you had to report arsenic.
    In that instance, I believe it was absolutely appropriate 
to go to five parts per billion. In fact, we were right in 
saying initially five parts per billion or any detection for 
that matter, any trace amount of arsenic in the water needs to 
be reported now.
    It is the other additional health statement warnings. I 
need to look at those along with the rest of them to see what 
it is we are looking at and whether that five parts is the 
right figure. Those are at 25 parts per billion now.
    Senator Boxer. That is what I was talking about. My 
understanding was that you were going to keep the Clinton Rule 
as it pertained to the community's right-to-know. That is what 
you said.
    Now you are saying you misunderstood me. You are not 
keeping that part of the Clinton Rule.
    Ms. Whitman. Right.
    Senator Boxer. Well, that is distressing. Let us continue 
this. I will wait for my time. I hope you can extend a little 
because now I have more questions on arsenic. I am sorry.
    Senator Smith. You also have a colleague that hasn't had 
any.
    Senator Boxer. I am going to wait. I will stay as long as 
it takes.
    Senator Smith. Senator Corzine.
    Senator Corzine. Thank you, Mr. Chairman.
    Let me begin with a compliment. I am particularly pleased 
with your efforts on environmental justice and civil rights. We 
talked about it at the confirmation hearing. I am glad to see 
there is additional funding there.
    The programs you are putting in place, I think, are 
absolutely appropriate. I will be anxiously watching your 
backlog, which I think is an important thing to get cleaned up 
if we are going to have confidence in how the system works.
    Let me turn to this wonderful chart up here. Am I reading 
the President's budget correctly that $6,672,000,000 is the 
number of dollars allocated for pollution control and abatement 
in 2006 really reflecting a high percentage of the EPA budget? 
Do you understand these numbers to be rough justice of where we 
are going, the expected budget of the Environmental Protection 
Agency?
    Ms. Whitman. Well, we are working off the funding request 
by the previous Administration. This year's request is $56 
million more than what was requested by the previous 
Administration.
    Senator Corzine. That is about a \6/10\ of 1 percent.
    Ms. Whitman. Oh, it is not a 4-percent increase. There is 
no question about that. I would also say that when the 
President spoke about a 4-percent increase he didn't 
necessarily mean it was going to be a uniform 4 percent across 
the board.
    In fact, as you know, there is a great deal bigger increase 
for education. There is a great deal bigger increase for that 
in some of the Defense budget numbers. So, it is not an even 4 
percent. It is an overall control of growth.
    Senator Corzine. I think that all of us accept that that is 
what the reality is. It is not do we agree with it on policy. 
Let me ask, I am particularly concerned in seeing the Superfund 
site clean up targets going from, I think it is 85 last year to 
65 this year. The target was 75 and I guess there were 85 
cleanups last year. Excuse me. The target this year is 65.
    I am seeing the number spent on hazardous substance 
Superfund clean up sites in 2000 is $1.4 billion. By these same 
budget proposals, there is only $1.385 billion in 2006. It 
never gets back to the same level it was in 2000.
    As you know from the New Jersey area, we have a real 
interest in seeing these sites cleaned up. I don't understand 
this prioritization frankly. I find it hard to fully 
comprehend. I would add to that, I don't understand also why 
the Superfund costs recovery activities are presumed to be 
generating less revenues than they have been in the past when I 
was under the impression that ``polluters pay'' is the 
principle of the Superfund cleanup activities.
    Ms.Whitman. Certainly. First of all, Senator, on the second 
part, the numbers on the cost recoveries, those are always 
assumptions and the agency's assumptions have traditionally 
been way below what has actually been recovered. Those are not 
hard and fast numbers.
    If you go back and look at fiscal year 2000 and 1999, there 
was 102 percent recovery in 2000 and 182.71 recovery in 1999, 
above what was expected. So, that is just a number. We still 
believe in ``polluter pays.'' It is absolutely true. That is 
just a projected number.
    Senator Corzine. My concern about that relates back to 
these enforcement issues and the numbers.
    Ms. Whitman. Let me go back to the enforcement issues for 
you. There is a drop of 20 sites in projected cleanups. Part of 
that is reflective of the fact that starting back in fiscal 
year 2000 there were reductions in appropriations and funding 
for those clean ups. That started a couple of fiscal year 
cycles before this Administration.
    Also, those sites are now getting more complicated and they 
are more difficult to clean up. So, even with the money that is 
there, with the technical expertise, we are just not expecting 
to be able to clean as many because they are tougher to clean. 
They are more complicated. They require more attention and 
time.
    Senator Corzine. It strikes me as maybe a good rationale 
for additional funding if we are going to deal with this. I 
have some of the same concerns. Under the truly bipartisan 
leadership of the chairman, we passed a brownfields package 
this year with an authorization. I am just learning about 
authorization, and appropriations. They are two different 
worlds. I am learning requests and enactments I guess are also.
    I am concerned that 98 million versus the $250 million 
authorization sounds to me rather thin or what is it, 450,000 
brownfields sites estimated across the country? New Jersey, I 
think, has estimated something north of 8,000.
    These are really important issues. How do we work with the 
Administration to get those numbers higher?
    Ms. Whitman. Well, if we get the legislation through, then 
we are committed to working with the Congress on the 
brownfields.
    Senator Corzine. It went through 99 to 1.
    Ms. Whitman. Oh, it did. I meant that unfortunately it 
doesn't get to the President's desk until it goes through the 
other house as well.
    We look forward to working with the Congress on ensuring 
that we have those additional dollars anticipated in the 
legislation to address the area.
    Senator Corzine. One other area that I am concerned about 
which you mentioned in your testimony, and that is the Beaches 
Act. The authorization, again, was $30 million. I think the 
budget has $2 million in it, if I am not mistaken.
    Ms. Whitman. No. You are correct.
    Senator Corzine. That also seems rather thin on how we are 
going to be able to test the waters across all of our 
shorelines.
    Ms. Whitman. Well, that is stable funding from last year, 
Senator. The difference is that the authorizers often authorize 
much more than the appropriators appropriate. This is more of a 
reflection of what we have seen in the past being appropriated.
    Senator Corzine. Do you think that is adequate to do the 
job?
    Ms. Whitman. It is flat funding. We believe that we can do 
the job that we need to do. The States have been doing a lot of 
the work on that. So, we are very comfortable that those are 
good numbers.
    Senator Corzine. I would just close by saying these are 
examples of places where I would hope that you would use those 
of us here on the Hill to help get additional focus on some of 
the most important issues, I think, that face the environmental 
questions in our society.
    Ms. Whitman. I would also just add that let us not forget 
that the wet weather program, if it goes through as proposed in 
this budget also gets to that because a lot of the problems 
that we have in those estuaries and the beaches and the 
waterways come from storm sewer overflows.
    Senator Boxer. Mr. Chairman, I know we are out of time. May 
I have----
    Ms. Whitman. I will certainly stay for another round of 
questions with you, Senator.
    Senator Smith. Well, I want to be responsive to the request 
of the Administrator here. We have spent a lot of time on a 
rule, which really is not the subject of this hearing.
    I believe that I have been more than fair on time. But if 
the Administrator wants to give another couple of minutes, I 
will be happy to do it, to take Senator Boxer out of turn. Does 
that meet with your time constraints? I am going to cut it off 
in 3 minutes.
    Senator Boxer. OK, then let me just sum up what I think you 
said, because it is very confusing. We have the tape and I have 
made a request for it.
    I asked you if you were supporting the ``community right-
to-know'' part of the Clinton Rule. You said ``yes.'' I asked 
you a couple of times and you said ``yes.''
    When you clarified, you said you misunderstood me. That is 
fine. So, now I want to make sure you understand me. The 
Clinton Rule had two parts. It said arsenic, from 50 parts per 
billion to 10, and it said, rather than receiving a health 
warning at 25, you would receive a health warning at 5.
    I asked you if you would do that. You said, I thought, 
``yes.''
    Now, you don't support a health warning at five; is that 
correct?
    Ms. Whitman. Senator, you are really good and I admire----
    Senator Boxer. I'm not good. I am trying to find out what 
the heck you meant.
    Ms. Whitman. I understand that you are concerned. I 
appreciate that. I am trying to be as clear as I can. I may 
even approve a standard lower than 10 parts per billion. I am 
reserving the right to take another look at other related 
elements of the rule.
    Senator Boxer. Why is that? Why are you taking another 
look? After all these studies and after the GAO said the cost-
benefit study, and the GAO is a Republican GAO, they said to us 
that absolutely the studies were clear on the cost-benefit. You 
are taking another look, even on the five parts per billion 
when your State notifies people when they have five parts per 
billion and tells them it could be a health hazard.
    Ms. Whitman. Everybody is notified today. All arsenic 
detections are reported to the public every year in consumer 
confidence reports.
    Senator Boxer. That is not the question.
    Ms. Whitman. That is already there.
    Senator Boxer. The question is a health warning. That is 
what President Clinton said was important.
    Let me just close by saying this: You look at this gap. By 
the year 2006 you are going to be able to do 67 percent of what 
you are doing today in the EPA.
    Just because I know my chairman was critical that I talked 
mostly about arsenic, but you know, I haven't got answers, with 
all due respect to my letters on arsenic. So, I had this 
opportunity and I wanted to grab it.
    But truly, this is a frightening chart for anyone who cares 
about the environment and that is 34 million people in 
California who I happen to have the honor, the deep honor, to 
represent along with Senator Feinstein.
    This does not bode well for their air, for their water, for 
their Superfund cleanup, for their pesticide enforcement, 
cutting 270 enforcement officers and sending the money to the 
States, how are we going to hold those States accountable to us 
when you could hold those folks accountable every day in your 
offices.
     I voted for you because I think you are a very skilled 
administrator. Now, we are cutting all these people and 
creating new bureaucracies in the States. It seems to me a 
backward way to do things. It is not right. I am very worried 
about this budget, Mr. Chairman.
    I am sorry that I took so much time. I also have a meeting 
waiting for me, but I thought it was that important when it 
comes to health and safety. I think we all agree it is 
important.
    I thank you, Administrator, for staying a little longer.
    Ms. Whitman. Well, Senator, if I could, just to allay your 
fears slightly, if I can, if that is possible on the 
enforcement, 144 of those positions are funded vacancies. We 
are not seeing a reduction in actual personnel of that number.
    Really, when you look at what the States are doing now in 
enforcement, this is not going to be an across-the-board same 
number to every program for the States. This is going to be 
based on what States have sophisticated programs that with a 
little extra money they can really do the entire job or if not 
the entire job because we are still going to be a strong role 
for the Federal Government on enforcement.
    But this is going to be something that is going to be used 
to maximize the dollars we have, recognizing that they already 
do better than 90 percent of the enforcement.
    So, we still do have a very active, over 3,600 employees in 
the Office of Enforcement Compliance at the agency, which is a 
large number of employees. It is the largest one of the 
divisions that we have.
    We really are not backing off from enforcement. That is an 
important part of our mission.
    [The following statement from Administrator Whitman was 
submitted for the record concerning questions from Senator 
Boxer on arsenic standards:]

    With regard to the exchange between Senator Boxer and Administrator 
Whitman, the Agency respectfully submits this clarification on the 
Consumer Confidence Report (CCR) rule requirements as they relate to 
the arsenic in drinking water standard.
    Affecting approximately 54,000 community water systems (CWSs) 
nationwide, the CCR rule is designed to provide consumers with a 
snapshot of the quality of their drinking water for the previous 
calendar year. A basic requirement of the CCR rule is that CWSs must 
provide consumers with a list of all contaminants detected in the 
system's drinking water supply even if that contaminant is found at 
levels that do not violate any drinking water standard. For example, if 
a CWS detected arsenic in its drinking water supply below the current 
maximum contaminant level. (MCL) of 50 ppb, the system must include 
that information in its CCR. This requirement of the CCR rule is a 
constant provision and is not affected by the establishment of or 
revision to any MCL promulgated under the authority of the Safe 
Drinking Water Act by the Environmental Protection Agency (EPA).
    Another provision in the CCR rule is the publication of additional 
educational information within the systems' annual CCR for certain 
contaminants due to concerns about special risks for children or 
carcinogenicity. The CCR rule now in effect requires water systems to 
include additional education information about arsenic where it is 
detected above 25 ppb or <greek-m>g/l (50 percent of the MCL of 50). 
The regulation provides suggested language but also allows CWSs to 
develop their own language in consultation with the primacy agency. 
This provision is still in effect.
    The arsenic rule of January 2001 revised the CCR requirements in 
two ways. First, systems with arsenic above 10 ppb or 10 <greek-m>g/l 
(the revised MCL in the January rule) would be required to include the 
health effects statement for arsenic in their CCR, even though such 
systems would not be in violation of the MCL before 2006. Second, 
systems with arsenic greater than 5 but less than 10 ppb or <greek-m>g/
l (the revised MCL in the January rule) would be required to include 
educational information about arsenic in the CCR. As previously, the 
rule provides suggested language, but systems may develop their own 
language in consultation with the primacy agency.

    Senator Boxer. Good. Well, I am sure that we will oversee 
this and make sure that nobody suffers as a result of these 
cuts.
    Thank you.
    Senator Smith. Let me just make a final comment on this 
issue. I think it is important for everyone to understand that 
if the Clinton Rule were still to be in effect, the enforceable 
level on June 22, 2001, is 50 parts per billion; not 5, not 10, 
not 20, but 50.
    You have 5 years under the Clinton Rule to lower that to 
whatever, 10 parts per billion.
    I think that what the Administrator is saying is that there 
is a rule here that has three parts: the maximum contaminant 
level of 10 parts per billion; the notification requirement 
which you talked about of half of that contaminant level; and 
the effective date of 5 years.
    I think the Administrator is saying when she looks at the 
rule and they make the decision on the rule, then the proper 
notification will be made. I don't see any reason to question 
what was said in the testimony. I think that is what was meant.
    Anyway, Administrator Whitman, thank you for being here. We 
will be working on that issue at some subcommittee hearing in 
the near future on the Safe Drinking Water Act.
    If Members have questions that they wish to submit for the 
record, I will leave the record open until 5 o'clock on Friday 
for that purpose.
    [Whereupon, at 4:40 p.m. the committee was adjourned, to 
reconvene at the call of the chair.]
    [Additional statements submitted for the record follow:]
     Statement of Governor Christine Todd Whitman, Administrator, 
                    Environmental Protection Agency
    Mr. Chairman and Members of the Committee, I am pleased to be here 
to discuss President Bush's request for EPA. The President's budget 
provides the necessary funds for the Agency to carry out our mission 
efficiently and effectively--to protect human health and safeguard the 
environment. The fiscal year 2002 request is $7.3 billion, a $56 
million increase compared to last year's request.
    The President's FY 2002 budget request for EPA reflects a 
commitment to increase partnerships across America to develop 
innovative environmental programs that ensure stewardship of our land, 
air, and water for generations to come. This request provides the 
resources and vision necessary to fulfill our nation's environmental 
mission to protect the environment and human health.
    Each day, America's communities are developing environmental 
experience and expertise. Sharing this expertise with the Agency will 
help us reach our goals. The states and tribes receive about half of 
EPA's budget, because they are the innovators and energizers and are on 
the front line in implementing and enforcing our environmental 
statutes. The fiscal year 2002 request for states, tribes and EPA 
partners is $3.3 billion, almost $500 million more than was requested 
by the previous Administration.
    The President's request for EPA reflects a commitment to provide 
more flexibility to states and local communities to craft solutions to 
meet their unique environmental needs.
                     new enforcement grant program
    The President's budget for fiscal year 2002 includes $25 million 
for grants to State enforcement programs. Each year, the states conduct 
about 95 percent of the nation's environmental compliance inspections 
and take about 90 percent of the enforcement actions. In 1999, the 
States conducted 471,000 inspections while EPA conducted 21,800 
inspections nationwide. This grant program will benefit the national 
environmental enforcement program by providing states much-needed funds 
to enhance their enforcement efforts in delegated environmental 
programs. EPA envisions a program which includes three ingredients: a 
program for which there is accountability for results, flexibility to 
use the dollars to address State environmental priorities, and a 
program that is simple and efficient to administer. Over the next 
several months, EPA plans to work with the states to develop specific 
guidelines for the grant program. As we proceed through this process, 
we will keep the Committee informed of our progress.
    The President's budget includes $475 million for enforcement 
activities nationwide. This request represents a $10 million increase 
compared to enacted FY2001 level. EPA will continue to have a vital 
role in shaping and carrying out the nation's environmental compliance 
and enforcement program. EPA will continue to take actions where there 
are significant violations at companies with facilities in more than 
one state, where states do not yet have delegated programs, and where 
the Federal Government is the statutory lead. We will continue to 
assist states when requested and when they cannot get the job done.
                      information exchange network
    The budget request also includes a $25 million program intended to 
improve the states' environmental information systems. This program 
will help states and EPA create the necessary infrastructure to 
efficiently exchange information electronically, which will reduce 
burden, improve accuracy and inform decisionmaking. This request 
reflects 2 years of collaboration with the states, with whom EPA has 
created a Network blueprint to improve the nationwide exchange of 
environmental information. As an example of our ongoing efforts with 
the states in this area, in June 2001, all states will have the 
opportunity to begin submitting their Air Emissions Inventory data 
using the Information Exchange Network, demonstrating the progress made 
so far.
                               superfund
    This budget continues a commitment to clean up toxic waste sites 
with $1.3 billion for the Superfund program. The Agency's Superfund 
program responds to the needs of states, communities and the public to 
address contamination from uncontrolled releases of toxic wastes that 
threaten human health, the environment and local economies. The 
Superfund program not only protects human health and the environment 
through the cleanup of toxic waste sites, but works with both public 
and private partners to promote redevelopment of Superfund sites. The 
President's budget proposes funding Superfund at the fiscal year 2001 
appropriated level.
    Cleanup construction is under way or completed at 92 percent of the 
1,458 sites on the Federal National Priority List (NPL). In fiscal year 
2002, the Superfund program and its partners will complete construction 
at 65 private and Federal sites. This target reflects funding 
reductions in prior fiscal years and the number of large, complex sites 
now entering the construction phase of the Superfund pipeline. By the 
end of fiscal year 2002, EPA will have undertaken more than 6,800 
removals at hazardous waste sites to immediately reduce the threat to 
human health and the environment.
    Working with our Federal partners to clean up Federal Facilities, 
the fiscal year 2002 budget includes resources to support continuing 
cleanup oversight, technical assistance and property transfer at 
Federal NPL and Base Realignment and Closure (BRAC) sites. Efforts to 
support the Department of Defense's (DOD's) BRAC property transfer 
program have created jobs and accelerated the availability of more than 
350,000 acres for reuse.
                              brownfields
    In the President's fiscal year 2002 budget, the brownfields program 
request is increased by $5 million above last year's enacted level, for 
a total of $98 million. These resources will be used to provide 
additional support for State Voluntary Cleanup Programs and the 
Brownfields Assessment Demonstration Pilot program. The fiscal year 
2002 funding request provides the resources necessary to award 38 
communities new Brownfields Assessment Demonstration Pilots, 29 new 
Brownfields Cleanup Revolving Loan Fund pilots, and ten new job 
training pilots. The request includes supplemental funding for all 
three existing pilot programs, the existing 28 Showcase communities, 
and for state/tribal voluntary cleanup programs.
    President Bush has made the clean up and redevelopment of 
brownfields and the enactment of brownfields legislation a priority. 
The brownfields program is an important urban redevelopment tool that 
provides an alternative to the development of greenfields, and plays a 
key role in the Administration's goal of building strong and healthy 
communities for the 21st century. The Agency estimates that the 
brownfields program has leveraged more than an estimated $2.9 billion 
in cleanup and redevelopment funds. Through the EPA program, states, 
tribes and local communities have assessed more than 2,500 sites.
    I was pleased to see the Senate pass S. 350 on April 25 by a vote 
of 99 to 0. As many of you know, since you were original sponsors of 
the bill, this was good news for the nation. The bill encourages 
brownfields redevelopment by clarifying Superfund liability and funding 
brownfields cleanups that will make our communities safer and cleaner. 
This bill reflects the Bush Administration's belief that environmental 
protection and economic prosperity do go hand in hand. The vote is an 
overwhelming endorsement of brownfields programs that: strengthen 
partnerships among states and local community groups and developers; 
improve public health; boost local property tax rolls and provide jobs. 
I look forward to working with the House to earn its bipartisan 
endorsement of brownfields legislation and encourage quick 
congressional enactment of brownfields legislation.
    I also hope you will support the Administration's efforts to make 
the brownfields tax incentive permanent. As you know, the brownfields 
tax incentive will expire at the end of 2003. Making this provision 
permanent will remove any doubt among taxpayers as to the future 
deductibility of remediation costs and would promote the goal of 
encouraging cleanup and redevelopment at brownfields sites.
                      water infrastructure funding
    The President's budget includes $2.1 billion in grants to states 
for water infrastructure to ensure that safe and clean water is 
supplied in every American community. With respect to wastewater 
infrastructure, the Administration proposes $1.3 billion for grants to 
states in FY 2002, $500 million more than the previous Administration's 
fiscal year 2001 request. Included in the wastewater infrastructure 
request is a new $450 million grant program to assist local communities 
in addressing infrastructure needs related to Combined Sewer Overflows 
(CSOs) and Sanitary Sewer Overflows (SSOs) to address the largest 
remaining municipal wastewater problem, and $850 million for continued 
capitalization of State Clean Water State Revolving Loan Funds (CWSRF). 
The CWSRF investment keeps EPA on track with our commitment to meet the 
goal for the CWSRF to provide $2 billion average in annual financial 
assistance over the long-term even after Federal assistance ends.
                 supporting core water quality programs
    The President's request fully maintains support for EPA's core 
water quality programs, including $170 million in grants to states 
under Clean Water Act Section 106 to manage water quality programs and 
$237 million for grants under the Section 319 nonpoint source program 
to address polluted runoff. We recommend the elimination of the cap on 
Section 319 grants to Indian Tribes. This budget includes $2 million 
for ``Beaches'' grants to support the development of beach monitoring 
and notification programs at the State and local level.
    In addition, the budget maintains support for EPA's most critical 
core programs including efforts to:
    <bullet> Work cooperatively with states to develop Total Maximum 
Daily Loads (TMDLs) for the states most impaired waters;
    <bullet> Train and provide technical assistance to states to aid in 
the adoption and implementation of new drinking water standards;
    <bullet> Reduce the backlog of expired wastewater discharge permits 
under the National Pollutant Discharge Elimination System (NPDES); and
    <bullet> Work to ensure that states have protective, up-to-date 
water quality standards in place.
    The budget also maintains funding of $75 million to address 
priority water and wastewater infrastructure needs along the U.S.-
Mexico border, and $35 million to support much needed water and 
wastewater projects in Alaska rural and Native Villages. Also, in 
recognition of the lack of basic wastewater infrastructure that exists 
in much of Indian Country, the President is proposing to extend 
authority granted by the Congress for the current fiscal year that 
allows the Agency to reserve up to one-and-a-half percent of funds 
appropriated for the Clean Water SRFs for wastewater grants to tribes.
                           drinking water srf
    With regard to drinking water, the Administration proposes to 
maintain capitalization of the drinking water SRF at current levels in 
fiscal year 2002, $823 million. By the end of fiscal year 2002, State 
drinking water SRFs will have awarded 2,400 loans, with about 850 SRF 
funded projects having initiated operations by that date.
    In addition, the Safe Drinking Water Act Amendments of 1996 
included a provision that allows states flexibility to transfer funds 
between their clean water and drinking water SRFs in order to address 
their most compelling infrastructure needs. Under the President's 
budget, the Administration is proposing to allow states to continue to 
exercise this important flexibility.
                                arsenic
    With respect to arsenic, on April 23rd we proposed extending the 
effective date for 9 months, until February 22, 2002, in order to 
review the science pertaining to health risks and to better assess 
compliance costs and benefits associated with a new standard. Our plan 
during this review period is to propose a new rule and take comments on 
various possible regulatory options and the associated issues. We have 
asked the National Academy of Sciences to review the health issues and 
a subgroup of the National Drinking Water Advisory Council to examine 
compliance cost issues. We are also developing a process to review the 
benefits estimates. We plan to publish a Notice of Data Availability 
(NODA) with the findings of that review process and then finalize the 
rule based upon the comments on the proposed rule and on the NODA.
                           ensuring clean air
    The President's fiscal year 2002 budget request maintains current 
funding for EPA's clean air program, $565 million, allowing us to 
continue the progress of past years. Almost $220 million or 40 percent 
of the budget request is designated for our state, tribal, and local 
partners to help carry out their responsibilities under the Clean Air 
Act.
    In 1990, Congress passed the Clean Air Act Amendments with 
overwhelming support, setting ambitious air pollution reduction goals. 
Since then, the Nation has achieved unprecedented success in cleaning 
our air and protecting public health. Working with state, tribal, and 
local partners, we have achieved these successes through rulemakings, 
voluntary measures, market mechanisms, and stakeholder consultation.
    The Clean Air Act has succeeded in improving the air quality in our 
cities. Since 1970, air emissions have decreased nationally for five of 
the six common pollutants subject to air quality standards. Moreover, 
in FY2002 we expect increases in the number of areas with clean air and 
more areas that will come into compliance with national clean air 
health standards .
    Our cars and fuels are cleaner. The average new car is over 90 
percent cleaner (in terms of emissions) than in 1970. More than 30 
percent of the nation's gasoline is now cleaner-burning, reformulated 
gasoline. We will continue to implement gasoline sulfur reductions and 
the cleanest ever emissions standards for cars, sport utility vehicles 
(SUVs), pick-up trucks and minivans. In addition, the Administration is 
moving forward to implement new diesel truck and fuel standards that by 
2007 will achieve emission reductions of 95 percent for hydrocarbons, 
and 90 percent reductions for particulate matter and NO<INF>X</INF>, 
resulting in substantial public health benefits.
    We have issued technology-based air toxics rules, or maximum 
achievable control technology (or ``MACT'') standards, that by 2002, 
will reduce industrial air toxics by an estimated cumulative 40 percent 
from 1993 levels, or 1.5 million tons per year. Through FY 2000, 
emissions of air toxics have declined 30 percent since the 1993 
implementation of the MACT program and the auto emission standards. The 
fiscal year 2002 budget request includes the resources needed to 
complete the last round of MACT standards.
    The Acid Rain Program has succeeded in reducing sulfur dioxide 
(SO<INF>2</INF>) emissions from electric utilities by approximately 28 
percent, or 5 million tons. In addition, rainfall acidity in the East 
has been reduced by 25 percent. When Title IV is fully implemented in 
2010 there will be a reduction in annual cases of premature mortality, 
due to reductions in SO<INF>2</INF> and nitrogen oxide levels. Acid 
rain control will also produce significant benefits in terms of 
improved visibility, lowered surface water acidity, and less damage to 
high elevation forests and materials. However, more work remains. 
Recent ecological studies have found that the problem of acid rain 
persists. To further reduce emissions of SO<INF>2</INF> and 
NO<INF>X</INF> emissions from power plants, we look forward to working 
with the Congress on a multi-pollutant strategy.
    Although substantial progress has been made, it is important not to 
lose sight of the magnitude of the air pollution problem that still 
remains. In 1999, more than 150 million tons of air pollution were 
released into the air in the United States, and approximately 62 
million people lived in counties where monitored data showed unhealthy 
air for one or more of the six common pollutants.
    In fiscal year 2002, we will continue our work with states to 
reduce transported emissions of nitrogen oxides that contribute 
significantly to urban smog in downwind areas. Currently, 15 of the 19 
states subject to the NO<INF>X</INF> SIP Call have plans that EPA has 
approved or expects to approve. When fully implemented, the 
NO<INF>X</INF> SIP Call will achieve nearly a million ton reduction in 
NO<INF>X</INF> emissions. During fiscal year 2002 we will be re-
engineering the information technology support structure for the 
allowance and emissions tracking systems to provide for improved public 
access and timely exchange of data with State partners.
                       addressing global warming
    To address the challenge of global warning, the fiscal year 2002 
budget request is $145 million for voluntary and climate change science 
programs. This request allows EPA to continue its partnership efforts 
with businesses, organizations, and consumers to achieve greenhouse gas 
reductions by taking advantage of the many voluntary opportunities to 
reduce pollution and energy bills by fostering energy efficient 
programs, products, technologies, and cost-effective renewable energy.
    EPA's fiscal year 2002 budget request will help us meet the 
following goals:
    <bullet> Reduce greenhouse gas emissions annually by more than 73 
million metric tons of carbon equivalent, offsetting about 20 percent 
of the growth in U.S. greenhouse gas emissions above 1990 levels;
    <bullet> Reduce other forms of pollution, including reducing 
NO<INF>X</INF> emissions by about 180,000 tons;
    <bullet> Reduce U.S. energy consumption by more than 85 billion 
kilowatt hours, contributing to at least $6 billion in energy savings 
to consumers and businesses that use energy efficient products; and
    <bullet> Contribute to developing a new generation of fuel 
efficient and low-polluting cars and trucks.
    We have a tremendous opportunity to save on our nation's $600 
billion annual energy bill over the next decade and reduce greenhouse 
gas emissions and other forms of air pollution. EPA's voluntary energy 
efficiency programs will help capitalize on this tremendous opportunity 
for consumers, businesses, and organizations to make smarter equipment 
purchasing and investment decisions leading to a significant reduction 
of U.S. greenhouse gas emissions and air pollutants. Voluntary 
initiatives to reduce vehicle miles traveled have enormous potential to 
provide near-term reductions in energy consumption, air pollution and 
greenhouse gas emissions.
  ensuring safe food and protecting the public from harmful chemicals
    The President's 2002 budget request supports the important work of 
applying the latest science to ensure industrial chemicals and 
pesticides meet today's safety standards. The budget also supports the 
complementary protections brought through pollution prevention and 
voluntary partnerships.
    For our pesticides programs, we have carried forward earlier 
increases, maintaining the registration program at $41 million to keep 
a steady flow of new pesticides coming onto the market, many of which 
are based on innovative and safer chemistry. Likewise we maintain our 
commitment to reviewing older pesticides, ensuring they meet Food 
Quality Protection Act (FQPA) standards while at the same time working 
with growers and the agricultural industry to help make a smooth 
transition to safer pesticides. In August 2002 we expect to meet our 
second statutory deadline for tolerance reassessments, completing an 
additional 2,527 and meeting the 66 percent of the 9,721 reassessments 
required in the law.
    This budget request includes $46 million for our new and existing 
chemicals programs. Chemicals are in all the products and services we 
enjoy in our daily lives. The $14 billion High Production Volume 
Chemical Challenge program aims to gather health and safety information 
for the public to make better informed choices. As part of the HPV 
voluntary program, 469 companies committed to provide basic information 
about 2,155 chemicals. The budget request of $20 million will support 
partnerships with states and private industry on pollution prevention 
projects, reducing use or exposure to chemicals to reduce potential 
risks most especially those chemicals that persist in our environment, 
collect or bioaccumulate in our bodies, and have adverse or toxic 
effects in the environment and on human health.
    In both the pesticide and the chemical programs we continue to 
place special emphasis on reducing potential risks to children and 
other vulnerable populations. Emerging science is focusing our 
attention on chemicals that may harm animal or human endocrine systems, 
and we are working with the scientific community to find ways to 
identify those chemicals as part of our endocrine disruptor program.
    Let me mention here that the budget assumes no impediment to 
promulgating the final pesticide tolerance fee rule in 2002, and you 
will see that the request levels for the reregistration and the 
tolerance reassessment programs reflect that change, namely from a 
reregistration maintenance fee to a tolerance fee. These two critical 
programs are fully supported with $52 million in appropriated funds if 
a new fee is in place in 2002 and we will be working with you on this 
issue over the coming months.
                             sound science
    Environmental policy should always be based on the soundest 
information available. The role of environmental science has become 
more critical than ever in making policy decisions, thereby, improving 
our ability to sustain natural resources while maintaining public trust 
and the integrity of our world's ecosystem. Science has played a vital 
role in improving America's environment--from targeting priority 
chemicals concerns, better characterizing sources of pollution and 
designing control strategies. While we must also realize that science 
and public policy proceed along fundamentally different time lines, we 
will continue to use the best available science and scientific analyses 
to aid in the development of environmental policy.
    EPA's fiscal year 2002 President's budget supports a strong and 
rigorous research program. The fiscal year 2002 request includes $535 
million for the Office of Research and Development (ORD), reflecting an 
increase of $5 million compared to the fiscal year 2001 request. This 
request will allow the Agency to support a research program focused on 
addressing key environmental concerns such as the health effects of 
small particles in order to assure promulgation of standards that 
protect human health, and heightened interest in better addressing in 
Agency decisions the unique susceptibilities of children to potential 
environmental health threats. The Agency's request will also continue 
to support the Global Change research program focusing efforts on 
assessment activities examining the potential consequences of global 
change and climate variability on human health, air quality, water 
quality and ecosystem health.
    In addition to supporting a strong intramural science program at 
the Agency, the fiscal year 2002 request provides $110 million for the 
Science to Achieve Results (STAR) program which includes competitively 
awarded grants and fellowships. The STAR program continues to 
successfully engage the best environmental scientists and engineers 
from academia through a variety of competitive, peer reviewed grants. 
In addition, the Agency will continue its highly successful 
Postdoctoral program to hire scientists and engineers who provide a 
dynamic infusion of intellectual energy and state-of-the-science 
expertise, as well as assist the Agency in addressing long range 
research workforce planning needs.
                              civil rights
    The President's budget includes a $3 million increase for civil 
rights activities at the agency. The increase is expected to address 
the backlog of pending discrimination complaints for both Title VI and 
VII complaints. I expect to announce by June 1 a comprehensive strategy 
for fully eliminating the Title VI ( those complaints that concern 
possible acts of discrimination by recipients of Federal funding), 
backlog within 2 years. In addition, Title VII complaints (complaints 
that concern possible acts of discrimination against individuals within 
the Agency) will be reviewed by a special case closure team. Our goal 
for Title VII complaints is to issue a final Agency determination on 
all backlogged cases by no later than the end of the year. Furthermore, 
this summer all 1,600 EPA supervisors and managers will attend a 
national civil rights training program. The Agency has contracted with 
the Equal Employment Opportunity Commission to provide this mandatory, 
2-day course. I expect to be among the first to take the course. I 
pledge to personally monitor the progress in the civil rights arena.
                                summary
    Mr. Chairman and Members of the Committee, the President's fiscal 
year 2002 budget for EPA provides the resources and vision necessary to 
reach our Nation's environmental mission to protect the environment and 
human health. This budget represents this Administration's commitment 
to work with our environmental partners to develop innovative 
environmental programs that ensure stewardship of our land, air, and 
water for generations to come. This concludes my prepared statement. I 
would be pleased to answer any questions that you may have.
                               __________
   Responses by Christine Todd Whitman to Additional Questions from 
                             Senator Smith
    Question 1. This budget creates two new state grant programs. One 
will provide $25 million for multimedia state enforcement activities. 
The other will provide $25 million for improving public access to 
environmental information. How do you envision these two programs 
working together to improve environmental protection?
    Response. Both of these grant programs facilitate local 
decisionmaking involving environmental concerns by providing resources 
to the people closest to the issues thereby enhancing their ability to 
tailor solutions to their circumstances. The enforcement grants provide 
funds to state and tribal officials to address environmental risks and 
noncompliance patterns through the use of compliance assistance, 
incentives for facility self-auditing, inspections and investigations, 
and enforcement actions. The information grants provide funds to 
officials to develop integrated environmental information systems that 
will improve access to such information by the public. Further, EPA and 
the States will be better able to share information about facilities 
and permits if they are based on a common data architecture.

    Question 2a. I am pleased to see that President Bush recognized the 
importance of water infrastructure and provided for a substantial 
increase over the previous Administration's request. However, I would 
like to work with you on how those funds are to be allocated in making 
sure that States are given flexibility in deciding their priorities. 
Both increasing the SRF and providing funds to fix the many CSOs and 
SSOs around the country are important goals. I look forward to working 
on legislation this year to better achieve these goals. However, in the 
meantime we need to focus on this years budget. Every year we provide 
for grants for CSOs and SSOs in the appropriations request.
    Would you envision this CSO/SSO grant program taking the place of 
those earmarks?
    Response. The CSO/SSO grant program proposed by the President 
provides a flexible tool for States to address their highest priority 
projects in their neediest communities. We would envision that the 
highest priority CSO/SSO projects targeted by the states would be 
funded through this program.

    Question 2b. Do you feel the proposed level for the SRF is 
sufficient?
    Response. The Administration believes its request for wastewater 
infrastructure funding will provide a substantial source of funding for 
states to address their communities' highest priority needs. The 
proposed level for the CWSRF is $50 million more than the amount 
requested by the prior Administration and is $500 million more in total 
wastewater infrastructure spending when combined with the new sewer 
overflow grants. The $850 million request for the Clean Water SRF 
supports the Agency's goal for the State SRFs to provide a long-term 
average of $2 billion a year in financial assistance.

    Question 2c. In looking at the infrastructure question, is the 
Federal Government allowing enough flexibility for the States?
    Response. Both the SRF programs represent an innovative approach to 
financing a wide range of wastewater and drinking water projects. The 
SRF programs are implemented through a State-EPA partnership which EPA 
believes allows states a great deal of flexibility. Together with its 
state partners, EPA has continually sought ways to improve the program 
so that its resources will effectively address the highest priority 
water quality and public health problems.
    Since each SRF program is managed by the state, project eligibility 
varies according to each state's program and priorities. Each state has 
developed its own priority system to rank individual projects for 
funding. In the Clean Water (CW) SRF program, eligible loan recipients 
may include communities, individuals, citizens' groups, and non-profit 
organizations. The CWSRF allows for the funding of point source, 
nonpoint source and estuary activities. To date, CWSRF funds have 
primarily been used to fund point source projects such as the 
construction and upgrade of wastewater treatment facilities to 
secondary treatment, rehabilitation of sewer collection systems, and 
combined sewer overflow measures. However, over the past few years, 
there has been a dramatic increase in the CWSRF funding of nonpoint 
source and estuary activities. Such activities include projects to 
control agricultural runoff, correct or replace onsite septic systems, 
and develop streambank buffer zones. Many states are developing 
integrated priority systems that consider wastewater and nonpoint 
sources of pollution together in addressing impacted waters.
    Eligible loan recipients in the Drinking Water (DW) SRF program may 
include community water systems (both privately- and publicly-owned), 
and nonprofit noncommunity water systems. The state identifies the 
projects that are funded using a priority system based on public 
health, compliance with the Safe Drinking Water Act and affordability 
and must offer assistance to the highest priority projects. The DWSRF 
program also gives each state the flexibility to use a portion of its 
grant funds for programs and activities that address the non-
infrastructure needs of water systems promoting effective state 
drinking water programs, source water protection and the technical, 
financial and managerial capacity of water systems. Such programs can 
reduce the need for more costly infrastructure projects and are 
critical in ensuring public health protection.

    Question 2d. What areas do you see that need reform?
    Response. The Administration is looking forward to a constructive 
dialog with the Congress and other shareholders on the full range of 
SRF implementation issues, e.g., project eligibilities, loan terms, 
privatization, ensuring that Federal mandates are not needlessly costly 
and burdensome, and other issues. One area where we have made a 
specific proposal in the fiscal year 2002 request concerns the States' 
ability to transfer funds between their clean water and drinking water 
SRFs.
    The 1996 Safe Drinking Water Act (SDWA) Amendments, which 
authorized the DWSRF program, included a provision allowing states to 
transfer an amount equal to up to 33 percent of their DWSRF grant to 
their CWSRF program, or an equivalent amount from their CWSRF program 
to their DWSRF program. The goal of the provision was to give states 
flexibility to address the most critical demands in either program at a 
given time. The provision allowed states to make transfers through 
September 30, 2001.
    The President requests in his fiscal year 2002 budget that Congress 
continue the authorization of transfers between the two SRF programs, 
in order to give states flexibility to address their most pressing 
water infrastructure needs. This can be accomplished by rescinding the 
sunset date of September 30, 2001, from the SDWA provision.

    Question 3a. I was pleased to see you recognized the importance of 
the beaches bill we passed last year. We were successful in not only 
passing the beaches bill but also a comprehensive estuaries bill called 
the ``Estuaries and Clean Waters Act of 2000''. I hope you will 
recognize the efforts by this Committee over the coming years, as we 
pass authorizing language, and respect the priorities we see as 
important to protect the environment. I would ask that you work with 
use in preparing next years budget and increase funding for these 
programs, as EPA issues guidance and they mature.
    For the beaches grants, is the $2 million request part of the 106 
grant program or separate?
    Response. The $2 million request for the Beaches grants is separate 
from the request for the Section 106 grants.

    Question 3b. How will these funds be allocated?
    Response. The President's budget allocates $57,000 to each coastal 
state and territory.

    Question 4a. States and the EPA in nondelegated states, such as New 
Hampshire, are going to quickly be faced with implementing a revised 
TMDL rule and a revised Concentrated Animal Feeding Operations (CAFO) 
rule. Both of these rules will substantially increase the number of 
NPDES permits that need to be issued.
    How does the EPA plan to issue the additional NPDES permits and 
catch up on the backlog of permits?
    Response. EPA began an aggressive effort to reduce the existing 
backlog of expired NPDES permits in late 1998. In 1999, the Office of 
Wastewater Management formed a work group to assess the problem and to 
develop a national strategy in cooperation with its NPDES State 
partners. This strategy was published in July 1999, and is posted on 
the NPDES program web site (http://www.epa.gov/npdes/pubs/
strategy.pdf). In addition to the national strategy, former Deputy 
Administrator Mike McCabe, in March 2000, directed each EPA Regional 
Administrator to develop State-specific plans to describe how each 
State in the Region would meet the backlog reduction targets. These 
strategies have been submitted and are now used to track State and 
Regional progress.
    Since the Agency began its backlog reduction effort, our Regional 
offices have taken a variety of concrete steps to reduce the backlog of 
permits for which they are directly responsible. For example, EPA 
Region 1, which had the most ``non-authorized'' states, reorganized its 
NPDES staff to form permit issuance/backlog reduction teams. Based on 
these efforts, the number of expired permits for ``major'' NPDES 
dischargers administered by EPA has dropped from 292 (46 percent) to 
157 (30 percent).
    The Agency will continue to actively track and manage permit 
issuance efforts, and will work closely with our State partners to 
implement the national and State-specific backlog reduction strategies. 
The additional permits that may need to be issued due to the TMDL and 
CAFO rules pose additional challenges. We hope that States will use 
General Permits and electronic tools that are being developed to make 
the process simpler and more efficient.

    Question 4b. Will the States be able to handle all of these new 
regulatory requirements under the current budget?
    Response. The Agency is confident that adequate resources can be 
allocated to address the requirement of the permitting programs. As new 
rules are finalized, the Agency will evaluate the adequacy of state 
grant programs during its annual budget review.

    Question 5. We substantially increased the 319 program for nonpoint 
sources last year and the President recognized the importance of the 
319 program and requested the same level of funding. Has the agency 
done any type of needs analysis for the nonpoint source program? What 
role do you see yourself playing with USDA in trying to solve the 
problem of nonpoint source pollution.
    Response. EPA develops and publishes a Clean Watersheds Needs 
Survey Report to Congress every 4 years. This survey originally 
addressed only municipal point sources. After Congress amended the 
Clean Water Act by adding Section 319 to address nonpoint source 
pollution and began funding that program in 1990, EPA began with the 
1992 report to include nonpoint source needs estimates. Given the lack 
of availability of data on the million of specific sources of nonpoint 
pollution, the estimates have been based upon the application of 
appropriate models to estimate national needs. Assumptions used to 
develop the models are explained in the Needs Survey document.
    In the most recently published survey (the 1996 Clean Water Needs 
Survey), EPA estimated a portion of the Nonpoint Source Needs, focusing 
upon agriculture and silvicultural sources of nonpoint pollution. Those 
estimates were $5.9 billion and $3.5 billion, or a total of $9.4 
billion.
    EPA is currently preparing an analysis of nonpoint source needs 
that would revise and expand upon the 1996 Needs Survey. As part of the 
2000 Clean Watersheds Needs Survey, EPA is both refining its 
agricultural and silvicultural needs estimates and adding estimates of 
other significant sources of nonpoint pollution, including septic 
tanks; abandoned coal mines; small residential construction sites 
(larger ones are addressed by the point source permit program under 
Section 402 of the Clean Water Act); dams; and marinas.
    EPA considers USDA to be a critical partner in our efforts to 
control nonpoint source pollution from agricultural sources. USDA's 
Environmental Quality Incentives Program is a significant source of 
funding to address water quality issues at animal feeding operations, 
grazing and pasture land, and both irrigated and non-irrigated cropping 
operations. In addition, the Conservation Reserve Program, and 
especially the Conservation Reserve Enhancement Program, have been 
critical tools to protect highly eroding areas as well as critical 
riparian areas. EPA and USDA have worked very closely together on such 
efforts as implementing a unified national strategy for animal feeding 
operations, and we jointly fund many projects throughout the United 
States using our respective funding mechanisms. Given our complementary 
areas of expertise, we look forward to continuing to work together 
effectively in this manner.

    Question 6a. During the hearing much was said about the arsenic 
standard. I would like you to clarify a few issues:
    If the arsenic rule under the Clinton administration was in effect 
on June 22, 2001, what would the enforceable MCL be on that date and 
for the following 4 years?
    Response. Under the SDWA, the effective date for compliance with 
national primary drinking water regulations (NPDWRs) is 3 years from 
the date of promulgation unless EPA determines that an earlier date is 
practicable. EPA also may provide drinking water systems with an 
additional 2 years to make any capital improvements necessary to come 
into compliance with an NPDWR. Under the arsenic drinking water 
standard proposed by the previous administration, the revised standard 
of 10 ppb would not have gone into effect until January 2006, a full 5 
years after the date of promulgation. Therefore, the enforceable MCL as 
of June 22, 2001 and for the following 4\1/2\ years (June 2001 through 
January 2006), would have remained at 50 ppb.

    Question 6b. Do states have the flexibility to set MCLs below what 
EPA requires and have States chosen to do so in the area of arsenic? Is 
it common for States to set levels different than those required by 
EPA?
    Response. Under Section 1414(e) of the SDWA, States may set 
standards that are more stringent than those established by EPA. Both 
New Hampshire and New Jersey, for example, have proposed to establish 
MCLs for arsenic that are lower than the current Federal standard of 50 
ppb. It is uncommon, however, for states to set MCLs lower than the 
Federal standard.

    Question 6c. As a part of the arsenic rule under the Clinton 
administration, the information required under the Consumer Confidence 
Report for arsenic would have been changed to require additional health 
information. Presumably this information was linked to data the Clinton 
administration used in finalizing the rule. If you decide to change the 
rule, would you review all of the new data and studies to make a 
determination on what additional health information is necessary, if 
any, to provide the public in the consumer confidence reports? How are 
the detection levels of arsenic, the MCL, and the consumer confidence 
reports linked? What arsenic information do water utilities currently 
supply consumers in the consumer confidence reports?
    Response. Affecting approximately 54,000 community water systems 
(CWSs) nationwide, the Consumer Confidence Report (CCR) rule is 
designed to provide consumers with a snapshot of the quality of their 
drinking water for the previous calendar year. A basic requirement of 
the CCR rule is that CWSs must provide consumers with a list of all 
contaminants detected in the system's drinking water supply even if 
that contaminant is found at levels that do not violate any drinking 
water standard. For example, if a CWS detects arsenic in its drinking 
water supply below the current maximum contaminant level (MCL) of 50 
ppb, the system still must include that information in its CCR. This 
requirement of the CCR rule is a constant provision and is not affected 
by the establishment of or revision to any MCL promulgated under the 
authority of the Safe Drinking Water Act by the Environmental 
Protection Agency (EPA). This provision, therefore, would not have been 
changed under the arsenic regulation proposed by the previous 
administration.
    Another provision in the CCR rule is the publication of additional 
educational information within the systems' annual CCR for certain 
contaminants due to concerns about special risks for children or 
carcinogenicity. The CCR rule now in effect requires water systems to 
include additional education information about arsenic where it is 
detected above 25 ppb or <greek-m>g/l (50 percent of the MCL of 50). 
The regulation provides suggested language but also allows CWSs to 
develop their own language in consultation with the primacy agency. 
This provision also remains in effect.
    The arsenic rule of January 2001 revised the CCR requirements in 
two ways. First, systems with arsenic above 10 ppb or 10 <greek-m>g/l 
(the revised MCL in the January rule) would be required to include the 
health effects statement for arsenic in their CCR, even though such 
systems would not be in violation of the MCL before 2006. Second, 
systems with arsenic greater than 5 but less than 10 ppb or <greek-m>g/
l (the revised MCL in the January rule) would be required to include 
educational information about arsenic in the CCR. As previously, the 
rule provides suggested language, but systems may develop their own 
language in consultation with the primacy agency.
    The revised arsenic CCR requirements were to go into effect March 
23, 2001 and would apply to the CCR covering calendar year 2001 that is 
distributed to customers no later than July 2002. The change in the 
effective date of a final arsenic in drinking water rule to February 
22, 2002 would result in the revised arsenic CCR requirements applying 
to CCRs covering calendar year 2002. For CCRs covering calendar year 
2001, systems are required to follow original arsenic CCR provisions, 
namely: (1) indicate any level of arsenic detected, and (2) provide 
additional arsenic educational information when arsenic is detected 
above 25 ppb or <greek-m>g/l.
    In the event we decide to revise the rule, we would also review all 
of the new health effects data and studies to determine what bearing 
they may have on public information requirements. We believe that the 
strength of the health effects information and its relationship to the 
arsenic MCL that is ultimately promulgated have a direct bearing on the 
consumer confidence report requirements. We will be carefully 
considering these issues as we move toward final decisions on the rule.

    Question 7a. I sent a letter (6/28/00) to Administrator Browner 
last year raising concerns with the application of the Clean Air Act 
and Comprehensive Environmental Response, Compensation and Liability 
Act to air emissions from animal feeding operations. It was my 
understanding that the EPA recognized the science and data for air 
emissions from animal feeding operations was lacking. Thus, I was 
informed industry and the EPA were working together to have the 
National Academy of Sciences look at this issues. However, it has come 
to my attention that the enforcement office at EPA is proceeding with 
legal actions against animal feeding operations under the above 
mentioned statutes. I would hope that the enforcement office would 
respect the need for further science and wait for the policy offices to 
work through that process. The budget document in the section on the 
air office briefly mentioned this issue.
    Could you update me on EPA's current position on this issue?
    Response. EPA initiated a comprehensive literature review of 
industry emissions and best management practice information. We have 
also begun discussions with the National Academy of Sciences (NAS) 
regarding a study to review the scientific issues and to make 
recommendations related to measuring and estimating agricultural 
emissions. The study should also address best management practices, 
including costs. A Memorandum of Understanding (MOU) was formed in 
February, 1998 with the U.S. Department of Agriculture (USDA) to confer 
on agriculture and air quality issues. In the spirit of this agreement, 
we plan to work closely with USDA, their Agricultural Air Quality Task 
Force (AAQTF), and other stakeholders, in the course of the study. We 
will use this study to develop scientifically valid emission estimates 
that can be used to inform our regulatory policy decisions.
    The USDA's AAQTF, has recommended that EPA defer implementation of 
Title V of the Clean Air Act (CAA) and Comprehensive Environmental 
Response, Compensation and Liability Act (CERCLA) until there is a 
better understanding of the scientific issues associated with emissions 
from agricultural production sources. We are currently reviewing this 
recommendation and will work with the USDA on these issues.
    Governor Whitman also recently created the position of Counselor to 
the Administrator on Agriculture Policy and asked Jean-Mari Peltier of 
California to fill the post. By establishing this position, EPA will be 
better able to integrate the concerns of the agricultural community 
when making important decisions about how best to protect our natural 
resources.

    Question 7b. Is the enforcement office aware of the need for 
further science and data on this issue?
    Response. Yes, EPA's enforcement office is aware of the need for 
further study on this issue. EPA agrees that we do not currently have 
sound emission estimates sufficient to support regulatory 
determinations for animal agriculture. At the same time, the Agency has 
received complaints from citizens living nearby several very large 
combined animal feeding operations (CAFOs) alleging that air emissions 
are affecting their health and quality of life. Although we recognize 
the need for better air emissions data from CAFOs, EPA must respond to 
these concerns by investigating such operations. As described above, 
EPA is developing a cross-Agency approach for addressing air emissions 
from animal production operations.

    Question 8. In the budget request, State air quality grants are 
level-funded at $208.5 million from last year's enacted amount. 
According to the State and Territorial Air Pollution Program 
Administrator's (STAPPA), State agencies are underfunded by nearly $100 
million. Does the Administration have a plan to address this resource 
need over the long term?
    Response. STAPPA, ALAPCO, and EOA conducted a collaborative effort 
several years ago to assess funding needs. Collectively it was found 
that Federal grants to State and local air pollution control agencies 
and tribes under Section 105 of the Clean Air Act fell short of State 
and local air funding needs. EPA continues to support fine particulate 
matter monitoring through section 103 grants that require no cost 
sharing by States. EPA has continued to work with STAPPA/ALAPCO to 
identify State and local priorities and to integrate those priorities 
at EPA in a transparent as possible planning and budgeting process.
    Grants support a variety of activities. For example, there is still 
considerable work to be done to address hazardous air pollution. 
States/locals must assess the extent of the problem through monitoring 
and data analysis implement technology-bases (or ``MACT'') standards, 
develop strategies for addressing State/local problems. They also issue 
permits to many minor sources (which can be an expensive undertaking 
that is not covered by permit fees under Title V of the Clean Air Act. 
In addition to toxic air pollution, States/locals must continue to 
address criteria pollutant, such as ozone and particulate matter, 
regional haze, and visibility. The list of State responsibilities for 
which funding may be directed includes, the following: transportation-
related projects; land use and air quality programs; development, 
replacement and/or upgrading of monitors (apart from fine particulate 
matter monitoring); collection of essential emission and pollutant 
data; minor source inspections and permits; training; implementation of 
ozone strategies; multi-State approaches to regional air quality 
problems; and public education and outreach.
    EPA is actively supporting efforts that will overtime, reduce 
States burden for reporting to EPA. Air Emissions Inventory submission 
under the Clean Air Act were received through Central Data Exchange 
from 34 States and several county air boards. In addition, EPA is 
requesting $25 million in grant support for the National Environmental 
Information Exchange Network, which, when fully implemented will make 
it easier to collect essential data, to coordinate permit inspections 
and to reduce State reporting costs.

    Question 9. You may be familiar with the Army Corps of Engineer's 
authority to study the water resource needs or river basins and 
regions. Section 729 of the Water Resources Development Act of 1986 
granted the original authority and the provision was amended in the 
Water Resources Development Act of 2000. A study conducted under this 
authority is done in cooperation with the Administrator of the EPA, as 
well as the secretaries of other relevant Federal agencies. Under this 
authority, the Army Corps may assess the water resources' needs of 
river basins and watersheds, including needs relating to ecosystem 
protection and restoration; flood damage reduction; navigation and 
ports; watershed protection; water supply; and drought preparedness. In 
the fiscal year 2001 Energy and Water Development Appropriations Act, 
$500,000 was granted to conduct such a comprehensive study along the 
Merrimack River watershed. As you may be aware, five communities along 
this river--Nashua and Manchester, NH; Lawrence, Lowell, and Methuen, 
MA--are attempting to coordinate and manage their water resource needs. 
These communities are eager to get started with this study and hope 
that it will shed light on measures they can take as a region to reduce 
CSOs and restore the Merrimack River basin. However, considering the 
consent orders that have been levied upon them, there is a reluctance 
to contribute the required 50 percent match toward the Corps study 
unless credit is going to be granted by EPA for this comprehensive 
assessment.
    This study provides a unique opportunity for communities to band 
together and take a holistic approach to their problems. My question to 
you is this: would EPA recognize the Comprehensive Merrimack River 
Study as a positive step forward for these communities and grant them 
credit toward the consent decrees if they commit the required local 
match to undertake this study?
    Response. It is unclear what is meant by ``grant them credit toward 
consent decrees.'' There is no question that wet weather is creating 
significant water quality problems for the Merrimack River. It is well 
known that combined sewer overflows are a major source of the bacteria 
polluting the river. Manchester and Nashua are in the process of 
implementing measures to reduce CSOs, and the Massachusetts communities 
along the Merrimack are in the final stages of developing CSO abatement 
plans. The EPA believes that more information about other pollution 
sources could be helpful in understanding all of the impacts along the 
river and therefore would support a comprehensive study.
    The EPA would examine which projects would provide the greatest 
environmental benefits as the results of such a study became available 
and make adjustments to future phases of abatement plans as 
appropriate. The Agency does believe that a significant amount of CSO 
work will be necessary regardless of the outcome of any study. CSO 
projects already committed to should proceed as planned. EPA is willing 
to credit funds spent on the study toward future CSO work. This means 
that in future negotiations, EPA will take into account the 
communities' investment in this water quality study when considering 
their ability to finance CSO controls. This should not impact the 
communities' ability to complete necessary ongoing work.
                               __________
   Responses by Christine Todd Whitman to Additional Questions from 
                            Senator Corzine
    Question 1. Two hundred and seventy of the five hundred personnel 
that your budget cuts are enforcement positions. I understand from your 
testimony that $25 million of the resources freed up by these cuts are 
going to states in the form of enforcement grants. I'm concerned that 
many of New Jersey's most pressing environmental problems can be 
addressed only by strong Federal enforcement. Can you explain how the 
State grant program will address the complex interstate NO<INF>X</INF> 
pollution problems that New Jersey faces or help to clean up New 
Jersey's Superfund sites? Can you guarantee that this grant program 
will not slow cleanup of Superfund sites in New Jersey and elsewhere in 
the country?
    Response. The reduction of 270 personnel from EPA's enforcement and 
compliance assurance program represents a 7.5 percent reduction from 
the current workyear ceiling. The fiscal year 2002 budget maintains 
sufficient resources to sustain a vigorous Federal environmental 
monitoring and enforcement program, and EPA expects to meet its fiscal 
year 2002 goals for Superfund cleanup with the resources proposed in 
the President's budget.

    Question 2. New Jersey has more Superfund sites than any other 
State in the nation. Eighty-four of New Jersey's one hundred and eleven 
NPL sites are not yet cleaned up to the ``construction complete'' 
stage. So I am concerned to see that your budget request reduces the 
fiscal year 1902 target for cleanups to 65. This is well below the 85 
cleanups per year that have been accomplished in the last 4 years; it 
is also below last year's target of 75. Yet the overall Superfund 
request is relatively flat. When I asked you about this at the hearing, 
you said that the reduced target is due to increased cleanup costs at 
remaining sites. Can you please provide any additional information 
about the Superfund pipeline or other matters that are relevant to your 
decision to lower the target for construction completes.
    Response. The President's budget establishes an appropriate balance 
in the distribution of scarce resources among competing environmental 
priorities. In addition to historical budget reductions in the 
Superfund program, an important reason for the decline in construction 
completions that you describe is the increasing complexity of NPL sites 
that have yet to be addressed, including an increase in the number of 
operable units at the remaining sites, and an increase in the 
percentage of Federal facilities included in the list of remaining 
sites. These factors increase the time needed to achieve construction 
completion at a site.

    Question 3. Your budget cuts Superfund cost recovery activities by 
5 percent over last year's enacted levels, and nearly 15 percent versus 
last year's request. Superfund cost recovery enforces the ``polluter 
pays'' principle, and replenishes the Superfund Trust Fund. Why did you 
cut this important activity, particularly in light of the fact that the 
Trust Fund is dwindling?
    Response. The reduction to cost recovery FTE reflects a pro-rata 
share of Ageney-wide reductions to meet the congressionally-directed 
ceiling of 17,500 FTE for fiscal year 2002. Despite these reductions, 
the President's request provides the funding necessary for EPA to 
address all pending cases at sites with total unaddressed response cost 
greater than $200,000, prior to expiration of the statute of 
limitations. By maintaining this goal, EPA confirms its well-
established commitment to the ``polluter pays'' principle and ensures 
that there will be no loss of revenue to the U.S. Treasury Department 
due to budgetary constraints.

    Question 4. The Supreme Court decided in EPA's favor earlier this 
year on the NO<INF>X</INF> SIP call. Not all of the states have 
submitted revisions for their State Implementation Plans, and the 
deadline is approaching. Are you committed to preparing and 
implementing a Federal Implementation Plan for states that fail to 
submit their own plans?
    Response. EPA remains committed to implementing on time rules to 
combat the regional smog problem in the eastern United States. The 
NO<INF>X</INF> reductions from this action are needed to help many 
cities in the eastern half of the United States meet the 1-hour ozone 
air quality standard.
    So far, 15 states and the District of Columbia have adopted or are 
in the process of adopting NO<INF>X</INF> SIP call rules that we have 
approved or expect to be able to approve as achieving the required 
reductions on time. We are continuing to work with the states to 
maximize chances of getting approvable rules from all states in time 
for sources to comply by May 2004. Alternatively, we are positioned to 
issue a final FIP rule in a timely manner, if necessary. The FIP rule 
was proposed in October 1998 and the NOx trading program-a key part of 
the proposed FIP rule-was issued as a final rule under section 126 in 
January 2000.

    Question 5. EPA has taken New Source Review enforcement actions 
against 32 power plants last year. How much does your budget request 
allocate to support this litigation? And does your budget allocate 
resources to support additional New Source Review enforcement actions?
    Response. EPA does not specifically track resources dedicated to 
NSR enforcement cases. In addition, EPA has not developed a specific 
budget line item for NSR enforcement at this time. In fiscal year 2002, 
the Agency is requesting 866 workyears and $92 million for the civil 
enforcement program in the Environmental Program and Management 
appropriation. Support for NSR litigation comes from the civil 
enforcement budget.

    Question 6. Last year, Congress unanimously passed the BEACH Act of 
2000. The law established a beach water monitoring grant program for 
coastal states and territories to improve and implement beach water 
monitoring and public notification activities. Congress authorized $30 
million for these grants to help states better protect the public's 
health and identify polluted beach waters. Your agency has only 
requested $2 million. How can EPA fulfill its responsibilities and 
provide assistance for coastal states with less than 7 percent of the 
funding authorized for these activities just 8 months ago?
    Response. EPA believes the budget request of $2 million to support 
BEACH Act grants will provide an adequate level of funding in Fiscal 
Year 2002 consistent with a phased approach to implementation. During 
the first phase, states will be eligible to apply for beach monitoring 
and public notification program development grants. These grants will 
enable the states to establish programs that are consistent with the 
performance criteria to be published by EPA. During the second phase, 
states can apply for program implementation grants.
    Beach Act implementation grants may only be awarded to states that 
have demonstrated that their programs are consistent with EPA's 
performance criteria. In order to do this, states have to develop 
detailed implementation plans for monitoring and notification. These 
plans must provide information such as: (1) lists of coastal recreation 
waters covered by the program, (2) processes by which states may 
delegate program responsibilities to local governments, (3) the 
frequency and location of all monitoring and assessment activities, (4) 
sampling and laboratory methods to be used for detecting levels of 
pathogens and pathogen indicators that are harmful to human health; and 
the assessment procedures for identifying short-term increases in 
pathogens and pathogen indicators, (5) measures for prompt 
communication of the exceedence of applicable water quality standards 
to EPA and local jurisdictions, (6) measures for the posting of signs 
at beaches or similar points of access, or functionally equivalent 
communication measures that are sufficient to give notice to the public 
that the coastal recreation waters are not meeting or are not expected 
to meet applicable water quality standards for pathogens and pathogen 
indicators, and (7) measures that inform the public of the potential 
risks associated with water contact activities in the coastal 
recreation waters that do not meet applicable water quality standards.
    Because the above program requirements must be met before states 
may receive grants for full program implementation, we believe that 
funding requested in the Fiscal Year 2002 budget is appropriately 
focused on program development.

    Question 7. In your testimony, you congratulate the Senate for 
passing a brownfields bill. Yet your budget requests only $98 million 
of the $250 million that the bill would authorize. If the bill becomes 
law prior to enactment of EPA's fiscal year 2002 appropriation, will 
you ask Congress to appropriate more than the $98 million in the 
budget?
    Response. This Administration has testified in support of Senate 
brownfields legislation which authorized a level of funding more than 
the $97.7 million requested in the fiscal year 2002 President's budget. 
EPA is pleased that legislation has been passed by the Senate and looks 
forward to working with the House of Representatives toward enacting a 
brownfields law. Should brownfields legislation be enacted, the 
Administration will work with Congress to determine an appropriate 
level of funding that is consistent with the President's budget 
priorities.

    Question 8. The Intergovernmental Panel on Climate Change recently 
released its Third Assessment Report. As you know, the report concluded 
that global warming is happening, and that most of the warming in the 
last 50 years is attributable to human emissions of greenhouse gases. 
As you point out in your testimony, EPA's voluntary climate change 
programs have been highly successful in reducing greenhouse gases and 
other pollutants. Your request of $145 million for these programs is 
similar to last year's funding levels. But it is well short of the $227 
million requested last year. Can you explain the rationale for your 
request in light of the IPCC report?
    Response. The Administration is now conducting a cabinet-level 
review to develop an effective and science-based approach to address 
the important issues of global climate change. It will encourage 
research breakthroughs that lead to technological innovation and take 
advante of the power of markets. It will encourage global participation 
and pursue actions that will help ensure continued economic growth and 
prosperity for our citizens and for citizens throughout the world.
    EPA's voluntary climate protection programs continue to be highly 
successful in cost-effectively reducing emissions of greenhouse gases 
while reducing air pollution and saving businesses, organizations, and 
consumers billions of dollars on their energy bills. At the level that 
Congress appropriated in fiscal year 2001, EPA's voluntary climate 
protection programs will accomplish the following:
    <bullet> Less greenhouse gas pollution.--EPA's climate protection 
programs are projected to reduce greenhouse gas emissions by more than 
73 MMTCE in 2002, reducing the growth in greenhouse gas emissions above 
1990 levels by about 20 percent.
    <bullet> Less local air pollution.--Through energy efficiency 
investments, these programs prevent other forms of pollution, including 
air pollutants such as nitrogen oxides, particulate matter, and 
mercury. Nitrogen oxides emissions are projected to be reduced by more 
than 180,000 tons in 2002, helping to reduce local smog and improve air 
quality.
    <bullet> Lower energy bills for families schools, local 
governments, and small businesses: American families, large and small 
businesses, schools, and industry that use energy efficient products 
will spend up to $6 billion less on energy bills in the next year.
    <bullet> National platform to leverage utility/state resources.--
Energy Star provides a national platform with more than 40 percent 
consumer awareness that helps utilities and State energy efficiency 
organizations leverage their resources.
    <bullet> Energy efficiency is key to a balanced approach to the 
energy crises.--Energy efficiency is low cost to deliver (2-3 cents/
kWh) and enhances system reliability. EPA's Energy Star program helped 
reduce peak summer demand by almost 10,000 MW in 2000.
    The Administration's National Energy Policy (NEP) provides many 
recommendations for enhancing these voluntary programs. For example, 
the NEP calls for increasing energy efficiency, including expanding the 
Energy Star program to new building types, as well as adding more 
products, appliances and services. The NEP also provides 
recommendations for EPA to promote cleaner energy supply, such as 
Combined Heat and Power. These types of programs will continue to play 
a strong role in limiting our national emissions while allowing our 
economy to grow. We are currently evaluating how to implement the NEP 
recommendations.

    Question 9. I understand that you are a member of President Bush's 
task force on climate change, and that the task force will be making 
recommendations in June. If the task force decides that EPA climate 
change programs need additional funding, will you modify your request 
for this year?
    Response. The Administration is now conducting a cabinet-level 
review to develop a climate change policy that protects the 
environment, consumers, and the economy. The cabinet-level group is 
working on an effective and science-based approach to address the 
important issue of global climate change. The President has said that 
he is optimistic that, by working constructively with our friends and 
allies through international processes, we can develop technologies, 
market incentives, and other innovative approaches to address global 
climate change.
    EPA's Office of Air and Radiation has a great deal of expertise in 
several areas important to developing policy responses to the issue of 
climate change, including: use of voluntary programs to achieve energy 
efficiency gains and the reduction of various greenhouse gases; 
development and demonstration of more energy efficient vehicle 
technologies; and management of emissions trading programs that help 
lower the costs of achieving environmental protection goals. Once the 
cabinet-level review is complete, we will assess whether there are any 
additional funding needs for fiscal year 2002 and later years.

    Question 10. As you know, the recent Supreme Court decision in the 
Sandoval case, if broadly interpreted, would make your agency the only 
recourse for people who suffer from environmental discrimination. 
Therefore, I applaud your commitment to reduce the backlog of Title VI 
cases within 2 years. How will you accomplish this goal, even with the 
increase in funding that you have requested?
    Response. A Task Force has been established under the leadership of 
the Office of Enforcement and Compliance Assurance to resolve the 
backlog of Title VI complaints. The Task Force will focus exclusively 
on addressing the backlog of Title VI complaints. The Task Force will 
be responsible for investigating and resolving the backlog in 
accordance with Title VI of the Civil Rights Act of 1964, EPA's 
implementing regulations, case law, and the Agency's experience in 
evaluating complaints. I am preparing to channel additional resources 
toward the formation of this Task Force which will include talented, 
experienced personnel from EPA's civil rights, enforcement, legal, and 
program offices, as well as additional revenue dollars to ensure that 
the goal of eliminating the backlog within 2 years is achieved.

    Question 11. I notice that in your testimony, sometimes you use the 
fiscal year 2001 enacted level as the measure of your fiscal year 2001 
request. Other times, you use the fiscal year 2001 requested level as 
the baseline. The choice of the baseline makes a big difference in how 
the comparison looks, and using a variety of baselines causes 
unnecessary confusion in the debate. What rule or set of principles was 
used to determine which baseline was appropriate? If there were no 
consistent principles that guided your choices, will you commit to 
developing, articulating and applying such principles in future 
requests?
    Response. It is useful to compare the President's budget request 
for fiscal year 2002 with both the fiscal year 2001 budget request and 
the fiscal year 2001 enacted budget. A look at both these amounts 
provides a more complete context for understanding the Agency's current 
budget request. A comparison of budget requests from two different 
years is a comparison of two similar items which highlights where 
priorities may change or stay the same from one year to another. One 
way in which enacted budgets differ from budget requests is in their 
composition. They include Congressional earmarks, which are considered 
one-time projects and not part of the Agency's baseline budget. When 
each Administration formulates a budget request, the usual practice is 
to back out these earmarks from the previous year's enacted budget. In 
EPA's case, the fiscal year 2001 enacted budget includes nearly $500 
million in Congressional earmarks, so our starting point for the fiscal 
year 2002 budget request excludes that amount.
    In describing our fiscal year 2002 budget request, the 
Administrator compared it with the Agency's budget request for fiscal 
year 2001-thus illustrating an emphasis on EPA's strong base programs 
that protect the environment and public health, as well as some new 
priorities that EPA would like to pursue in the coming year.
                               __________
   Responses by Christine Todd Whitman to Additional Questions from 
                              Senator Reid
    Question 1. For what part of the last 10 years has EPA had a hiring 
freeze in place? Please include in your answer information for EPA as a 
whole, the regions and for the Office of [Enforcement and] Compliance 
Assurance (OECA) or its predecessor offices.
    Response. The information requested is reflected in the tables, 
below:

                             EPA as a Whole
------------------------------------------------------------------------
  Freeze Timeframes  (specific months are
               approximate)                       Explanatory Notes
------------------------------------------------------------------------
January 2001 thru March 2001..............  Hiring freeze for the entire
                                             Agency imposed by President
                                             Bush on January 20, 2001
May 1999 thru December 1999...............  Hiring freeze for entire
                                             Agency due to budget
                                             uncertainties for all of
                                             the Federal Government;
                                             Federal shutdown
July 1995 thru March 1996.................  Hiring freeze due to EPA
                                             budget uncertainties
------------------------------------------------------------------------


              Office of Enforcement and Compliance Assurance
------------------------------------------------------------------------
             Freeze Timeframes                    Explanatory Notes
------------------------------------------------------------------------
December 1999 thru October 2000...........  This was an extension of the
                                             May-December Agency wide
                                             identified above. This
                                             freeze was due to spending
                                             caps imposed by Congress
Current Status............................  All of OECA remains under a
                                             freeze with the exception
                                             of two organizational
                                             components, the Office of
                                             Compliance; and the Office
                                             of Criminal Enforcement,
                                             Forensics and Training
------------------------------------------------------------------------


    Question 2. What are the ``FTE'' ceilings and actual on board 
number of employees in: Headquarters, the regions, and the Office of 
[Enforcement and] Compliance Assurance (OECA). I would like to know how 
this has changed, if at all, over time. Please provide the same 
information for the last 10 years, in 6 month increments.
    Response. The table which follows, reflects the full-time 
equivalent (FTE) and actual on board counts going back to FY1990. 
Please note that ``on board counts'' include all Agency employees, 
irrespective of whether or not they are working on full time, part-
time, or intermittent appointments and includes experts and 
consultants. The on board count for this year reflects information in 
our human resource information system [EPAYS] as of June 14th of this 
year. The on board counts for fiscal year 1990 through 2000 reflect 
employees on Agency rolls as of the last full pay period of that fiscal 
year, rather than in 6 month increments, as had been requested.

                                   FTE and Actual On Board Count Data for EPA
----------------------------------------------------------------------------------------------------------------
                                        Regions                  Headquarters                    OECA
         Fiscal Year         -----------------------------------------------------------------------------------
                                   FTE        On Board         FTE        On Board         FTE        On Board
----------------------------------------------------------------------------------------------------------------
1990........................       7661.0          8356        8253.4          9073         384.7           407
1991........................       8131.2          8906        8624.1          9641         411.7           448
1992........................       8504.9          8988        8989.0          9508         447.7           487
1993........................       8671.3          9280        9246.0          9325         480.2           546
1994........................       8514.1          9059        9074.7          8876         627.6           886
1995........................       9029.5          8743        9827.1          8969         912.5           914
1996........................       8351.1          8460        9065.2          8445         887.4           870
1997........................       8560.0          8743        9377.3          8962         915.5           960
1998........................       8836.1          9189        9447.4          9337         927.4           972
1999........................       8729.2          9020        9637.0          9433         942.4           957
2000........................       8585.1          8716        9514.9          9226         904.9           900
2001........................       8522.4          8804        9477.6          9305         895.5           868
----------------------------------------------------------------------------------------------------------------

    Question 3. In light of the ``National Energy Policy'' released by 
the Administration May 17, 2001, do you plan on making any changes to 
the EPA budget? If so, for what programs would you increase funding? 
For which programs will you decrease funding? Do you plan to increase 
EPA's overall budget to address the recommendations contained in the 
report? If so, how?
    Response. We are still in the process of reviewing the policy 
package and have not determined whether and additional resources will 
be required in fiscal year 2002 to carry out the National Energy 
Policy. Once we have a full understanding of the policy, we will lay 
out a plan that will detail resource and program requirements for 
fiscal year 2002. The Administration will not be submitting a budget 
amendment to Congress for any changes to the EPA budget related to the 
National Energy Policy recommendations.
                              enforcement
    Question 1. Administrator Whitman, you said in your confirmation 
hearing that companies did not like to be seen as polluters, and so 
would take steps to avoid enforcement actions. You said ``I believe 
that enforcement is a critical tool. We must not abandon it, nor walk 
away from it.'' I agree with this, yet your budget cuts 270 EPA 
enforcement personnel. You have emphasized the importance of the role 
of the states, yet clearly this doesn't replace a Federal role in 
ensuring compliance with Federal environmental laws. Have you changed 
your mind on the importance of Federal enforcement?
    Response. The fiscal year 2002 budget maintains sufficient 
resources to sustain a vigorous Federal environmental monitoring and 
enforcement program. The shift places resources directly in the hands 
of states, who are closer to the environmental problems in their 
states, to carry out delegated enforcement and monitoring activities, 
allowing the Federal program to focus on those aspects of environmental 
enforcement which states cannot do, or in which they need assistance.
    EPA will continue to have a vital role in shaping and carrying out 
the nation's environmental compliance and enforcement program. EPA will 
continue to take actions where there are significant violations at 
companies with facilities in more than one state, where states are not 
yet delegated programs, and where the Federal Government is the 
statutory lead. We will also continue to backup states where they 
cannot get the job done.

    Question 2. Do you plan on requiring the states to use the money 
for strictly enforcement actions?
    Response. States will have flexibility to use a range of compliance 
assurance tools to address environmental risks and noncompliance 
patterns. These tools include enforcement actions, inspections and 
investigations, incentives for facility self-auditing, and compliance 
assistance. The tools will be used individually or in combinations 
appropriate to the environmental risk or noncompliance pattern being 
addressed by the State or tribe.

    Question 3. Can you ensure that the states can replace all the 
Federal actions which would have been taken but for the funding shift? 
How do you plan to ensure this?
    Response. States will use the grant funds to address important 
environmental risks and noncompliance patterns through strategies that 
utilize enforcement actions, inspections and investigations, incentives 
for facility self-auditing, and compliance assistance in appropriate 
combinations. This integrated approach has been used by EPA to address 
noncompliance for several years. The fiscal year 2002 budget provides 
EPA's enforcement and compliance assurance program sufficient resources 
to continue focusing on Federal cases involving multi-state or multi-
facility corporations, environmental programs which cannot be delegated 
to states due to statutory prohibition, or issues for which EPA can 
provide specialized expertise.

    Question 4. How do you plan to measure the success of the State 
enforcement programs? Will this be a continuing process?
    Response. States will be approved for grant funding only if their 
grant proposal includes specific plans to measure and report on their 
performance in achieving results. For example, states will need to 
define performance measures for determining whether they are having an 
impact on the environmental risk or noncompliance pattern they are 
addressing with the grant funds. EPA will establish required reporting 
intervals for states to provide performance information which can be 
reviewed on a regular basis.

    Question 5. In light of the cuts in positions in your Office of 
Enforcement and Compliance Assurance (OECA) at EPA, what activities do 
you think might be affected? Are there certain programs or initiatives 
that you are planing on protecting from these cuts? What will you do if 
there is a case in, for example, a small State with a small legal 
office, that the State does not have the resources to address?
    Response. The enforcement programs affected by the workyear 
reduction will be identified as we work with the regional offices and 
states during development of the fiscal year 2002 work plans. EPA will 
continue to have a vital role in shaping and carrying out the nation's 
environmental compliance and enforcement program. The Agency will 
continue to take actions where there are significant violators at 
companies with facilities in more than one state, where states are not 
yet delegated programs, and there the Federal Government is the 
statutory lead. EPA will also backup states where they cannot get the 
job done.

    Question 6. Can you ensure us that there will be sufficient 
resources to bring all the enforcement cases which need to be brought?
    Response. The fiscal year 2002 President's budget has sufficient 
resources to sustain a vigorous Federal environmental monitoring and 
enforcement program. EPA will continue to take actions where there are 
significant violations at companies with facilities in more than one 
state, where states are not yet delegated programs, and where the 
Federal Government is the statutory lead. We will also continue to 
backup states where they cannot get the job done. Additionally, the new 
$25M State enforcement grant program will allow states to assume a 
larger enforcement portfolio.

    Question 7. Administrator Whitman, EPA's Inspector General has 
criticized EPA for not being aggressive enough in recovering money from 
responsible parties under the Superfund program. Despite this, your 
budget has a cut of personnel in OECA working on this very function. 
Why would you cut funding for this activity? Do you disagree with the 
IG's recommendations?
    Response. In order to address the Inspector General concerns, in 
May of 2000, EPA revised its methodology for calculating its indirect 
costs to ensure full cost accounting, in accordance with the Statement 
of Federal Financial Accounting Standards No. 4 (SFFAS No. 4). This 
will allow for a full accounting of the Superfund indirect costs and 
will increase the percentage of EPA's indirect costs that can be 
recovered. Because the revised rates are applied in a similar manner to 
the previous rates, there are no additional resources needed to 
implement the revised rates. In addition, the Office of Site 
Remediation Enforcement has been working with the IG's office, EPA 
Regions and the Department of Justice to address overdue Superfund 
accounts receivable in a timely manner and maximize the collection of 
dollars owed to the Trust Fund.
    The reduction to cost recovery FTE reflects a pro-rata share of 
Agency-wide reductions to meet the congressionally directed ceiling of 
17,500 FTE for fiscal year 2002. EPA plans to address 100 percent of 
its cost recovery cases with unpaid response costs greater than 
$200,000 prior to the expiration of the statute of limitations. EPA 
fully expects to achieve all these activities within the requested 
resource levels.

    Question 8. Administrator Whitman, as you know, I am very much in 
favor of funding for the brownfields program, and appreciate even the 
small increase in this budget. However, I was puzzled as to why your 
budget proposal has the funding for brownfields coming out of the 
budget for the enforcement office, since the vast majority of 
brownfields activities are not enforcement actions. Can you explain 
this?
    Response. The brownfields program is a priority in the President's 
budget. The funding from all available sources was considered in 
developing the budget proposed for EPA's brownfields program.

    Question 9. What types of positions do you plan on eliminating in 
the 270 personnel ceiling reduction?
    Response. Most of the reductions will be coming from the civil 
enforcement and compliance monitoring programs. EPA has not identified 
the positions that will be eliminated at this time. The Agency will be 
working on implementation issues later this summer which will include 
identifying the positions that will be eliminated. However, the 
positions may include a mix of technical and legal enforcement and 
administrative support positions. In addition, some positions are 
encumbered and will be moved to other Agency programs while other 
positions are vacant and will not be back filled.

    Question 10. How many cases does the average EPA regional attorney 
handle per workyear? The average attorney at EPA Headquarters? How many 
inspections does the average inspector conduct annually? How many 
cases, on average, does a program employee supporting the enforcement 
program work on?
    Response. The fiscal year 2002 President's budget requests 920 
workyears and $101 million for the civil enforcement program and 436 
workyears and $50 million for the compliance monitoring program. These 
resources support both technical, legal, and administrative support for 
enforcement cases and inspections. Also, guidance development and 
inspector training is included in these numbers.
    Enforcement cases and inspections may vary in length and complexity 
depending on the statute, the number of facilities involved, the degree 
of noncompliance, and the cooperation of the violator. As a result, 
some EPA staff may devote an entire year to one particular matter while 
others will be handling dozens of different matters. However, to 
respond to your question, we have compiled the following estimates of 
the average workload of EPA:
    <bullet> On average, EPA attorneys and case development personnel 
manage between five and ten active enforcement actions in a given year.
    <bullet> Across all EPA programs, EPA's full time inspectors 
average between 35 and 45 inspections per year.
                        sound science and budget
    Question 1. During your nomination hearing, you stated, ``I will 
commit to working to make science the foundation for EPA's 
policymaking.'' Given this statement, why is the EPA recommending a $27 
million cut to the Sound Science program? How will this cut affect your 
ability to achieve this goal?
    Response. The majority ($26.3 million) of the reduction to Goal 08: 
Sound Science is due to Congressional earmarks received during the 
fiscal year 2001 appropriations process which are not included in the 
fiscal year 2002 President's Request. We are maintaining the practice 
of treating the previous fiscal year's congressional additions as one-
time commitments rather than including them in the succeeding year's 
budget request. The remainder represents a redirection of funds from 
Goal 08: Sound Science to Goal 05: Waste Management in order to better 
align laboratory resources that support the Superfund program.

    Question 2. Are these cuts targeted to specific policy programs? If 
so, what programs?
    Response. No specific policy programs are targeted by these cuts.

    Question 3. Do you believe the EPA has sufficient budget resources 
to address all the needed scientific reviews and analysis needed to 
support rulemakings or other policy decisions? If not, what programs 
need more resources to address scientific uncertainties?
    Response. The President's fiscal year 2002 budget request provides 
sufficient budget resources to address all the needed scientific 
reviews and analysis needed to support upcoming rulemakings and policy 
decisions.

    Question 4. The EPA budget will provide a small increase to the 
Science Advisory Board. Do you see the board as crucial to achieving 
the sound science goal?
    Response. The independent scientific and technical advice that the 
Science Advisory Board (SAB) gives to Congress and the Administrator on 
scientific, engineering, and economic issues remains crucial to 
achieving the goal of sound science. The SAB review process provides a 
public forum in which noted outside experts conduct the rigorous peer 
review of Agency science. The Board's concerns go further than simply 
the generation of good science, per se, since it seeks to insure that 
credible science is used in credible ways to reach environmental 
decisions. The SAB is also a source of important scientific and 
technical advice to Agency managers and scientists through the insights 
that the SAB shares on a variety of topics, including new developments 
in the greater scientific community that the Agency should be aware of. 
Finally, SAB's Research Strategies Advisory Committee (RSAC) reviews 
EPA's Science and Technology (S&T) budget and provides its views 
regarding the Agency's science priorities.

    Question 5. How much of the science used by the EPA in making 
policy decisions is generated by EPA researchers? How much comes from 
other Federal agencies? How much from university or industry research?
    Response. EPA relies on all sources of sound science to assist in 
decisionmaking. We review and integrate research results from our own 
EPA (ORD) research laboratories, other Federal agencies, universities, 
and other R&D sources in preparing risk assessments to inform 
decisionmakers. Our goal is to use the best pertinent science 
available.
    Sources of the science used in making policy decisions vary from 
rule to rule and are evaluated and used on a case-by-case basis. Peer 
review of major scientific and technical work products is an integral 
part of the Agency decisionmaking processes. The main principle 
underlying the peer review policy is that all major scientific and 
technical work products used in decision making should be peer 
reviewed. Therefore, all major work products important to EPA 
decisionmaking that are generated by other organizations, (e.g. other 
Federal agencies, industry, academic institutions, etc.) are considered 
as candidates for peer review, just as major peer-reviewed work 
products by EPA are considered. However, currently there is no 
automated system in place that captures data as you requested. Rather, 
extensive literature retrieval efforts, using many different Internet 
websites and/or other computerized reference services are used by EPA 
experts or contractors to identify and retrieve pertinent published 
studies for any given assessment used to support Agency decisionmaking. 
Contacts between EPA scientists and their peers in other Federal 
Agencies and the general scientific community (including academia, 
industry, etc.) also occur.
    One example of how scientific information from a variety of sources 
is used in Agency rulemaking is EPA's ``Identification of Dangerous 
Levels of Lead''. This rule (in response to Title 10, Section 403 of 
the 1992 Lead Hazard Reduction Act) established hazard standards for 
residential lead-based paint, and residential dust and soil lead. EPA 
established standards in this rule based in part on: (a) analyses by 
EPA contained in its 1986 Air Quality Criteria Document for Lead and 
its 1989 Supplement, and (b) the 1992 Pediatric Iead Advisory issued by 
the Centers for Disease Control and Prevention (CDC) which established 
a blood-lead level of concern of 10 micrograms per deciliter of blood. 
A 1993 National Research Council (NRC,) report on Measuring Lead 
Exposure in Infants, Young Children and Other Sensitive Populations 
also discussed the extensive literature substantiating unacceptable 
health risks being associated with blood lead levels. EPA then 
evaluated the amount of exposure to lead that may cause a child to 
exhibit a blood lead level exceeding this level of concern.
    In evaluating exposure, EPA considered the National Survey of Lead-
Based Paint in Housing conducted from 1989-90 by the U.S. Department of 
Housing and Urban Development (HUD) and on HUD's Rochester Lead-in-Dust 
Study. EPA then applied its Integrated Exposure, Uptake and Biokinetic 
(IEUBK) model for Lead to evaluate the relationship between lead in 
dust and soil and blood lead level. Research studies from EPA, National 
Institute of Environmental Health Sciences (NIEHS), academia, and 
industry were used to derive key parameters that were incorporated into 
the IEUBK Model and/or to test its predictive capabilities across 
various ranges of exposures and blood lead levels.

    Question 6. Do you think the current budget will allow the EPA to 
maintain its own research programs or will the EPA rely increasingly on 
external sources? Do you think this will make the research more or less 
objective? Will this move EPA closer to the goal of using sound 
science?
    Response. The current budget maintains our programs and reflects 
the Administration's commitment to sound science at EPA. The 
combination of EPA in-house research and external research should make 
the research more objective. All of ORD's research undergoes either 
internal or external peer review in an effort to ensure that sound and 
credible science underlies all Agency decisions and actions.

    Question 7. In developing the Yucca Mountain radiation standard, 
the EPA has been criticized for using ``outdated science.'' Does the 
EPA currently have a program in place to update elements of that 
standard with the most recent science? If not, why not. If so, will the 
program maintain its funding in light of a proposed $27 million cut to 
EPA's sound science goal?
    Response. EPA's standards for the proposed Yucca Mountain 
repository are technically sound and protective of human health and the 
environment. The concerns about ``outdated science'' have been about 
the dosimetry used to develop EPA's drinking water standards for 
radionuclides which have been incorporated in the standard to provide 
separate ground water protection in the Yucca Mountain standard. Last 
year EPA reviewed the radionuclide standards developed under the Safe 
Drinking Water Act using the most recent science and concluded that the 
risk levels mostly fall within EPA's lifetime risk range goal for fatal 
cancer of 10<SUP>-4</SUP> to 10<SUP>-6</SUP> (1 in 10,000 to 1 in 
1,000,000 chance of contracting cancer). Therefore, EPA has applied 
those same levels in its approach to ground water protection at Yucca 
Mountain. EPA has the authority to update rules. Should it be warranted 
by new science, the Agency will amend its Yucca Mountain standard.

    Question 8. The EPA has received criticism of its Yucca Mountain 
radiation standard from the [NRC] and DOE. In discussions you have had 
with these agencies, do they offer their own independent scientific 
analysis of these standards? If so, does the EPA have the budget 
resources to independently analyze those results?
    Response. Most of the criticism of the Yucca Mountain standards 
from NRC and DOE are about our ground water policy. EPA and most 
states, including Nevada, have a policy to protect current and future 
drinking water resources, as we did with the separate ground water 
standard for Yucca Mountain. DOE and NRC are responsible for 
determining whether the repository can meet EPA's standards. DOE 
recently released analyses of the performance of the repository system 
that indicate the current design could meet EPA's standard. The Agency 
does not have the finds to independently verify DOE's results.
                          water infrastructure
    Question 1a. Administrator Whitman, when you testified before us 
during your January 17 nomination hearing, you listed the lack of 
funding for water infrastructure as one of the most pressing 
environmental problems facing our nation. You referred to this lack of 
funding related to wastewater and drinking water treatment as an 
``enormous problem,'' an area in which the Federal Government could 
provide additional funds. And in response to questions from Senator 
Voinovich related to the shortfall in water infrastructure funding, you 
repeatedly stated that President Bush ``recognized this need.'' In your 
budget, however, I see no evidence whatsoever that either you or the 
President recognize the need. In fact, I see just the opposite, I see 
this ``enormous need'' being ignored. Further, in contrast to the 
specific instructions of Congress, you have cut $500 million from the 
fiscal year 2001 appropriated levels for Clean Water State Revolving 
Loan Fund (CWSRF) program to pay for grants for combined sewer and 
sanitary overflow projects.
    Is it the case that the President's budget request for the CWSRF is 
roughly $50 million less than the levels appropriated in fiscal year 
2001 (roughly $1.35 billion)?
    Response. In making our request for wastewater infrastructure, we 
have balanced the need for a substantial continued investment in the 
Clean Water SRF program with the need to provide meaningful funding for 
the newly authorized wet weather grants program--all in the context of 
budget targets that are designed to restore fiscal discipline to the 
Federal budget process.
    Under the President's request, states can continue to manage their 
Clean Water SRFs, with the added advantage of grant funding to address 
their most compelling sewer overflow related needs.

    Question 1b. Did not Congress specifically direct you to provide 
grants to the new CSO/SSO program only after the CWSRF program was 
fully funded at $1.35 billion?
    Response. The Agency is requesting $850 million in fiscal year 2002 
for the CWSRF, $50 million more than the amount requested by the prior 
Administration and $500 million more in total wastewater infrastructure 
spending when combined with the new sewer overflow control grants. The 
$850 million level supports the Agency's goal to have the States SRFs 
provide a long-term average of $2 billion a year in financial 
assistance.

    Question 1c. Do you plan to ignore the constraint that Congress 
placed on funding the new CSO/SSO program? If no, how do you intend to 
address it?
    Response. The Agency acknowledges that the Congress specified in 
the Omnibus Appropriations bill that funding for the new sewer overflow 
grants would only be available when the CWSRF program was funded at 
$1.35 billion or higher. The Agency has asked for an exemption from 
this provision in order to begin this important grants program while 
maintaining a substantial investment in the CWSRF program.

    Question 1d. How much less money would go to the State of Nevada 
through the CWSRF in fiscal year 2002, if the President's $500 million 
cut in this budget is sustained?
    Response. The State of Nevada would receive $4,162,300 if the CWSRF 
were funded at $850 million, $2,433,800 less than it would receive if 
the CWSRF were funded at the fiscal year 2001 level of $1.35 billion.

    Question 1e. How much money would be directed to the State of 
Nevada through the new CSO/SSO program, if the $450 million funding 
proposal for the program is sustained?
    Response. The State of Nevada would receive $2,181,600 through the 
new CSO/SSO program, if the President's $450 million funding request is 
sustained.

    Question 1f. Please provide your best estimate of the CSO/SSO 
dollar needs in Nevada and the basis of this estimate.
    Response. There are no known CSOs in Nevada. SSO needs are being 
evaluated and will be quantified for the first time in the 2000 Clean 
Water Needs Survey Report to Congress, which will be delivered to 
Congress in Fall, 2002. Preliminary results are not available.

    Question 1g. Please provide your best estimate of how Nevada's CSO/
SSO needs compare to other estimated dollar needs that could be funded 
through the CWSRF, such as secondary wastewater treatment. Please 
provide the basis used for this comparison.
    Response. Since there are no known CSOs in Nevada, and SSO needs 
are now being evaluated and quantified for the first time, EPA has at 
present no data for CSOs or SSOs to compare to secondary wastewater 
treatment needs for Nevada.

    Question 2. EPA estimates put the total capital need for water 
infrastructure over the next 20 years in the neighborhood of $300 
billion. A coalition of industry and environmental groups (Water 
Infrastructure Network) puts the 20-year need closer to $2 trillion, 
with a ``gap'' between needs and funding of close to $23 billion 
annually. How does the President's budget--which cuts the CWSRF funding 
by $500 million and flat-funds the Drinking Water State Revolving 
Fund--``recognize the need'' related to this ``enormous problem''?
    Response. The Administration believes its request for water and 
wastewater infrastructure funding provides a substantial source of 
funding for states to address their communities' highest priority 
needs. The proposed level for the CWSRF is $50 million more than the 
amount requested by the prior Administration and is $500 million more 
in total wastewater infrastructure spending when combined with the new 
sewer overflow grants.
    Since 1989, EPA has invested more than $18 billion in grants to 
help capitalize the 51 SRFs, over twice the original Clean Water Act 
authorized level of $8.4 billion.
    A continued investment in the DWSRF has resulted in significant 
progress in financing drinking water infrastructure projects. At the 
end of fiscal year 2000, more than 1,400 loans for $2.8 billion had 
been made to water systems for eligible projects and $1.4 billion 
remains available for loans. Of these 1,400 loans, 74 percent went to 
small water systems that serve 10,000 persons or fewer.
    The Administration is very interested in working with the Congress 
to find the right solutions to address water and wastewater 
infrastructure needs. EPA would like to discuss with the Congress and 
other stakeholders the appropriate roles of Federal, State, local 
governments, and the private sector in meeting these infrastructure 
needs. In addition to discussing the appropriate Federal role, we 
believe the dialog should also include other non-financial mechanisms 
to improve the efficiency of the water infrastructure sector.

    Question 3a-h. You mentioned in testimony that funding the CWSRF at 
the requested $850 million level will keep the Agency on track to meet 
a goal of ``revolving'' the Fund at $2 billion.
    (a) By what year will this goal be met?
    (b) By what year will the goal for the DWSRF be met?
    (c) What is the impact of cutting the CWSRF from $1.35 billion to 
$850 million in terms of meeting the $2 billion goal, i.e., how many 
years will the attainment of that goal be delayed if the President's 
proposed $500 million cut in CWSRF funding (as compared to fiscal year 
2001 appropriation) is sustained?
    (d) What is the basis of the $2 billion goal for the CWSRF and the 
goal for the DWSRF?
    (e) Are these goals for revolving the CWSRF tied in any way to the 
estimated $150 billion to almost $1 trillion funding need that has been 
identified for clean water projects?
    (f) Is it true that the CWSRF and DWSRF revolving goals were 
established before the ``enormous problem'' facing the nation's water 
infrastructure was fully recognized?
    (g) Do you believe that the $2 billion goal for the CWSRF and the 
goal for the DWSRF are adequate goals for revolving these funds?
    (h) Do you have any plans to reassess the adequacy of these goals?
    Response. The fiscal year 2001 Appropriation of $1.35 billion 
enables the CWSRF to revolve at $2 billion per year over the long-term. 
EPA set this goal to maintain approximately the level of assistance 
provided annually under the Clean Water Act during the last 10 years of 
the construction grants program, as well as the average level of EPA 
funding provided to the States over the beginning years of the CWSRF.
    EPA estimates that another 4 to 5 years of additional 
capitalization at approximately $825 million/year will be needed to 
allow the DWSRF program to reach the revolving goal of $500 million. 
The goal was set at a level consistent with drinking water compliance 
needs identified in the 1993 report to the Congress, ``Technical and 
Economic Capacity of States and Public Water Systems to Implement 
Drinking Water Regulations.''
    The Administration is very interested in working with the Congress 
to find the right solutions to address water and wastewater 
infrastructure needs. EPA would like to discuss with the Congress and 
other stakeholders the appropriate roles of Federal, state, local 
governments, and the private sector in meeting these infrastructure 
needs. In addition to discussing the appropriate Federal role, we 
believe the dialog should also include other non-financial mechanisms 
to improve the efficiency of the water infrastructure sector.

    Questions 4a-c. The Congressional Budget Office, General Accounting 
Office, and EPA are all examining elements of the funding needs 
associated with water infrastructure.
    (a) Given the budget agreement and the huge tax cut that [is] being 
pushed through Congress--a tax cut that really doesn't bite into the 
budget until the out years--where would the Administration find the 
money needed to significantly increase Federal funding for water 
infrastructure, especially over the next 2 to 6 years?
    (b) You have mentioned in the past that the President recognizes 
the ``enormous problem'' facing our nation's communities as it relates 
to water infrastructure. In the context of the constraints that the 
budget agreement and tax cut will put on Federal discretionary funding 
over the next several years, have you discussed the need with [the] 
President to provide additional Federal assistance to communities with 
water infrastructure?
    (c) Has the President made any commitments to you related to 
providing additional funding to address the ``enormous problem'' in the 
future?
    Response. The Administration is confident that the President's 
budget proposal is consistent with appropriate levels of Federal 
investment in water infrastructure. The Administration is continuing 
its review and analysis of water infrastructure needs and looks forward 
to a constructive dialog with Congress and other stakeholders on the 
future role of the Federal Government in funding water infrastructure.

    Question 4e. Has the President ruled out offsetting future EPA 
funding for water infrastructure with cuts elsewhere in EPA's budget?
    Response. The Agency is continuing its internal review and analysis 
of the work done by outside organizations concerning the needed 
investment in water infrastructure. Until these analyses of the future 
investment for water and wastewater needs are complete, it is premature 
to comment. The Administration looks forward to working with Congress 
on this issue.

                           other water issues
    Question 1a. Watershed Planning. In your January testimony before 
this Committee, you spoke at length about the need for EPA to be 
``aggressive'' about watershed planning. You point out that it was 
important for EPA to help people understand that ``Mother Nature does a 
much better job for a lot less cost of cleaning our water than do 
filtration plants.'' You noted that you were able to get increased 
funding for watershed management as Governor of New Jersey. In response 
to my written questions, you also said you'd like to see the Federal 
Government increase funding for watersheds.
    Do you continue to believe that ``Mother Nature does a much better 
job for a lot less cost of cleaning our water than do filtration 
plants.''?
    Response. Natural ecosystems, such as wetlands, help improve water 
quality, including that of drinking water sources, by intercepting 
surface runoff and removing or retaining its nutrients, processing 
organic wastes, and reducing sediment before it reaches open water. 
Wetlands often function like natural tubs or sponges, storing water 
(flood water, or surface water that collects in isolated depressions) 
and slowly releasing it. Trees and other wetland vegetation help slow 
flood waters. This combined action, storage and slowing, can lower 
flood heights and reduce the water's erosive potential, and reduce the 
likelihood of flood damage to crops in agricultural areas, help control 
runoff in urban areas, and buffer shorelines against erosion. A 
comprehensive approach to watershed management will include reliance on 
both natural systems and man-made controls such as treatment and 
filtration plants.

    Question 1b. In the President's budget, there is only ``flat 
funding'' for Section 106 grants and nonpoint source pollution 
management programs. It also appears that funding for watershed 
research has been cut by 25 percent. Given all you've told us about the 
importance of watersheds, and your statement to this Committee that you 
would like to see additional Federal funding for watershed activities, 
please explain the absence of a proposal for additional funding for 
these activities in the EPA budget?
    Response. The increased funding provided in Section 106 grants and 
nonpoint source pollution management in recent years has greatly aided 
State efforts to aggressively address their watershed activities. 
States have achieved some fairly dramatic reductions in nitrogen and 
phosphorous loadings in key areas which have been instrumental in 
restoring habitats and aquatic life. In addition, increased Section 319 
funding has helped leverage significant State funding to help implement 
nonpoint source programs. In the latter case, I would mention very 
ambitious funding efforts in California, New York and Pennsylvania. I'm 
pleased to note that the President's budget maintains funding for these 
important programs at the level provided by Congress this fiscal year.

    Questions 1c-d. Given that you have been unsuccessful in achieving 
increased Federal funding for watershed activities, what ``aggressive'' 
steps do you plan to pursue in this regard? How will these steps be 
funded?
    Response. There is a very wide umbrella under which the many 
activities that could improve watershed health and water quality fall. 
EPA is working diligently within the Agency, with other Federal 
agencies, as well as with State and local governments and other 
partners to focus the resources that it currently has on the highest 
priorities and best approaches. There are three basic areas of 
watershed activities: the monitoring and assessment of water quality 
conditions; the development of watershed protection or ``watershed 
recovery'' plans, of which TMDLs can be a critical tool; and the 
implementation of on-the-ground actions, such as BMPs for nonpoint 
sources of pollution and permit requirements included in the NPDES 
water permits. EPA is seeking streamlining in each of these areas, for 
example, efficiencies from clustering pollution control decisions on a 
watershed basis, in order to leverage our resources to the maximum 
extent. Section 106 funding that may be used for monitoring and 
assessment activities was increased by 50 percent in FY 2001 and 
funding for nonpoint source control activities has been increased from 
$100 million to $238 million within the past 5 years. In addition, 
there are many incentive-based, cost-share programs available from USDA 
and within many states to fund the installation of best management 
practices.

    Question 1e. Does EPA have any data or information that would 
suggest that States are in a better position to sustain watershed 
protection, planning, and other related activities than New Jersey was 
at the time you began to provide additional funding for watershed 
programs? If so, please provide such data or information.
    Response. As the primary implementors of water quality programs, 
States are well positioned to continue their critical role in watershed 
planning and protection. We are in the process of examining some of the 
State watershed programs to determine the current status of their 
watershed activities and their future needs. As I discussed in a 
previous response for the record, we are aware that the needs are 
significant, and we are working to effectively target our resources.

    Question 1f. Please describe, in detail, the research programs or 
projects being eliminated through the 25 percent cut described above in 
1b.
    Response. This reduction to the watershed research program is due 
to a Congressional earmark received during the fiscal year 2001 
appropriations process which is not included in the fiscal year 2002 
President's Request.

    Question 2a. Total Maximum Daily Loads (TMDL's). In your January 
testimony before this Committee, you identified nonpoint source 
pollution as one of the most pressing environmental problems. Clearly, 
one way to address this pollution, and ensure that watershed plans are 
effective, is through establishing TMDLs. In a response to my questions 
from that hearing, you responded that TMDLs are important tools for 
achieving water quality goals.
    In promulgating the new TMDL rule last summer, EPA identified costs 
to States associated with complying with existing TMDL requirements 
(i.e., those not associated with the ``new'' TMDL rule). What were the 
costs?
    Response. EPA identified only the costs associated with the 
revisions of the current requirements for the TMDL program contained in 
the July 13, 2000 final rule. Those incremental costs over the current 
TMDL program requirements were estimated at $23 million per year, and 
account for costs accrued by an expedited pace for developing the TMDLs 
and the requirement to incorporate an implementation plan in the TMDL.

    Question 2b. Do you expect that EPA's restudy of the costs of the 
TMDL regulations finalized last year will suggest additional funding 
for State compliance is needed?
    Response. EPA is still in the process of analyzing these costs. We 
expect to issue a draft cost study in the near future and will be 
discussing the estimates with Members of Congress and their staff.

    Question 2c. Do you expect that the current National Academy of 
Sciences review of TMDLs will identify additional research or 
monitoring needs that will require additional funding?
    Response. The NAS study was released on June 15. While it did find 
that the TMDL program should proceed, it recognized that current water 
quality monitoring efforts and other aspects of the TMDL process 
(including State water quality standards) could be strengthened, which 
would have resource implications.

    Question 2d. The President's budget flat-funds both the Section 106 
grant and the nonpoint source pollution programs--the two sources of 
funding available to states to fund TMDLs. By failing to recognize the 
need in your budget, aren't you simply setting the new TMDL rule up to 
fail? If EPA doesn't provide any increased assistance to States, won't 
you be creating a situation which will give a justification to decide 
the new TMDL rules are too costly, and therefore, need to be withdrawn 
or drastically modified?
    Response. We recognize that the States face significant financial 
challenges in their efforts to address environmental problems. However, 
the President's budget maintains significant increases of recent years 
in both the Section 106 and the Section 319 programs, providing a 
significant pool of Federal funds from which States may support TMDL 
development. As stated above, we estimate the incremental cost of the 
new rule to be approximately $23 million; we believe that this 
incremental need can be accommodated within available Federal and State 
budgets.

    Question 2e-f. If you do not believe that you are setting up the 
new TMDL rule to fail, please describe how you expect States to fund 
requirements associated with existing TMDLs requirement, as well as 
those associated with the new rule, in light of the flat-funding 
proposed in your budget for Section 106 grant and nonpoint source 
pollution programs? Please describe whether you expect, absent 
additional Federal assistance for the purpose, States to ``rob Peter to 
pay Paul'' within their own budgets to comply with existing TMDLs 
requirements and those of the new rule?
    Response. We recognize the challenges States face in trying to 
address the full range of environmental issues. However, we believe 
that the FY2001 increases for Sections 106 and 319 ($57 million and $38 
million, respectively, both of which are continued in our 2002 
request), along with State funding, can support States' needs in 2002.
                            other questions
    Question 1a-b. Senate Relations.--In testimony for your nomination 
hearing before this Committee, you stated that among President Bush's 
principles for environmental protection was launching a new era of 
cooperation among all stakeholders. While you didn't mention Congress 
in your testimony, I would think that we would be included as important 
stakeholders. Despite this, it is my impression that my staff and I 
have not received either timely or complete responses to request made 
of EPA under your leadership. Last week, I provided you with a detailed 
list of the many letters or hearing follow-up questions to which have 
received no response. Many of these requests were outstanding for long 
periods of time, or for which we have yet to receive replies. And, it 
often seems, even when we do receive a response, it does not address 
many of the questions or issues raised in the request. (For example, we 
have still not been provided with a list of what regulations you are 
planning to review, and when, despite written and oral requests for 
this basic information). I believe that such information is critical to 
building a good working relationship with the Committee, and to 
enabling us to perform our oversight function.
    (a) Do you recognize that your responses to my requests and those 
of my staff have, to date, been excessively delayed and incomplete in 
many cases?
    (b) What assurances are you willing to make that, in the future, 
your Agency will provide me and my staff with timely and complete 
responses to our requests?
    Response. In the interest of cooperating with your oversight 
interests, I want to assure you that my goal is to supply full and 
complete information to you and your staff on Agency activities. For 
example, your May 10, 2001 correspondence on this subject highlighted 
nine recent information requests. The Agency response dated May 14, 
provided a status summary illustrating an average response time of 2 to 
3 weeks in the majority of cases. For those few cases that may take 
much longer, they typically include some of the following situations: 
the subject involves an ongoing activity where decisions are in the 
process of being made; the response requires interagency consultation; 
and/or the request involves the identification and organization of a 
large volume of documents from several offices and regions. In summary, 
it is my goal to respond to all written requests for information from 
Congress within 2 weeks of their receipt. If a response is not possible 
within that timeframe, you will be notified as to the circumstances of 
the delay and given an anticipated schedule for meeting the request.

    Question 1c. In an April 12 letter to you and Ms. Claudia Tornblum 
of the U.S. Army Corps of Engineers on the rule clarifying the 
definition of ``discharge of dredged material'', I raised the important 
issue of EPA, as the lead agency in implementing this rule, in 
enforcing the rule and issuing guidance to ensure that the rule closes 
the regulatory gaps in wetlands protection for which it was designed. I 
also raised the issue of EPA, the Corps, and the Administration 
undertaking a vigorous defense of the rule. Your response to this 
letter, received on May 8, failed to respond to these issues. What 
actions, if any, is EPA taking, or planning to take, to enforce the new 
rule clarifying the definition of discharge of dredged material?
    Response. EPA will act to fairly and effectively implement our 
existing statutory authorities to further wetlands protection, 
including taking appropriate enforcement action. We will work closely 
with our partner agency, the U.S. Army Corps of Engineers, to ensure 
effective implementation and enforcement of the new ``discharge of 
dredged material'' rule. Because the court's invalidation of the 
predecessor ``Tulloch'' rule rested on its interpretation of the Clean 
Water Act as not allowing for the regulation of ``incidental 
fallback,'' the new rule cannot completely fill the resulting gap in 
wetlands protection. As explained in the rule's preamble, the new rule 
sets forth the agencies' view that the use of mechanized earth-moving 
equipment in waters of the U.S. results in a discharge of dredged 
material, unless there is evidence that only incidental fallback 
results. Under the new rule, we will carefully evaluate situations 
involving the use of mechanized earth moving equipment in waters of the 
U.S., and will take appropriate enforcement action when unpermitted 
discharges result.

    Question 1d. Will EPA be issuing guidance on the new rule? If so, 
when? If not, why not?
    Response. We drafted the preamble for the proposed and final rule 
to discuss the effect of the rule, relevant case law, and factors we 
would consider in determining if a regulable discharge occurs. At 
present, we believe those preamble discussions provide an appropriate 
level of guidance on the new rule. As experience with the new rule 
evolves and questions or issues axise in its implementation, we would 
then consider, in coordination with the Corps, the need for further 
guidance.

    Question 1e. What actions, if any, is EPA taking to defend this 
rule in current litigation aimed at overturning the regulation?
    Response. There currently are two industry challenges to the new 
rule, one brought by the National Association of Homebuilders, and the 
other by the National Stone, Sand, and Gravel Association, which was 
recently joined by the American Road and Transportation Builders 
Association. The plaintiffs claim the rule exceeds our Clean Water Act 
authority by regulating activities that remove, rather than add, 
pollutants, and also assert notice and comment claims under the 
Administrative Procedure Act as well as claims of violation of the 
Constitution's 10th amendment. We are working with attorneys from the 
Department of Justice and the Corps of Engineers on defense of this 
suit, and have participated with them in one meeting with plaintiffs to 
better understand plaintiffs' concerns and determine if there is the 
potential for settlement that would be consistent with effective 
wetlands protection.

    Question 1f. When will we be provided with the list of regulations 
your administration is reviewing, and the schedule for such a review? I 
reiterate my request for this information, and the other requests in my 
letters of January 30, 2001, February 21, 2001, including periodic 
updates on the status of the various regulations under consideration.
    Response. I am committed to fostering a cooperative relationship 
between the Agency and the Congress. I realize that providing 
information in a timely manner to the Congress helps to build a good 
relationship between our two organizations.
    The latest response the Agency provided to you was on May 14. This 
response provided you with an updated status of rules, pending 
settlements, and other legal matters that are within the Agency's 
purview. The May 14 response addressed all follow-up questions that you 
have raised in your letters. We have attempted to provide you with 
timely and complete responses to all your requests; however, some of 
your information requests have required additional time on our part to 
collect and organize. In an effort to be responsive to your requests, 
we have sometimes provided you with a partial response followed at a 
later time by the remaining answers that have required additional time 
for us to collect. I hope this approach is more acceptable than 
delaying the submission of all information to you until all responses 
are complete. This approach is the Agency's standard procedure for 
replying to all information requests.

    Question 2a. Sound Science.--On a number of occasions, you have 
been quoted as stating that one of the major reasons the final arsenic 
standard was withdrawn was concern that there was not ``enough'' 
science to support it. I disagree with your assessment of the science 
of arsenic. But I'm also concerned that, while you seemed to have 
raised the Agency's bar as to what is ``enough'' science, this budget 
clearly does not provide additional funding for science. In fact, your 
budget decreases research into safe drinking water by $4 million. And, 
overall, the budget decreases funding to ``Sound Science'' by over $27 
million. I am concerned that you may be setting up all new 
environmental regulations to fail by, one, expecting an unrealistic 
level of scientific certainty and, two, failing to provide the funding 
needed to produce science to support them.
    Please itemize each cut, contributing to the overall $27 million 
cut, that the President's budget makes to ``Sound Science,'' including 
each specific research program or project cut, their authorized or 
previously appropriated funding level, and their purpose.
    Response. The majority ($26 million) of the reduction to Goal 08: 
Sound Science is due to Congressional earmarks, which we did not carry 
forward into the fiscal year 2002 President's Request. These earmarks 
are outlined in Conference Report 106-988, pages 119-121 and pages 123-
128. The remaining $1 million represents a redirection of funds from 
Goal 08: Sound Science to Goal 05: Waste Management in order to better 
align laboratory resources that support the Superfund program. No 
specific Agency research programs have been cut.

    Question 2b. Please describe how you expect to generate the 
additional science you indicate is needed for making ``sound science'' 
decisions on environmental regulations, if you cut funding to generate 
this science?
    Response. The President's FY 2002 budget request for Goal 8: Sound 
Science is level to the FY 2001 enacted level, when controlled for 
Congressional earmarks. Twenty-six million dollars of the total $27 
million reduction is due to earmarks which are not included in the FY 
2002 President's Request. The remaining $1 million represents a 
redirection of funds from Goal 08 Sound Science to Goal 05: Waste 
Management in order to better align laboratory resources that support 
the Superfund program. Because we have not cut funding for the Agency's 
science programs, we believe that the FY 2002 budget request provides 
sufficient budget resources to address the sound science support for 
environmental regulations.

    Question 3a. Arsenic.--In response to a question asked by Senator 
Voinovich about decisionmaking environmental standards during your 
nomination hearing, you stated that cost-benefit analyses need to be 
considered, but you said ``the final decision has to rest on the health 
of the environment and the population. That is the responsibility of 
the Agency.'' You have told us that you will be reviewing the economics 
of the arsenic drinking water standard. The Safe Drinking Water Act 
Amendments of 1996 provide for consideration of such costs. However, 
these amendments don't specify what decisions must be reached based on 
cost-benefit analyses; Congress clearly provided EPA with discretion in 
that decisionmaking.
    Do you intend to put what you stated to Senator Voinovich into 
practice with respect to finalizing the arsenic drinking water 
standard? In other words, will your ``final decision'' on what standard 
to adopt ``rest on the health of the environment and the population?''
    Response. Under the 1996 SDWA Amendments, when setting standards 
and developing regulations the Agency must use the best available data 
on human health effects and risks. At the same time, the Agency also 
must determine whether the health benefits of a proposed regulation 
justify the costs of meeting the standard. Toward that end, we have 
asked the National Academy of Sciences/National Research Council's 
review panel to review the latest science on arsenic. We also have the 
unique opportunity to obtain the advice of nationally recognized, 
technical experts convened under the National Drinking Water Advisory 
Council to analyze different compliance cost estimates. I am fully 
confident that as a result of the ongoing review of both the latest 
science and the cost estimates, and the regulatory decisions made on 
the basis of that information, the final arsenic in drinking water 
standard will be fully protective of all Americans served by both large 
and small drinking water systems.

    Question 3b. Did you or any of your staff have communications, in 
any form, with anyone associated with the National Academy of Sciences 
on any specific person or persons under consideration by the Academy 
for membership on the scientific review panel for the arsenic in 
drinking water standard? If yes, please identify the EPA employee or 
employees, and the person or persons associated with the Academy, who 
participated in these communications, describe the substance of these 
communications (including what prospective panel member or members were 
discussed), and provide a copy of any related correspondence.
    Response. To the best of our knowledge, only two EPA employees and 
two National Academy of Sciences (NAS) employees had any communications 
regarding potential members of the scientific panel to review the 
arsenic in drinking water standard. Further, and also to the best of 
our knowledge, these communications were entirely verbal; there was no 
written correspondence regarding potential members of the scientific 
panel. Parties to the EPA-NAS discussions were as follows:
    <bullet> EPA.--Ephraim King, Director, Standards and Risk 
Management Division, OGWDW and Jeanette Wiltse, Director, Health and 
Ecological Criteria Division, Office of Science and Technology.
    <bullet> NAS.--Dr. James Reisa, Director, Board on Environmental 
Studies and Toxicology (BEST), NAS and Dr. Michelle Catlin, Staff 
Officer, BEST, NAS.
    These conversations concerned candidate selection, areas of 
scientific expertise, and possible individuals, including: Dr. Kenneth 
P. Cantor, Dr. David L. Eaton, Dr. Robert A. Goyer, Dr. Rogene F. 
Henderson, Dr. Michael J. Kosnett, Dr. Louise M. Ryan, Dr. Kimberly M. 
Thompson, and Dr. Marie E. Vahter.
    Two other individuals who were not selected to be members of the 
final review panel, but who were the subject of discussion between NAS 
and EPA, were Dr. Harvey Clewell and Dr. Mel Anderson.
    Other EPA staff engaged in phone conversations, fax transmittals or 
E-mail exchanges with NAS staff. To the best of our knowledge, however, 
these communications concerned only the agenda of a public meeting held 
on May 21, 2001, clarification of the estimated costs in conducting the 
review, or other strictly administrative matters. Only those EPA and 
NAS senior staff and managers listed above participated in the 
discussion of candidates for membership on the scientific review panel.

    Question 3c. Please explain why you rejected my request, made in an 
April 26 letter, for my staff and I to receive advance notice of the 
persons proposed to be empaneled for the economic review and to be 
given an opportunity to discuss the membership of the panels with you 
before the panel was finalized.
    Response. In your letter of April 26, you stated that, in 
conducting scientific and economic reviews of the arsenic standard, EPA 
must ensure that the reviews are ``conducted fully `in the open', and 
that panels are sufficiently balanced. . .'' Let me summarize for you 
the steps we have taken to convene the Working Group. These steps 
ensured both a full opportunity for a detailed and open public 
discussion of cost issues, and a cost review panel that consist of 
high-quality, independent and objective members.
    <bullet> We published a Federal Register notice soliciting Working 
Group nominations.
    <bullet> We contacted and requested names from all major drinking 
water stakeholders, including the Western Coalition of Arid States 
(WESCAS), the Western Governors Association, the Association of State 
Drinking Water Administrators, the American Water Works Association, 
the National Rural Water Association, and the Association of 
Metropolitan Water Agencies.
    <bullet> To ensure balance and independent analysis, both NDWAC and 
EPA believe that it was not appropriate to select members from states 
or localities involved in legal suits with EPA on the arsenic in 
drinking water regulation. In addition, all authors/researchers, who 
were directly involved in the cost studies performed by American Water 
Works Association Research Foundation or EPA, were not eligible for 
participation on the Working Group. However, I want to emphasize that, 
as outlined in the charge to the Working Group, both EPA and NDWAC have 
invited and welcome technical input from these groups as well as other 
interested stakeholders.
    <bullet> We hired two consultants as primary staff to the Arsenic 
Working Group, both of whom participated in the development of cost 
estimates in the southwest, including for the city of Albuquerque. They 
and EPA staff jointly presented the major findings and analysis of both 
EPA's and AWWARF's studies supporting these cost estimates to the 
Working Group on May 29-30, 2001.
    In addition to these steps, the Working Group will accept for its 
consideration any information from the public that could be useful in 
conducting its review of cost studies.
    As explained in our May 14, 2001 of response, we did not feel it 
was appropriate to establish a separate vetting process for 
establishing the Working Group with Members of Congress or the public 
beyond that described above. We feel that the process we followed 
provided ample opportunity for input on the part of interested members 
of the public. We are confident that, as a result of the steps we have 
taken, the members of the working group are experts in their respective 
fields, represent diverse backgrounds and perspectives, and are 
objective. If you would like further information, we would be pleased 
to update you and your staff on the specific composition of the Working 
Group, its mandate, and its progress to date.
                              brownfields
    Question 1. Administrator Whitman, I was very pleased that we were 
able to pass a bi-partisan brownfields bill out of the Senate, and was 
also very pleased that you and the Administration came out strongly in 
favor of that bill. However, this budget only provides for $5 million 
in additional funding for brownfields. If the bill is signed into law, 
would the Administration be in favor of additional funding to cover the 
provisions of that bill? How would you fund it given your current 
budget? From what program would you take money?
    Response. This Administration has testified in support of Senate 
brownfields legislation which authorized a level of funding more than 
the $97.7 million requested in the fiscal year 2002 President's budget. 
EPA is pleased that legislation has been passed by the Senate and looks 
forward to working with the House of Representatives toward enacting a 
brownfields law. Should brownfields legislation be enacted, the 
Administration will work with Congress to determine an appropriate 
level of funding that is consistent with the President's budget 
priorities.
                                  air
    Question 1. The Agency's budget document says that ``We (the 
Agency) continue to believe that the standards (`the revised, more 
protective NAAQS for ozone and PM') are necessary to protect human 
health, and nothing in the (court) decisions undercuts that belief.'' 
Is that correct, does the Administration support the revised standards, 
as published in 1997, and their implementation as indicated by Mr. 
Holmstead in his nomination hearing?
    Response. Yes, the Administration supports the revised standards 
for ozone and particulate matter, published in 1997 and their 
implementation. EPA is in the process of determining how to implement 
the standards consistent with the Supreme Court's opinion.

    Question 2. Does the Administration budget request for the Agency 
include sufficient and adequate funds to implement the outcome of the 
court decisions to which you referred, including vigorously defending 
the standards against further litigation?
    Response. Yes, the Agency's budget request includes funding to 
implement the outcome of the court decisions. The Agency is continuing 
to work with the Department of Justice in defending the revised 
standards in the ongoing litigation concerning the revised ozone and 
particulate matter standards which is currently before the D.C. Circuit 
Court of Appeals.

    Question 3. Implementation of the new NAAQS for ozone will require 
EPA to take a number of steps, not the least of which is defending the 
standards in court. These steps include: (a) Promulgating a final rule 
on the relative benefits of ozone pollution in reducing human exposure 
to ultraviolet B solar radiation; (b) Developing an implementation 
strategy that comports with the Supreme Courts direction to harmonize 
Subpart 1 and 2; and (c) Making nonattainment designations.
    Will the Agency accomplish all these things, more or less in that 
order, in FY 2002? If not, why not?
    Response. The Agency plans to propose a response to the remand of 
the D.C. Circuit Court to consider the alleged beneficial health 
effects of ozone pollution in shielding the public from the ``harmful 
effects of the sun's ultraviolet rays.'' Our schedule after that is to 
publish the proposed response no later than October 31 and finalize the 
response by the end of August 2002.
    With regard to responding to the Supreme Court's remand to develop 
an implementation strategy to harmonize Subparts 1 and 2, we are 
working with state, local and tribal partners to develop a proposal. 
Our intent is to propose a new implementation strategy next spring.
    EPA continues to work with States and Tribes to identify areas not 
meeting the 8-hour ozone standard. EPA will not issue final 
designations of nonattainment areas until we issue a final 
implementation framework for the standard.

    Question 4. TEA-21 set out a statutory schedule for the designation 
of areas that are in nonattainment with the new PM-<INF>2.5</INF> 
standard. EPA seems to be off that schedule somewhat (by about 1 year). 
Assuming that EPA receives at least the resources in the budget request 
for PM-related work, when will those designations occur?
    Response. EPA is not behind in meeting the schedule in TEA-21 for 
designating areas that are not attaining the PM-<INF>2.5</INF> 
standard. Assuming adequate resources, EPA intends to meet the schedule 
in TEA-21, which requires designations no later than December 31, 2005. 
EPA's scientific review of the PM-<INF>2.5</INF> standard is somewhat 
delayed (about a year) from the schedule EPA issued when it adopted the 
PM-<INF>2.5</INF> standard in 1997, but this delay should not prevent 
EPA from meeting the 
TEA-21 schedule (assuming adequate resources).

    Question 5. Last week, before the House Appropriations Committee, 
you pointed out that the budget request includes level funding for the 
Agency's climate change activities. Most of these are voluntary in 
nature and that approach can be helpful. At that hearing, you said that 
``. . . we've actually seen decreases in greenhouse gases.'' As far as 
I can tell, we have steadily increased our emissions of these gases for 
many years. Please clarify your statement?
    Response. Although total U.S. greenhouse gas emissions have 
increased by about 12 percent from 1990 to 1999 (the latest year of our 
annual emissions inventory), EPA's voluntary climate programs have 
reduced this growth by about 20 percent from what it would have been 
without these programs. In 2000 alone, the voluntary climate programs 
reduced greenhouse gas emissions by 57 million metric tons of carbon 
equivalent (MMTCE). Emissions in a few specific sectors, particularly 
where we have voluntary programs with industry, have declined in some 
cases. In addition, total U.S. greenhouse gas emissions relative to 
gross domestic product have decreased by more than 15 percent during 
the same period.

    Question 6. Does the budget request include adequate funds for the 
Agency to work with Congress on the development of a multi-pollutant 
bill, potentially including carbon dioxide, that deals with power 
plants?
    Response. For fiscal year 2002, EPA will redirect approximately 
$900,000 to help support the development of a multi-pollutant bill to 
integrate emission reduction strategies for nitrogen oxides 
(NO<INF>X</INF>), sulfur dioxide (SO<INF>2</INF>), and mercury. This 
redirection will support a modest analytical effort associated with the 
bill. The need for any additional resources for fiscal year 2002 will 
depend on progress in developing and enacting the bill.
    The Administration's National Energy Policy (NEP) provides many 
recommendations for enhancing these voluntary programs. The NEP calls 
for increasing energy efficiency, including expanding the ENERGY STAR 
program to new building types, as well as to additional products, 
appliances, and services. The NEP also provides recommendations for EPA 
to promote cleaner energy supply, such as Combined Heat and Power. 
These types of programs will continue to play a strong role in limiting 
national emissions of greenhouse gases and other pollutants, while 
allowing our economy to grow.

    Question 7. Do you believe that man made emissions are causing the 
Earth to warm?
    Response. Atmospheric greenhouse gases (water vapor, carbon 
dioxide, and other gases) trap some of the outgoing solar energy, 
retaining heat somewhat like the glass panels of a greenhouse. Some 
greenhouse gases occur naturally in the atmosphere, although human 
activities, such as burning fossil fuel, are a significant source of 
current emissions of these gases. Since the beginning of the industrial 
revolution, atmospheric concentrations of carbon dioxide have increased 
30 percent, methane concentrations have more than tripled, and nitrous 
oxide concentrations have risen by about 15 percent. In addition to 
these greenhouse gases, there are several potent greenhouse gases which 
are, for the most part, solely a product of manmade industrial 
activities. These manmade industrial gases are a small part of total 
current emissions, but are growing rapidly.
    The increases in all of these greenhouse gases have enhanced the 
heat-trapping capability of the earth's atmosphere. In short, the 
globally averaged temperature is rising, and the best available 
evidence to date suggests that most of the observed warming over the 
last 50 years is likely to have been due to the increase in greenhouse 
gas concentrations. A recent study by the National Academy of Sciences 
(NAS) on climate change supports this theory. However, the NAS study 
also tells us that we do not know how much effect natural fluctuations 
in climate may have had on warming, or how much our climate could 
change in the future, or how fast change could occur, or even how some 
of our actions could impact it.

    Question 8. You have expressed your support for voluntary programs, 
like ENERGY STAR, but these voluntary activities have not actually 
moved the Nation much toward our Senate-ratified treaty commitment. 
That commitment says we will get to 1990 emissions levels by the year 
2000. We are 13 percent over that goal now. Why will the voluntary 
programs start working in a significant way now to achieve that goal, 
when they have not before?
    Response. The Administration is now conducting a cabinet-level 
review to develop an effective and science-based approach to address 
the important issue of global climate change. To date, EPA's voluntary 
climate protection programs have been very effective. They have slowed 
the growth of greenhouse gases, while reducing air pollution and saving 
businesses, organizations, and consumers billions of dollars on their 
energy bills, all in a period of strong economic growth. Although it is 
true that U.S. greenhouse gases have increased about 12 percent 
compared to 1990, we estimate that our voluntary programs have reduced 
this growth by about 20 percent from what it would have been without 
these programs. In 2000 alone, the programs:
    <bullet> Reduced U.S. greenhouse gas emissions by an estimated 57 
million metric tons of carbon equivalent.
    <bullet> Reduced energy consumption by an estimated 75 billion 
kilowatt hours.
    <bullet> Offset almost 10,000 megawatts of peak summer capacity.

    Question 9. As you may know, Senator Lieberman and I have publicly 
stated that we are not really interested in working on a multi-
pollutant bill unless it covers carbon dioxide. During your testimony, 
it sounded as if you were supporting a ``cap-and-trade'' program for 
carbon dioxide, similar to the acid rain program. Can we work out some 
kind of system without labeling it mandatory or voluntary that 
effectively caps carbon dioxide emissions from power plants?
    Response. The Administration is now conducting a cabinet-level 
review to develop effective and science-based approach to address the 
important issue of global climate change. The Administration intends to 
work with Congress to establish emissions caps on sulfur dioxide, 
nitrogen oxides, and mercury from power plants. However, the President 
does not believe that the government should impose mandatory emissions 
reductions for carbon dioxide from power plants, because it creates the 
potential for significantly higher electricity prices, with little or 
no benefits.

    Question 10. The Supreme Court also decided another case in EPA's 
favor earlier this year. That was on the NO<INF>X</INF> SIP call. Not 
all of the states have submitted revisions for their SIP (state 
implementation plans) and the clock is ticking. Does the budget request 
contain adequate funds for the preparation and possible imposition of a 
Federal Implementation Plan for states who fail to submit timely and 
complete SIPs?
    Response. EPA remains committed to implementing on time, rules to 
combat the regional smog problem in the eastern United States. The 
NO<INF>X</INF> reductions from SIP call are needed to help many cities 
in the eastern half of the United States meet the 1-hour ozone air 
quality standard set to protect public health. So far, 15 states and 
the District of Columbia have adopted or are in the process of adopting 
NO<INF>X</INF> SIP call rules that EPA has approved, or expects to be 
able to approve, as achieving the required reductions on time. We are 
continuing to work with the states to maximize chances of getting 
approvable rules from all states in time for sources to comply by May 
2004.
    Alternatively, we are positioned to issue a final Federal 
implementation plan (FIP) rule in a timely manner, if necessary. EPA 
proposed the FIP rule in October 1998 and issued the NO<INF>X</INF> 
trading program--a key part of the proposed FIP rule--as a final rule 
under section 126 in January 2000.

    Question 11. Does the budget request assume that the Agency will 
finalize guidance in fiscal year 2002 on the best available retrofit 
technology (BART) to the states so they can go ahead with implementing 
the Regional Haze rule? When will that final guidance be issued?
    Response. On June 22, 2001, EPA Administrator Christie Whitman 
signed the BART proposal. The proposed rule provides guidelines for 
states and tribal air quality agencies to determine air pollution 
controls for a number of older, large power plants and other industrial 
facilities. The proposed amendments appeared in the Federal Register on 
July 20, 2001; the public-comment period for this proposal closes on 
September 18, after which EPA will develop the final rule in light of 
comments received. EPA's schedule calls for submission of the final 
rule to OMB in May or June of 2002, with the final rule issued in the 
Fall of 2002.

    Question 12. New Source Review has been under much discussion since 
EPA took enforcement actions against 32 power plans last year. How much 
does your budget request assume will be spent on supporting the ongoing 
litigation involving those actions?
    Response. EPA does not track how much is being spent on these 
enforcement cases. In addition, EPA has not developed a specific budget 
line item for NSR enforcement at this time. In fiscal year 2002, the 
Agency is requesting 866 workyears and $92 million for the civil 
enforcement program in the Environmental Programs and Management 
appropriation. Support for NSR litigation comes from the civil 
enforcement budget.

    Question 13. Does your budget request assume and include resources 
to support additional enforcement actions under New Source Review in 
fiscal year 2002? Please quantify those specific resources.
    Response. EPA does not specifically track resources dedicated to 
NSR. In addition, EPA has not developed a specific budget line item for 
NSR enforcement at this time. In fiscal year 2002, The Agency is 
requesting 866 workyears and $92 million for the civil enforcement 
program in the Environmental Program and Management appropriation. 
Support for NSR litigation comes from the civil enforcement budget.

    Question 14. Given the number of reports and activities directed by 
the President's new National Energy Policy involving EPA, how will the 
agency comply with those directions and existing resource/program 
requirements in fiscal year 2002? Please specify the additional amounts 
necessary or quantify the probable shifts in resource allocations that 
will occur in fiscal year 2002 to comply with those directions.
    Response. We are in the process of reviewing the policy 
recommendations to determine which current EPA programs fit in the 
policy, where we may need to expand or scale back current programs and/
or initiate new programs, and how EPA, in conjunction with other 
Federal agencies, can best meet the requirements of the National Energy 
Policy. Once we have a full understanding of the policy, we will lay 
out a plan that will allow us to comply with the Administration's 
recommendations. This plan would include resource and program 
requirements for fiscal year 2002.
                               pesticide
    Question 1. As you know, I wrote you on March 15 urging you to sign 
a consent decree to put EPA on a schedule to comply with critical 
pesticide protections for children. I was very pleased when you signed 
the decree. Time and time again since then, President Bush has reminded 
us of that action, highlighting the pesticide settlement as great 
environmental achievement.
    That achievement is only as good as the dollars the President is 
willing to put behind it. This year, maintenance fees authorized under 
the Federal Insecticides, Fungicide, and Rodenticide Act (FIFRA) which 
support reregistration of pesticides will expire. You have not 
requested an extension of that authorization. At the same time, your 
budget also shows as cut of 50 percent from last year's level for the 
pesticide tolerance reassessment program.
    Together the lack of reauthorization of these FIFRA fees and the 
cut in appropriated dollars for the pesticide tolerance program would, 
by your own estimation, result in the loss of 200 employees who perform 
tolerance work--25 percent of the pesticide program office. I 
understand that the Administration doesn't view this as a cut because 
it plans to finalize a proposed Clinton Administration rule to raise 
the fees charged pesticide companies to do this work. In view of the 
Administration's strong commitment to advancing critical pesticide 
protections for children, and its reliance upon the tolerance fee rule 
of effect that goal.
    Will you strongly oppose legislative riders seeking to limit or 
prohibit EPA from finalizing or implementing the tolerance fee rule?
    Response. EPA will work to secure to passage of the President's 
budget that calls for implementation of the tolerance fee rule.

    Question 2. Will you recommend that the President veto legislation 
that contains a rider to block the imposition of the tolerance rule? 
Please provide a yes or no answer to this question.
    Response. It is not possible to provide a yes or no answer at this 
time, because I can not speculate on the Administration's future 
position on appropriations legislation. It is critical, however, that a 
stable funding mechanism be identified.

    Question 3. In the event that the rule is blocked either by 
congressional or judicial action, will you commit to fully implementing 
the consent decree signed on March 19, 2001 in NRDC v. Whitman?
    Response. Yes, EPA is committed to seeing that work go forward. 
Currently the Consent Decree is undergoing public comment, and EPA will 
review these comments.

    Question 4. In the event that the rule is blocked by either 
congressional or judicial action, will you commit to fully implementing 
the programs contained in your budget request including, but not 
limited to: reassessing 9,721 pesticide standards to protect children; 
priority reassessment for high risk pesticides on foods commonly eaten 
by children; health effects research to measure the effects of 
pesticides on children; exposure research to measure pathways of 
pesticide exposure to children; and research to assess the cumulative 
risks pesticides pose to children?
    Response. EPA does not intend to implement any reductions-in-force. 
The Agency is committed to implementing the tolerance reassessment 
program on schedule. If the tolerance fee as mandated by FQPA is not, 
in the opinion of Congress, the best method of funding these critical 
pesticide tolerance reassessment programs, we welcome the opportunity 
to work with the Congress to explore other approaches to providing 
full, stable funding for the program.

    Qeustion 5. In the event that the rule is blocked by either 
congressional or judicial action, will you seek additional appropriated 
dollars or fees to support the above-mentioned programs rather than 
institute cuts to other EPA programs?
    Response. EPA does not plan to implement any reductions-in-force, 
and it is important that a stable funding mechanism be identified.

    Question 6. Would you support legislation to reauthorize the 
maintenance fees FIFRA?
    Response. EPA fully supports the President's budget and to collect 
maintenance fees instead of tolerance fees would be inconsistent with 
the current statutory mandate to collect tolerance fees that is 
reflected in the President's budget. The important work of the 
tolerance reassessment program must continue, and the tolerance fee 
rule provides for full, stable funding for the life of the program. Any 
alternatives would need to offer similarly stable and adequate funds.
                               superfund
    Question 1. As you well know from your experience in New Jersey, 
the Superfund program could not achieve the number of cleanups we have 
seen in recent years without the significant participation of PRPs: 
PRPs conduct approximately 70 percent of the cleanups of NPL sites. I 
am very concerned that the cuts to enforcement will result in fewer 
cleanup agreements between EPA and PRPs, and less cost recovery. As you 
know, unlike other environmental laws, states cannot be authorized to 
implement Superfund--only EPA has the authority to select remedies and 
issue cleanup orders and enter settlements at NPL sites. Under the 
President's proposed budget would there be any reduction to the number 
of FTEs for Superfund enforcement?
    Response. The President's fiscal year 2002 budget request includes 
a reduction of 68.1 FTE to the Superfund enforcement program. This is 
part of an overall Agency reduction to meet a congressionally-directed 
FTE ceiling of 17,500 for EPA in fiscal year 2002.

    Question 2. Can you guarantee that there will be sufficient staff 
resources to ensure all of the needs will be met, and no cleanup 
agreements will be delayed? How can you demonstrate this?
    Response. In fiscal year 2002, EPA will continue to stress 
``enforcement first'' by getting PRPs to initiate or fund 70 percent of 
new remedial construction starts, at non-Federal Facility Superfund 
sites, and emphasize fairness in the settlement process. Furthermore, 
the President's budget request provides sufficient funding to address 
cost recovery cases greater than or equal to $200,000 prior to the 
expiration of their statute of limitations.
    It will require hard work and creativity to achieve our goals with 
these reductions. I'm asking my people to look for new efficiencies and 
innovations in the way they carry out their day to day work to keep 
enforcement projects, including settlement negotiations, proceeding at 
a steady pace. The Superfund enforcement program's reduction of 68 FTE 
does not mean 68 people, as the program is currently operating below 
the fiscal year 2001 FTE levels. I expect to meet this reduced level 
through attrition.

    Question 3. As you know, any reduction in cleanups by PRPs means 
either a greater shift of cleanup costs to the general public, or a 
sacrifice in the number of cleanups. I am concerned that the 
President's budget request is setting us up for less cost recovery. Can 
you demonstrate to me that this is not the case? Are there FTE cuts in 
the Superfund cost recovery area?
    Response. The Agency has requested sufficient funding to meet its 
goal of addressing all cost recovery cases with total past costs 
greater than $200,000 before the expiration of their statute of 
limitation. Cost recovery collections received by the U.S. Treasury 
Department will vary from year to year depending on the value of 
settlements the Agency achieves. However, the Agency doesn't anticipate 
any loss of revenue as a result of reductions to enforcement. The 
Superfund enforcement program was reduced by a total of 68 FTE, of this 
amount, 16 FTE were reduced from the cost recovery program. I expect to 
meet this reduced level through attrition.
                    underground storage tank program
    Questions 1 and 2. I have a question about the underground storage 
tanks program under the Resource Conservation and Recovery Act. It is 
my understanding that there are approximately 160,000 confirmed 
gasoline leaks that still need to be cleaned up, plus about 200,000 
abandoned petroleum tanks at brownfields sites that still need to be 
cleaned up; a new GAO report that concludes that compliance with EPA 
tank regulations is still a significant problem; MTBE contamination in 
our nations's drinking water from Long Island to Lake Tahoe and many 
places in between; and a $1.5 billion balance sitting in EPA's Leaking 
Underground Storage Tank Trust Fund, collecting about $90 million in 
interest a year and another $190 million in new revenue a year. Why is 
the Administration only requesting $71.9 million in fiscal year 2002 
for the underground tank program?
    Response. We believe that the amount we are requesting from the 
Leaking Underground Storage Tank (LUST) Trust Fund is appropriate at 
this time. Cleaning up petroleum contamination from leaking underground 
storage tanks that affect public health and the environment is an 
important priority for EPA. We will continue to evaluate the adequacy 
of resources to address these releases especially in light of the 
presence of additional contaminants such as methyl ter-butyl ether 
(MTBE) which have caused cleanups to take longer and be more expensive.

    Question 3. Do you think that amount will allow the Administration, 
with the states, to address the backlog of sites requiring inspections, 
cleanup and enforcement? Can you explain how this would be 
accomplished?
    Response. EPA has begun implementing an initiative to reduce the 
backlog of cleanups. Under this initiative, EPA will work with states 
to establish national, regional, and state-specific cleanup goals that 
will reduce the backlog over time. EPA will also promote the use of 
innovative cleanup tools including multi-site cleanup agreements and 
performance-based cleanup contracts as part of this initiative. EPA 
believes that the current budget provides the resources needed to begin 
the process of addressing the cleanup backlog. We will, however, 
continue to evaluate our cleanup progress and the adequacy of resources 
to reduce the backlog.
    With respect to inspections and enforcement of EPA's underground 
storage tank regulatory requirements, the budget provides $10 million 
in State grants. EPA believes that this amount is sufficient to begin 
implementing an initiative to increase compliance with the regulatory 
requirements. Working with states, EPA will set national and regional 
targets for bringing tanks into compliance. EPA will also work with 
states to obtain commitments to increase their inspection and 
enforcement presence if state-specific targets are not met. As part of 
this initiative, EPA and the states will use innovative tools such as 
multi-site agreements to bring more tanks into compliance. EPA will 
also provide technical assistance tools, improved guidance, and 
training to owners, operators and inspectors to foster improved 
operational compliance with the requirements.
                               __________
    Responses by Christine Todd Whitman to Additional Questions from
                             Senator Chafee
    Question 1. The Estuaries and Clean Water Act of 2000, signed into 
law last year, expands the National Estuary Program (NEP) and 
reauthorizes funding for the program at $35 million for fiscal year 
2002. Despite the growth in the number of NEPs, the level of 
appropriated funds has peaked at roughly $18 million, resulting in 
baseline funding for each NEP of between $310,000 and $350,000 after 
accounting for administrative costs. Meanwhile, documented needs for 
the NEPs are estimated in the billions of dollars.
    In light of the recent reauthorization, could you provide 
justification for EPA's fiscal year 2002 request for the NEP?
    Response. We believe that the fiscal year 2002 request will be 
sufficient to maintain approximately level funding for the 28 current 
NEPs. It should be noted that funding under the NEP program has largely 
been focused on organizing local stakeholder interests and developing 
management plants, not on large scale implementation of those plans. 
Other Agency funds support implementation efforts, including the $450 
million in new grants to states requested in fiscal year 2002 to 
address combined sewer overflows and sanitary sewer overflows--issues 
of critical significance to many estuaries.

    Question 2a. I have been contacted by a Rhode Island water company 
that is concerned with the Agency's plans to reclassify chlorine gas 
used for water treatment as a ``restricted use'' pesticide. I 
understand this reclassification is now under review. As the new 
administrator, what changes may be made to the chlorine gas regulation?
    Response. By way of background, EPA regulates pesticides under the 
Federal Insecticide, Fungicide, and Rodenticide Act (FIFRA). EPA 
requires pesticides to be thoroughly tested before they are registered 
(licensed by EPA for sale and use in U.S.). In evaluating a pesticide 
registration application, EPA assesses a wide variety of potential 
human health and environmental effects associated with use of the 
product. We carefully consider the scientific evidence to determine 
whether or not and how the pesticide can be distributed and used safely 
in the United States and if so, under what restrictions. If, after 
registration, the Agency has reason to suspect that a pesticide may 
pose any unreasonable risk, we will take additional regulatory action 
as appropriate.
    EPA is currently in the midst of reassessing pesticides through the 
reregistration program. EPA is assuring that older pesticides meet 
contemporary health and safety standards and product labeling 
requirements.
    The Agency has not made its final decision on the reregistration of 
chlorine gas. Chlorine gas is currently undergoing reregistration 
review. In February 1999, the Agency issued a draft Reregistration 
Eligibility Decision (RED) on the pesticidal uses of chlorine gas. On 
March 10, 1999, the Agency published a Federal Register (FR) Notice of 
Availability opening a 60-day public comment period for the Chlorine 
Gas RED. Based on comments received, a second Notice of Availability 
was published September 2000, specifically requesting comment on 
possible restricted use status for chlorine gas. The comment period 
closed on December 18, 2000. EPA encouraged registrants, users, other 
stakeholders and the public to fully participate and submit their 
comments. EPA is carefully considering all comments and is working with 
industry, the states, and other stakeholders in addressing them. Many 
water suppliers participated in the comment process and EPA is 
reviewing their concerns.

    Question 2b. When is the new regulation for chlorine gas 
reclassification expected to be proposed?
    Response. EPA intends to have the amended chlorine gas RED 
completed by Fall 2001. This will include our decision of whether or 
not to list chlorine gas as a Restricted Use Pesticide and require 
pesticide training and certification for chlorine gas applicators. This 
would include drinking water treatment system operators, although we 
would encourage States to use their current training and certification 
programs to avoid duplicative training requirements. The scheduled time 
for implementation will be a minimum of 2 years after the date of our 
final decision.

    Question 3. It is my understanding that EPA's Office of Solid Waste 
has been working on a draft Notice of Proposed Rulemaking for some time 
that would clarify Federal Policy under the Resource Conservation and 
Recovery Act regarding the handling and treatment of industrial wiping 
products used with industrial solvents. What is the status of this 
rulemaking? Do you expect EPA to publish this rulemaking during this 
fiscal year?
    Response. EPA's Office of Solid Waste has been examining the issue 
of Federal policy regarding the regulation of solvent-contaminated 
industrial wiping materials. The Agency has not determined what, if 
any, regulatory action may be appropriate for solvent-contaminated 
wipes. Thus, we are unable at this time to predict if or when a 
proposed regulation would be issued. We do not expect a rule to be 
proposed this fiscal year.
    EPA's goal is to ensure that solvent-contaminated wipes are managed 
in an environmentally sound and cost-effective manner that encourages 
source reduction and recycling of hazardous solvents. Throughout our 
process, we have met with key stakeholders, including small businesses, 
to listen to their concerns and incorporate those concerns wherever 
appropriate. In addition to the ongoing stakeholder outreach effort, 
EPA has been and will continue to analyze the economic impact, 
including small business impacts, of any future rule on the 
stakeholders who would be affected.
  

                                <greek-d>

</pre></body></html>
